<html>
<title> - STATUS OF OCEAN OBSERVING SYSTEMS IN THE UNITED STATES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
        STATUS OF OCEAN OBSERVING SYSTEMS IN THE UNITED STATES

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, July 13, 2004

                               __________

                           Serial No. 108-102

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
Committee address: http://resourcescommittee.house.govNovember 12, 2004


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-997                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               Stephanie Herseth, South Dakota
Tom Osborne, Nebraska                George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Dennis R. Rehberg, Montana           Ruben Hinojosa, Texas
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Tom Cole, Oklahoma                   Joe Baca, California
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio

                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 13, 2004...........................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     3
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Boesch, Dr. Donald F., President, Center for Environmental 
      Science, University of Maryland............................    43
        Prepared statement of....................................    45
    Brohl, Helen A., Executive Director, National Association of 
      Maritime Organizations.....................................    87
        Prepared statement of....................................    90
    Cooper, Cortis, Metocean Consultant, Energy Technology Co., 
      ChevronTexaco..............................................    82
    Garfield, Dr. Newell (Toby), San Francisco State University, 
      Center for Integrative Coastal Observation, Research and 
      Education (CICORE).........................................    66
        Prepared statement of....................................    68
    Grassle, Dr. J. Frederick, Director, Institute of Marine and 
      Coastal Sciences, Rutgers, The State University of New 
      Jersey.....................................................    83
        Prepared statement of....................................    85
    Leinen, Dr. Margaret S., Assistant Director for Geosciences, 
      National Science Foundation................................    17
        Prepared statement of....................................    18
    McCammon, Molly, Executive Director, Alaska Ocean Observing 
      System.....................................................    74
        Prepared statement of....................................    76
    Richert, Evan, President, Gulf of Maine Ocean Observing 
      System.....................................................    79
        Prepared statement of....................................    81
    Spinrad, Dr. Richard W., Assistant Administrator, National 
      Ocean Service, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................     6
        Prepared statement of....................................     8
    Weller, Dr. Robert A., Senior Scientist and Director, 
      Cooperative Institute for Climate and Ocean Research, Woods 
      Hole Oceanographic Institution.............................    30
        Prepared statement of....................................    33
    Winokur, Robert, Technical Director, Office of the 
      Oceanographer of the Navy..................................    24
        Prepared statement of....................................    26


   OVERSIGHT HEARING ON THE STATUS OF OCEAN OBSERVING SYSTEMS IN THE 
                             UNITED STATES.

                              ----------                              


                         Tuesday, July 13, 2004

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest and Pallone.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee will come to order.
    Good morning and welcome. I want to thank all of you for 
coming this morning and we look forward to hearing our 
witnesses. We have not seen or heard from Don Boesch yet, but 
when he comes in, we will welcome him with open arms, I am 
sure.
    The balloon on the ceiling is to test the atmosphere at the 
top of the hearing room. We have the technology to be able to 
detect hot air from really good information.
    But anyway, welcome all of you to our hearing this morning.
    The topic for today's oversight hearing is the need for, 
and the Nation's progress regarding, the development and 
implementation of an integrated and sustained ocean observing 
system.
    Dr. Boesch, welcome. You may come up to the front table, 
sir. We just barely got started. Thank you for coming, and good 
morning to you.
    The Ocean Commission recently released its draft Governor's 
report and recommended the development of a national integrated 
ocean observing system, and many States have commented that 
this type of integrated system is a high priority. The 
Commission stated the forecasting and observational capacity of 
these systems, and the products produced by the information 
collected, should be as useful and analogous to the benefits 
received by the general public through the national weather 
forecasting and warning network.
    Over 150 years ago the Nation embarked on a mission to 
create a comprehensive weather forecasting and warning system. 
It took a lot of ingenuity, manpower, and extraordinary amounts 
of funding, but our Nation was successful in this endeavor and 
today people cannot live without a daily, if not hourly, update 
of weather reports.
    Our Nation has also put space exploration as a high 
priority and we know more today about the moon, Mars and other 
planets in our solar system than we did 40 years ago. The 
development of rockets and shuttles, satellites, telescopes, 
lunar modules, and many other technologies have allowed us to 
go into space, land on the moon, send land rovers to Mars, and 
glean valuable information that would have been impossible to 
collect otherwise.
    Our space exploration and our weather program show that 
when our scientists and the Nation support a program and devote 
time, money, and, more importantly, the human mind into these 
types of endeavors, we are highly successful.
    What has occurred in our atmosphere and in space has not 
occurred in our oceans. The ocean has been referred to as the 
last frontier, a place where we still find new organisms and 
species in its deepest depths. It is quite amazing that there 
are still places on our planet where a creature awaits 
discovery or where we struggle to understand the implication of 
climate change and the causes of those changes.
    Global climate change has been in the news for quite some 
time and the information and misinformation available to the 
public can be quite alarming. Recently Hollywood produced a 
feature film, ``The Day After Tomorrow.'' When I was watching 
that film, I would have preferred to stay in New York City 
after the cold weather hit. But ``The Day After Tomorrow,'' 
about climate change, where the world's climate changed 
radically in a 4-day time span. Most people understand the 
earth's climate would not change this quickly, but there have 
also been reports of climate change occurring within decades, 
which may be a somewhat new phenomenon. Changes in our climate 
could affect the North Atlantic Oscillation and Thermohaline 
Circulation. We look forward to discussing these issues with 
our prestigious witnesses here today.
    We are also interested and hope to get a better 
understanding of how regional, coastal, national, and global 
ocean observing systems will help us understand the chemical, 
physical, and biological processes in our oceans. I would like 
to get a better understanding of the technologies used to run 
these systems, the type of physical, chemical, and biological 
data collected, the products developed from this data, and the 
users of these products. In addition, I would like to discuss 
how these systems will help us understand the ocean's 
involvement in the changes to the earth's climate. In 
particular, I would like to know if these ocean observing 
systems can assist in determining whether changes are occurring 
due to human influences, natural processes, or both.
    I understand that there are up to 40 coastal ocean 
observing systems throughout the United States that are running 
fairly independently, and that a plan is being developed by 
Federal agencies to coordinate the functions of these regional 
systems to support a national ocean observing system. I also 
understand that before we can have an integrated system, we 
face a number of hurdles, including limitations in our data 
management systems and predictive model capabilities.
    Today's hearing should shed some light on the current 
status of ocean observing systems and the critical first steps 
necessary to see an integrated ocean observing system come into 
fruition in the very near future. And we, as Members of 
Congress, would like to be partners in that, what we believe is 
a most extraordinary, necessary effort.
    I thank you for coming this morning, and will yield at this 
time to my good friend from New Jersey, Mr. Pallone.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Good morning. I would like to welcome our witnesses and thank them 
for taking the time to be with us today.
    The topic for today's oversight hearing is the need for, and the 
nation's progress regarding, the development and implementation of an 
integrated and sustained ocean observing system.
    The Ocean Commission recently released its draft Governor's report 
and recommended the development of a national integrated ocean 
observing system, and many states have commented that this type of 
integrated system is a high priority. The Commission stated the 
forecasting and observational capacity of these systems, and the 
products produced by the information collected, should be as useful and 
analogous to the benefits received by the general public through the 
national weather forecasting and warning network.
    Over 150 years ago, the nation embarked on a mission to create a 
comprehensive weather forecasting and warning system. It took a lot of 
ingenuity, manpower, and extraordinary amounts of funding, but our 
nation was successful in this endeavor and today people cannot live 
without a daily, if not hourly, update of weather reports.
    Our nation has also put space exploration as a high priority and we 
know more today about the Moon, Mars and other planets in our solar 
system then we did 40 years ago. The development of rockets and 
shuttles, satellites, telescopes, lunar modules, and many other 
technologies have allowed us to go into space, land on the Moon, send 
land rovers to Mars, and glean valuable information that would have 
been impossible to collect otherwise.
    Our space exploration and our weather programs show that when our 
scientists and the nation support a program and devote time, money and 
most importantly the human mind into these types of endeavors we are 
highly successful.
    What has occurred in our atmosphere and in space, has not occurred 
in our oceans. The ocean has been referred to as the last frontier, a 
place where we still find new organisms and species in its deepest 
depths. It is quite amazing that there are still places on our planet 
where a creature awaits discovery or where we struggle to understand 
the implication of climate changes and the causes of these changes.
    Global climate change has been in the news for quite some time and 
the information and misinformation available to the public can be quite 
alarming. Recently Hollywood produced a feature film--THE DAY AFTER 
TOMORROW--about climate change, where the world's climate changed 
radically in a four day time span. Most educated people understand the 
earth's climate would not change this quickly, but there have also been 
reports of climate changes occurring within decades, which may be a 
somewhat new phenomena. I have a personal interest in how changes in 
our climate could effect the North Atlantic Oscillation and 
Thermohaline Circulation. I look forward to discussing these issues 
with our prestigious witnesses today.
    I am also interested and hope to get a better understanding of how 
regional, coastal, national and global ocean observing systems will 
help us understand the chemical, physical and biological processes in 
our oceans. I would like to get a better understanding of the 
technologies used to run these systems, the type of physical, chemical 
and biological data collected, the products developed from this data 
and the users of the products. In addition, I would like to discuss how 
these systems will help us understand the oceans involvement in the 
changes to the earth's climate. In particular, I would like to know if 
these ocean observing systems can assist in determining whether changes 
are occurring due to human influences or if they are a part of natural 
processes.
    I understand that there are up to 40 coastal ocean observing 
systems throughout the U.S. that are running fairly independently, and 
that a plan is being developed by Federal agencies to coordinate the 
functions of these regional systems to support a national ocean 
observing system. I also understand that before we can have an 
integrated system, we face a number of hurdles, including limitations 
in our data management systems and predictive model capabilities.
    Today's hearing should shed some light on the current status of 
ocean observing systems and the critical first steps necessary to see 
an integrated ocean observing system come into fruition.
    I yield to the Ranking Member, Mr. Pallone, for any opening 
statement he may have.
                                 ______
                                 

   STATEMENT OF THE HON. FRANK PALLONE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW ERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I appreciate your 
having decided to move ahead with today's hearing regarding 
ocean observation, because it is such an important issue.
    But I did want to reiterate a procedural problem which I 
mentioned to you yesterday, and that is that, for whatever 
reason, the Resources Committee, the full committee, is having 
a hearing today, a very important hearing, actually, and--I 
know I have already mentioned it to you, but I will mention it 
again and I mentioned to Chairman Pombo that I think it is 
inappropriate for us to have hearings before both the 
Subcommittee and the full committee at the same time, because 
it makes it difficult, if not impossible, for Members to 
participate. As you can see, it is just the two of us here 
today. And I know there are Members on the Democratic side who 
wanted to come, but are at the other committee, full committee 
hearing down the hall.
    I know it is not your fault, but I just hope that we can 
work together so that we don't have these conflicts in the 
future. Because I am actually have to step out myself at some 
point to go down there and participate.
    I also hope that this is only the first in a series of 
oversight hearings concerning the recently released 
recommendations of the U.S. Commission on Ocean Policy. I was 
heartened by the strong endorsement that ocean observation 
initiatives have received and view the Ocean Commission's 
recommendation as a very positive development.
    I have been a long-time supporter of increased funding for 
the design, coordination, and deployment of innovative 
automated observation technologies to improve our basic 
understanding of the coastal and ocean environment of the 
United States. Much of what I do know about coastal 
observations I attribute to Dr. Fred Grassle and his work at 
the Institute of Marine and Coastal Science at Rutgers 
University. And I would like to thank Dr. Grassle for again 
coming before the Subcommittee to update our members about the 
significant research conducted through the LEO-15 array and 
planned expansion of this planned technology in the 
southeastern United States. Of course, several of my Democratic 
colleagues are equally enthusiastic about the potential for a 
national ocean observation system, especially Congressman Sam 
Farr and Congressman Tom Allen.
    I also wanted to thank both Dr. ``Toby'' Garfield and Mr. 
Evan Richert for traveling to Washington to inform the 
Subcommittee of the regional programs they are involved with in 
California and Maine.
    I am compelled to say that I am very concerned about where 
we are going to find the funding to design, build, deploy, and 
maintain a comprehensive ocean observation system. I don't want 
to be negative, but, as many Members know, last week the House 
passed legislation significantly cutting funding for NOAA's 
ocean and coastal programs from last year's appropriation. A 
number of us, including myself, went on the floor and expressed 
our hope that, in conference, that some of that funding would 
be restored. But the stark reality is that, unless Members 
coalesce around the need for a genuine ocean observation 
system, the funding is never going to be there.
    And no less important, the Administration must bring to 
this initiative the very same commitment it brought to the 
modernization of NOAA's weather forecasting and satellite 
programs, which Chairman Gilchrest mentioned. In the absence of 
such a commitment, a comprehensive observation system will 
remain dead in the water. We simply can't afford to have that 
happen.
    Mr. Chairman, I think we have to work together, as you 
know, to better inform our colleagues about the many cross-over 
benefits that a nationwide ocean observation will bring in 
research, national security, hazard mitigation, and natural 
resource management. And I know this is going to be a 
challenge, but I pledge to you my cooperation in that effort 
and thank you again for having the hearing today.
    [The prepared statement of Mr. Pallone follows:]

  Statement of The Honorable Frank Pallone, Jr., a Representative in 
                 Congress from the State of New Jersey

    Thank you, Mr. Chairman. I appreciate that you have decided to move 
ahead with today's hearing regarding ocean observations.
    I hope that this is only the first in a series of oversight 
hearings concerning the recently released recommendations of the U.S. 
Commission on Ocean Policy. I was heartened by the strong endorsement 
that this initiative received and view that recommendation as a very 
positive development.
    I have been a long-time supporter of increased funding for the 
design, coordination and deployment of innovative, automated 
observation technologies to improve our basic understanding of the 
coastal and ocean environment of the United States.
    Much of what I do know about coastal observations I attribute to 
Dr. Fred Grassle and his work at the Institute of Marine and Coastal 
Science at Rutgers University. I would like to thank Dr. Grassle for 
again coming before the subcommittee to update our members about the 
significant research conducted through the LEO-15 array and planned 
expansion of this technology in the Southeastern U.S.
    Of course, several of my Democrat colleagues are equally 
enthusiastic about the potential for a national ocean observation 
system, especially Congressman Sam Farr and Congressman Tom Allen. I 
also want to thank both Dr. Toby Newell and Mr. Evan Richert for 
traveling to Washington to inform the subcommittee of the regional 
programs they are involved with in California and Maine.
    But in closing, I am compelled to say that I am very concerned 
about where we are going to find the funding to design, build, deploy 
and maintain a comprehensive ocean observation system.
    I do not want to be pessimistic, but as many Members know, last 
week the House passed legislation significantly cutting funding for 
NOAA's ocean and coastal programs from last year's appropriation. 
Frankly, the stark reality is that unless Members coalesce around the 
need for a genuine ocean observation system, the funding will never be 
there.
    And no less important, the Administration must bring to this 
initiative the very same commitment it brought to the modernization of 
NOAA's weather forecasting and satellite programs. In the absence of 
such a commitment, a comprehensive observation system will remain dead 
in the water.
    We simply cannot afford to have that happen. Mr. Chairman, we must 
work together to better inform our colleagues about the many cross-over 
benefits that a nationwide ocean observation will bring in research, 
national security, hazard mitigation and natural resource management.
    This will be a challenge but I pledge to you my cooperation in that 
effort.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Pallone. And we will see if 
we can work to try to avoid the conflict of the hearings 
schedule in the future.
    I would also like to say I would like to work with you and 
other Members on both sides of the aisle in dealing with ocean 
issues, and this one in particular that we are hearing 
testimony on today. There are a whole range of scientific 
endeavors that Congress supports, whether it is health care, 
diseases, manned exploration/non-manned exploration of space, 
and a variety of oceans issues. It would be important for us to 
prioritize all of these research and scientific endeavors so 
that we can allocate the funds to the things that are most 
needed in the near future, and I think ocean issues--the full 
range of what the Navy does, what the scientific community does 
dealing with the health of the planet, climate change, 
fisheries, coastal areas--those things probably, in my 
judgment, should take priority.
    The ocean has always been a little bit of a set-back to the 
Congress, but I think, working together, we can help make that 
priority for oceans a reality.
    We are very happy this morning to have Dr. Richard Spinrad 
from NOAA, the assistant administrator. Welcome, sir. Dr. 
Margaret Leinen, National Science Foundation. Mr. Robert 
Winokur, an oceanographer for the Navy--thank you very much for 
coming this morning. Dr. Robert Weller, senior scientist, Woods 
Hole--thank you for coming down from Massachusetts. And Dr. 
Donald Boesch, president, Center for Environmental Science, 
from the University of Maryland. Welcome to all of you.
    We will start with Dr. Richard Spinrad.

       STATEMENT OF RICHARD W. SPINRAD, Ph.D., ASSISTANT 
          ADMINISTRATOR, NATIONAL OCEAN SERVICE, NOAA

    Dr. Spinrad. Good morning, Mr. Chairman, and members and 
staff of the Subcommittee. I am Rick Spinrad, the assistant 
administrator of NOAA for ocean services and coastal zone 
management.
    Imagine, if you will, that you are a ship pilot steering 
your cargo vessel into the Houston ship channel. Dead ahead of 
you, and steering straight toward you, is another vessel 
heading out to sea. You and the other pilot both maintain 
course toward a head-on collision, veering to the side only at 
the last possible moment.
    Well, you don't have to imagine this. This scenario 
actually happens. It's called the Texas Chicken. The channel 
leading to the Port of Houston is so narrow that pilots 
sometimes use this precise technique to reduce the chance of 
collisions and groundings along the shallow banks. But every 
day disasters are avoided because the pilots have access to 
reliable, real-time data on the direction and speed of the 
surface currents and winds to guide their transit in the 
channel.
    Now imagine that you are a coastal resource manager in the 
State of Maine. You receive a call from a group of scientists 
on a research vessel offshore who are mapping the bloom of a 
toxic marine alga responsible for red tides. The toxin this 
alga produces can cause paralysis and death in humans if 
consumed in contaminated shellfish. So your immediate concern 
is whether you will need to close the shell fisheries. By using 
a system that combines data from satellites, ship-board 
measurements, and buoys, the scientists are able to tell you 
where and when the toxic algal bloom will wash ashore. As 
predicted, you detect an increase in toxicity at shellfish 
monitoring stations in this area and you are able to close 
affected sites before serious illness occurs--another true 
success story courtesy of ocean observations.
    Every day, several times a day, ocean observations provide 
accurate, reliable, real-time data on the marine environment to 
inform both routine and critical actions and decisions of 
government managers, ship pilots, fishers, farmers, beach-
goers, and others. These observations represent the individual 
components of an integrated ocean observing system or, as we 
call it, IOOS, that all of us on these panels are working to 
create.
    It is not the ocean observations per se that benefit us, it 
is the products to which they contribute, and how we use those 
products. For example, ocean observations can generate annually 
between $275 and $300 million in economic benefits to 
agriculture through improved seasonal forecasts. They can yield 
$100 to $200 million in savings to the tourism industry each 
year by better informing beach closure decisions. They can 
increase shipping revenue by up to $1 million per vessel--$1 
million per vessel--for each additional foot of under-keel 
clearance that we forecast.
    Research and operational efforts contribute to our 
knowledge of the marine environment. It is the integration of 
these diverse components into a system that will result in the 
whole being much more than the sum of its parts. Both 
programmatically and through our representation on key 
oversight planning and organizational bodies, NOAA plays an 
active role in ocean observation efforts at the national and 
international levels. For example, I co-chair, with Dr. Leinen, 
the National Science and Technology Council's Joint 
Subcommittee on Oceans. This subcommittee is currently 
establishing a task force on ocean observations to focus on 
national research interests and needs in this area.
    I have provided for the record a separate document of 
representative NOAA ocean observation capabilities. As this 
list of examples demonstrates, NOAA's contribution to the 
Federal observation assets--called the IOOS national backbone--
is significant. As you will hear from Dr. Leinen and Mr. 
Winokur, many other Federal agencies have observing capacities 
that are a critical part of the national backbone. Coordination 
and integration of Federal capacity with regional observing 
systems is needed to realize their full potential.
    The National Ocean Research Leadership Council, currently 
chaired by NOAA, established the interagency Ocean.US office to 
coordinate the planning and development of the IOOS. Under the 
direction of the interagency executive committee, which I 
chair, Ocean.US is currently working with regional and local 
stakeholders to develop the IOOS implementation plan expected 
to be approved by the council this fall. The plan envisions a 
national coastal and ocean observing system borne through the 
integration of Federal capabilities and regional coastal 
observing assets with a coordinated network of regional 
associations to guide the development and implementation of the 
regional system.
    Bringing together diverse efforts into one system results 
in critical data management and communications issues. Ocean.US 
is addressing these issues through a data management and 
communications steering committee that has produced an initial 
implementation plan.
    I want to take just a final moment to mention some critical 
international activities. And integrated ocean observing system 
for the U.S. would be a subset of the international global 
ocean observing system and therefore a component of the larger 
global earth observation system of systems. I have just 
returned from a meeting of the United Nations Intergovernmental 
Oceanographic Commission Executive Council, where I serve as 
the permanent U.S. representative. I can tell you with utmost 
assurance, Mr. Chairman, that the strength of the U.S. 
investment in ocean observations is being watched globally. Our 
ability to share capabilities and capacities with other nations 
can serve as in important tool in international relations. It 
is only recently that mechanisms have been established to pull 
the international, national, and regional communities together, 
along with the experience and expertise of the private sector, 
to make IOOS a reality.
    The challenges that now exist are largely associated with 
governance, data management, coordination, and sustainability. 
Solutions to these challenges are now being shaped into a 
strategy to pursue IOOS both nationally and internationally.
    Mr. Chairman, this concludes my testimony. I would be 
pleased to answer any questions that you or other Members may 
have. Thank you.
    [The prepared statement of Dr. Spinrad follows:]

   Statement of Richard W. Spinrad, Ph.D., Assistant Administrator, 
       National Ocean Service, National Oceanic and Atmospheric 
              Administration, U.S. Department of Commerce

Introductory Comments
    Good morning, Mr. Chairman and members of the Subcommittee. My name 
is Richard W. Spinrad, Ph.D., Assistant Administrator of NOAA for Ocean 
Services and Coastal Zone Management. In this capacity, I administer 
the programs within NOAA's National Ocean Service (NOS). This includes 
programs addressing coral reef conservation, marine protected areas, 
marine sanctuaries, oil and chemical spills, coastal resource 
management, coastal ecosystem science, coastal monitoring and 
observations, ecological forecasting, national estuarine research 
reserves, natural resource restoration, aerial photography and 
shoreline mapping, global positioning and marine navigation. A number 
of NOAA's ocean observation programs fall under my purview. I was 
recently named the U.S. Permanent Representative and Head of Delegation 
to the Intergovernmental Oceanographic Commission. I am also the chair 
of the executive committee overseeing Ocean.US, the interagency office 
developing plans for the Integrated Ocean Observing System (IOOS). 
Within NOAA, I co-chair the NOAA Ocean Council, which is one of two 
NOAA-wide bodies focused on the coordination of observing system 
activities. I appreciate this opportunity to discuss the wide-ranging 
benefits of ocean observations and NOAA's role in developing an 
integrated system for gathering much-needed information on the coastal 
and marine environment.
    The oceans cover 70 percent of Earth's surface. The Integrated 
Ocean Observing System seeks to harness the wealth of technologies and 
capabilities that have developed over the last quarter century to more 
accurately and comprehensively understand how oceans impact our lives 
and how we impact the oceans. The goal is to use that understanding to 
inform and improve the capability of governments at all levels, as well 
as commercial, recreational and other interests, to meet a variety of 
needs, including the ability to make wise decisions. While IOOS will 
certainly result in new discoveries, its reach extends far beyond 
research. It provides a framework for merging environmental data with 
new technologies to create products that improve our management and use 
of the world's coastal and ocean areas. In fact, the early success of 
demonstrations and pilots has been a primary driver of the growing 
interest and support for the development of a more comprehensive 
system.
    The users and beneficiaries of IOOS include everyone who traverses 
our marine waters from the tanker operator to the recreational boater, 
from the commercial fisher to the avid surfer. But, a farmer in the 
Midwest who may never visit the shore will also directly benefit. IOOS 
will speed trade and commerce, and also make it safer for vessels to 
navigate increasingly congested ports, harbors and waterways. It will 
directly benefit the nearly half of all Americans living near the coast 
by mitigating vulnerability to storms and enhancing security. It will 
support agriculture by providing better weather forecasts. It will 
improve the management of fish stocks and marine mammals through 
enhanced ecological information. In its preliminary report, the 
Preliminary Report of the U.S. Commission on Ocean Policy concluded 
implementation of IOOS must be a priority, stating that ``High quality, 
accessible information is critical to making wise decisions about ocean 
and coastal resources and their uses to guarantee sustainable social, 
economic, and environmental benefits from the sea. [page xiii]
    The tools and capabilities provided by IOOS will help us to address 
many needs including the ability to:
    1.  Improve prediction of weather as well as climate change and 
variability and their impact on coastal communities and the nation;
    2.  Improve the safety and efficiency of marine operations;
    3.  More effectively mitigate the damaging effects of natural 
hazards;
    4.  Improve national and homeland security;
    5.  Reduce public health risks;
    6.  More effectively protect and restore healthy coastal marine 
ecosystems; and
    7.  Sustain use of marine resources.
    Highlighting the importance of IOOS, the Preliminary Report of the 
Ocean Commission devotes an entire chapter to its development and 
implementation. But because the benefits of IOOS will be so far 
reaching, it is referenced in many other chapters. Throughout the 
Commission's report, the term ``Integrated Ocean Observing System'' 
appears 85 times, and the acronym ``IOOS'' 150 times. The Commission 
concludes that, ``The United States simply cannot provide the economic, 
environmental, and security benefits noted above, achieve new levels of 
understanding and predictive capability, or generate the information 
needed by a wide range of users, without implementing the IOOS. [page 
320]

Why Ocean Observations Matter: The Need for an Integrated Ocean 
        Observing System
    Coastal waters and adjacent lands are one of the most productive 
and active areas of the planet. Our coastal communities are major 
population and economic centers. Over half the U.S. population lives in 
coastal watershed counties, and about half of the nation's Gross 
Domestic Product--some $4.5 trillion--and 60 million jobs are generated 
in coastal watershed counties and ocean waters. About 75 million 
Americans are directly involved in on-the-water activities and 90 
percent of international trade by weight is carried by sea. On a global 
scale, over 25 percent of the world's energy is produced within 
nations' exclusive economic zones, which also yield approximately 90 
percent of all fish landings <SUP>1</SUP>.
---------------------------------------------------------------------------
    \1\ Cicin-Sain, B., R.W. Knecht, and N. Foster, eds. Trends and 
Future Challenges for U.S. National Ocean and Coastal Policy Workshop 
Proceedings. 1999.
---------------------------------------------------------------------------
    But pressure on the marine environment is mounting:
    <bullet>  Regularly up to 12,000 square miles (according to some 
estimates) of the Gulf of Mexico becomes hypoxic, or abnormally low in 
oxygen, in the summer months <SUP>2</SUP>.
---------------------------------------------------------------------------
    \2\ Boesch, D.F., et al. Marine Pollution in the United States: 
Significant Accomplishments, Future Challenges. Arlington, VA: Pew 
Oceans Commission. 2001.
---------------------------------------------------------------------------
    <bullet>  Thousands of beach closures and swimming advisories are 
issued annually <SUP>3</SUP>.
---------------------------------------------------------------------------
    \3\ Chasis, S., and M. Dorfman. Testing the Waters: A Guide to 
Water Quality at Vacation Beaches. Washington, DC: Natural Resources 
Defense Council. 2000.
---------------------------------------------------------------------------
    <bullet>  Of the 267 major fish stocks in the U.S., which represent 
99 percent of total commercial landings, approximately 29 percent are 
already overfished or are experiencing overfishing <SUP>4</SUP>.
---------------------------------------------------------------------------
    \4\ NOAA. Sustaining and Rebuilding: National Marine Fisheries 
Service 2003 Report to Congress--The Status of U.S. Fisheries. May, 
2004
---------------------------------------------------------------------------
    <bullet>  Over 500 invasive species are now established in North 
American coastal habitats <SUP>5</SUP>.
---------------------------------------------------------------------------
    \5\ Ruiz, G.M. Written testimony before the U.S. House of 
Representatives, Committee on Science, Subcommittee on Environment, 
Technology, and Standards. June 20, 2002.
---------------------------------------------------------------------------
    <bullet>  Harmful algal blooms cost the U.S. an average of $49 
million each year due to fisheries closures, loss of tourism and 
recreation, and increased health care and monitoring expenses 
<SUP>6</SUP>.
---------------------------------------------------------------------------
    \6\ Anderson, D.M., P. Hoagland, Y. Kaoru, and A. White. Estimated 
Annual Economic Impacts from Harmful Algal Blooms (HABs) in the United 
States. 2000
---------------------------------------------------------------------------
    <bullet>  Roughly 1,500 homes are lost to erosion each year 
<SUP>7</SUP>.
---------------------------------------------------------------------------
    \7\ The H. John Heinz III Center for Science, Economics and the 
Environment. Evaluation of Erosion Hazards Summary. Washington, DC. 
2000.
---------------------------------------------------------------------------
    <bullet>  70% of Federal Emergency Management Agency repeat 
flooding losses are in the coastal zone.
    Managing multiple, complex and often competing demands is a major 
challenge. This task is made all the more formidable by a lack of basic 
understanding of marine processes and a reliable and sustained flow of 
data. How can we manage what we do not even fully understand? Safe and 
sustainable navigation, the continued use of marine resources, the 
safeguarding of both local and global marine environments, and the 
protection of human lives all require an enhanced capacity to gather 
data and provide information.
    We know that the oceans drive long term and seasonal climate, as 
well as daily weather. But we are just beginning to understand the 
ocean/atmosphere interface and to develop systems that provide 
increasingly accurate predictive capabilities. On a global scale, 
improved earth and ocean observations will improve our ability to 
calculate and predict the timing and scope of significant interannual 
and seasonal climate events such as drought, floods and major storms. 
The potential humanitarian, ecological and resulting economic benefits 
of being able to meaningfully mitigate the impacts of these events is 
vast.
    By way of example, on the morning of May 9, 1980, during a blinding 
spring squall, the freighter SUMMIT VENTURE rammed into the Sunshine 
Skyway bridge in Tampa, knocking out a 1,400-foot length of the bridge 
across the mouth of Tampa Bay. Seven vehicles and a Greyhound bus fell 
from the bridge killing thirty-five people. An experienced pilot was at 
the helm of the empty freighter, but suddenly caught in zero visibility 
without radar, the pilot did not realize the wind was pushing his high-
riding vessel off course until it was too late. It was this incident 
that led to the concept of using real-time information on the ocean 
environment to improve navigation--and eventually to the first 
installment of the Physical Oceanographic Real-Time System (PORTS''). 
This program of NOAA's NOS supports safe and cost-efficient navigation 
by providing ship masters and pilots with accurate real-time 
information required to avoid groundings and collisions.
    It is not the ocean observations per se that result in direct 
benefits for the nation; it is the products to which they contribute 
and how we use those products. For example information on water levels, 
tides and currents coupled with nautical charting and shoreline mapping 
support marine transportation; surveys of living marine resources 
support fisheries management; weather and current information supports 
offshore energy production management; and habitat and water quality 
information supports estuarine and marine protected areas management. 
We now know that the ocean and atmosphere are not only linked and 
collectively create weather and climate, but that fisheries, 
transportation, planning, coastal management and protection, and energy 
forecasts all benefit from improved ocean-atmosphere predictability. We 
also know that modern capabilities of high-resolution mapping, 
integrated with water level reference points can provide baseline maps 
for a wide range of non-navigation applications including coastal 
inundation and benthic habitat maps.
    Ocean observing systems provide information that benefit the world 
in numerous ways. Excellent examples exist in the area of weather 
forecasting. In agriculture, many decisions could be improved with a 
reliable seasonal weather forecast. One recent study found that by 
incorporating El Nino Southern Oscillation (ENSO) forecasts into 
planting decisions, farmers in the U.S. could increase agricultural 
output and produce benefits to the U.S. economy of $275-$300 million 
per year. Another study estimated that the value to society of ENSO 
forecasts on corn storage decisions in certain years may be as high as 
$200 million--or 1 to 2 percent of the value of U.S. agricultural 
production. A third study on the costs and benefits of ENSO forecasts 
concluded that for agricultural benefits alone, the real internal rate 
of return for federal investments in ocean observation for ENSO 
prediction is between 13 and 26 percent <SUP>8</SUP>.
---------------------------------------------------------------------------
    \8\ Information on these studies can be found in: Economics of a 
U.S. Integrated Ocean Observing System, prepared by Hauke Kite-Powell, 
Charles Colgan, Rodney Weiher; and in: Sassone, P., and R. Weiher. 
1999. Cost-Benefit Analysis of TOGA and the ENSO Observing System. In 
R. Weiher (ed.) Improving El Nino Forecasting: The Potential Economic 
Benefits, NOAA, Office of Policy and Strategic Planning. p. 47.
---------------------------------------------------------------------------
    Improved weather forecasting can also benefit marine commerce. At 
least half of all commercial ocean transits today take advantage of 
weather-based vessel routing services, including National Weather 
Service (NWS) high seas forecasts, which rely on weather and 
oceanographic observations and forecasts, saving on the order of $300 
million in transportation costs annually. Increases in future water-
borne trade traffic, accompanied by improvements in routing based on 
enhanced weather and oceanographic observations, should lead to even 
greater returns on investment.
    But the benefits of accurate, reliable and up-to-date data from 
ocean observation go far beyond improved weather forecasts. Even small 
improvements (on the order of one percent) in search efficiency as a 
result of accurate, real-time information on the immediate marine 
environment could enhance search and rescue performance sufficiently to 
generate life and property savings in excess of $100 million per year 
<SUP>9</SUP>. Better information on the marine environment can also 
result in as much as $225,000 per event in saved effort for oil spill 
responses.
---------------------------------------------------------------------------
    \9\ Kite-Powell, H., C. Colgan, and R. Weiher. The Economics of 
Sustained Ocean Observations. March, 2002.
---------------------------------------------------------------------------
    For the tourism industry, $100 to $200 million savings each year 
could be realized through more precise information on water quality and 
transport to better inform beach closure decisions and improve safety 
at beaches <SUP>10</SUP>. Some preliminary work also suggests that 
annual benefits for recreational boating (e.g., better trip planning 
with marine conditions forecasts) would be in the tens of millions of 
dollars annually <SUP>11</SUP>.
---------------------------------------------------------------------------
    \10\ Weiher, R. Preliminary results of an ongoing research effort 
(subject to revision).
    \11\ Kite-Powell, H., C. Colgan, and R. Weiher. The Economics of 
Sustained Ocean Observations. March, 2002.
---------------------------------------------------------------------------
    Ocean observations made far out at sea can also help ensure beach 
safety. Waves generated by a storm well over the horizon can create 
unsafe beach conditions, leading to major injury or drowning. Wave 
action along the coast can also change the shoreline, resulting in 
beach erosion and loss of property such as houses and piers. Wave 
observations from buoys and satellites, as well as surface wind 
observations from buoys, ships and satellites, all provide information 
on wave height and enable more accurate forecasts that help protect 
people, and allow them to take appropriate measures to protect their 
property.

What is the Integrated Ocean Observing System: Defining Terms
    I want to take just a moment to clarify each term in the phrase 
``Integrated Ocean Observing System'' to shed light on the meaning of 
the phrase as a whole. ``Integrated'' means to join together and unify. 
This is a critical element of IOOS because an initial, and significant, 
task before us is to bring together existing international, national, 
regional, State, and local capabilities. The other bookend of IOOS is 
that it is a system, meaning it is a group of interrelated, interacting 
or interdependent elements forming a collective entity.
    The ``ocean'' includes all international, national, and State ocean 
jurisdictions, including the Great Lakes. This includes the sea bottom, 
the water column and even water vapor at the interface of the oceans 
and atmosphere. It includes all coastal and near shore waters, bays, 
lagoons, sounds and estuaries. It even includes adjacent terrestrial 
regions and watersheds, which exert a significant influence on the 
condition of coastal waters. For example, fertilizers and pesticides 
that wash into estuaries from land enrich the waters and can lead to 
toxic red tides or other harmful algal bloom events. Any effort to 
understand, assess and predict change in the coastal ocean requires 
understanding and observation of the land adjacent to it and the 
waterways that feed into it.
    The word ``observing'' sounds rather passive, but in practice 
includes not only the observation itself, but also the data and 
products that may be derived and used from various observations. The 
term may bring to mind images of satellites flying far overhead or of 
large buoys stationed in the middle of the ocean silently and distantly 
recording data. In the jargon of ocean observations we refer to these 
as types of ``remote sensing'' and ``in situ'' platforms, and indeed 
satellites and buoys are two important ocean observing components, but 
observations are also obtained by aircraft, submerged current meters, 
and Vessel Monitoring Systems placed on fishing vessels. Observations 
include hydrographic surveys to detect submerged hazards, samples taken 
from sediments and shellfish to test for chemical contamination, 
dedicated oceanographic studies from research vessels, and atmospheric 
measurements taken from ships of opportunity. They also include habitat 
characterization and monitoring to support stewardship of living marine 
resources, and they extend inland to encompass measurements taken from 
stream gauges. The information gathered through these observations, 
coupled with economic and social science data associated with ocean 
resources and their values, are critical to management and use of our 
coastal and ocean resources.
    The Integrated Ocean Observing System is the joining together and 
unification of ocean observations to form a collective, interrelated 
entity. It consists of research efforts, pilot projects, pre-
operational efforts, and fully operational components, and it is the 
integration of these into a system that will result in the whole being 
much more than the sum of its parts. This also represents a major part 
of the challenge and opportunity of IOOS.
    Finally, the term ``sustained'' often precedes IOOS, and in many of 
the rewards of IOOS will be derived from a commitment to sustain 
observations over the long term.

NOAA's Role in the Integrated Ocean Observing System
    Both programmatically and through our representation on key 
oversight, planning, and organizational bodies, NOAA is maintaining an 
active role in ocean observation efforts at the national and 
international levels.

NOAA's Ocean Observation Capabilities
    NOAA's broad mission ``to understand and predict changes in the 
Earth's environment and to conserve and manage coastal and marine 
resources'' is matched by an equally wide-ranging array of observation 
programs. Today, NOAA maintains about 100 operational observing 
systems, comprised of nearly 30,000 deployed platforms or stations and 
measuring more than 500 different environmental, meteorological, 
oceanographic, and related parameters.
    NOAA's strategic goals to 1) protect, restore and manage the use of 
coastal and ocean resources through ecosystem-based management; 2) 
understand climate variability and change to enhance society's ability 
to plan and respond; 3) serve society's needs for weather and water 
information; and 4) support the Nation's commerce with information for 
safe, efficient, and environmentally sound transportation would be all 
but impossible without routine, reliable, sustained and credible 
observations. Many ocean observation capabilities reside within NOAA, 
including the direct observation of ocean and coastal conditions, 
living marine resources and their habitats, non-living marine 
resources, and necessary data management and distribution 
infrastructure.
    Coordination and integration of NOAA, other federal and regional 
observing systems is needed to realize their full potential. This is 
not a trivial task. New technologies and new strategies now offer the 
potential for integrating and obtaining more value from these efforts 
both to support the NOAA mission and goals and to contribute to the 
emerging government-wide and international Earth observing system. 
While the challenges are significant, advances in data management and 
sharing protocols, improvements in observation technology and the 
recognition of the needs of the broader community within the IOOS 
planning framework provide new contexts for contributions from NOAA's 
long-standing and emerging observing programs.
    I have provided for the record a separate document of 
representative NOAA ocean observation capabilities that describes a 
full range of data being collected and the uses for this information. 
As this list of examples demonstrates, NOAA's contribution to the 
federal observation assets (or national backbone) is significant. 
Within NOAA, a number of programs meet the IOOS specifications for 
operational or pre-operational status, making data available in a 
routine and sustained manner with broad spatial and temporal coverage. 
The National Data Buoy Center weather buoys and Coastal Marine 
Automated Stations are an excellent example of an operational system, 
as is the National Water Level Observation Program. Other NOAA offices 
also provide significant backbone contributions, including living 
marine resources surveys, PORTS'', hydrographic surveying, and various 
mapping conducted to examine shoreline and coastal change. NOAA has 
been working to organize itself so that its mission can be achieved in 
a way that looks at the ``whole Earth system.'' By understanding our 
existing observing systems and how they are structured to meet mission 
goals, NOAA hopes to provide a basis upon which its systems can easily 
be integrated with other agency observing systems and international 
programs.
    Many other Federal agencies have observing capacity that also will 
be a required part of the national backbone. While NOAA works to 
synthesize its observing capacity internally, it must also work 
externally with other agencies and various regional and local 
stakeholders to bring all the observational resources together in an 
organized manner and build a system that takes advantage of existing 
assets while assessing gaps and prioritizing for future investment.

NOAA's Coordination Activities
    NOAA has joined national and international partners in placing top 
priority on Earth observations and considers an Integrated Global 
Environmental Observation and Data Management System its top 
crosscutting priority.
    Domestically, NOAA Administrator VADM Conrad C. Lautenbacher, Jr. 
currently chairs the National Ocean Research Leadership Council 
(NORLC). The NORLC prescribes policies and procedures for the National 
Oceanographic Partnership Program (NOPP), oversees the allocation of 
funds for NOPP partnership programs, and assesses needs for managing 
the Nation's coastal and ocean data. The NORLC also directs Ocean.US, 
which is coordinating the planning and development of IOOS.
    VADM Lautenbacher is also one of three Co-Chairs on the National 
Science and Technology Council's (NSTC) Committee on Environmental and 
Natural Resources (CENR), which is developing a multi-year plan for 
U.S. observational activities, through an Interagency Working Group on 
Earth Observations (IWGEO). IWGEO has 15 agencies working together to 
develop the U.S. national plan, as well as the U.S. inputs to the 
international effort.
    In a related effort, I co-chair the NSTC Joint Subcommittee on 
Oceans that links the NSTC's CENR and the Committee on Science. The 
Joint Subcommittee on Oceans, which has representation from nearly two 
dozen federal entities, is currently establishing a Task Force on Ocean 
Observations to focus on national interests and needs in this area.
    Internationally, VADM Lautenbacher serves as the co-chair to an 
intergovernmental working group on global Earth observation systems 
(Group on Earth Observations--GEO), along with representatives of the 
European Commission, Japan and South Africa. GEO was developed as a 
result of the first Earth Observation Summit that was held in the 
United States last July. At this Summit, it was agreed that a blueprint 
of a global system for monitoring the Earth's complex natural system 
was needed. GEO strives to monitor global climate and environmental 
systems at the international level and is currently working on a 10-
Year Implementation Plan for building a comprehensive, coordinated and 
sustained Earth observation system (Global Earth Observation System of 
Systems--GEOSS), of which ocean and coastal systems are a component. 
Just this spring, at the second Earth Observation Summit in Tokyo, 
ministers of 47 nations and the European Union adopted the Framework 
Document for the 10-Year Implementation Plan. The plan itself will be 
presented at Earth Observation Summit III in February 2005. With the 
creation of a framework such as GEOSS and the current development of an 
Implementation Plan, we will begin to see the fruits of these efforts 
at not only the global level but at the local level to the ``end 
users'' where our technological abilities in observations will be used 
to support decision making.
    As noted above, I serve as the U.S. representative to the Executive 
Committee of UNESCO's Intergovernmental Oceanographic Commission, or 
IOC. Through its Global Ocean Observation System (GOOS) efforts, the 
IOC is working to establish a permanent global system for observations, 
modeling and analysis of marine and ocean variables. An integrated 
ocean observing system for the U.S. would be a subset of GOOS, which in 
turn is a subset of the Global Earth Observation System of Systems.
    In May, I attended the tenth meeting of the U.S. GOOS Steering 
Committee, and I have just returned from a meeting of the IOC Executive 
Council. I can tell you, with utmost assurance, that the strength of 
the U.S. investment in ocean observations is being watched globally. 
Our ability to share capabilities and capacities with other nations can 
serve as an important tool in international relations. Further, the 
Ocean Commission notes that, ``high-level U.S. participation in 
international global observing planning meetings is essential, 
particularly by top-level NASA and NOAA officials.''
    Because observations are such a critical issue across NOAA, we have 
created two internal councils that assist with NOAA-wide coordination 
of observing systems activities. The NOAA Observing Systems Council 
(NOSC) is addressing integration of observations by providing 
recommendations on observing system requirements, architectures, and 
acquisitions to meet NOAA, national, and international observing needs. 
The goal is to develop a NOAA Observing System Architecture (NOSA). The 
second council, the NOAA Ocean Council (NOC), is focused on, among 
other issues, NOAA's capability to meet its contributions to the 
operational national backbone requirements of the IOOS, ensuring 
connectivity across the IOOS and the Global Ocean Observing System and 
NOAA support for NOPP.

Integrated Ocean Observing System Implementation Plan
    The technology currently exists to gather data from a variety of 
sensors deployed on buoys, gliders, ships and satellites and integrate 
this information into useful, useable products for a range of 
stakeholders. What we are lacking, however, is the connection to create 
a national integrated ocean observing system, linked to a global 
system.
    Through the working arrangements established by the National Ocean 
Research Leadership Council, the Ocean.US office is working with NOAA, 
other agencies, and regional and local stakeholders to develop the IOOS 
Implementation Plan. Much effort over the last few years, building on 
the work of the last decade, has gone into developing this plan. NOAA 
provides much of the funding to support Ocean.US, and, along with nine 
other federal agencies, works through the NORLC and the Ocean.US 
Executive Committee to guide the efforts of Ocean.US as it spearheads 
the development of IOOS. Many other agencies, regional, and local 
stakeholders are also involved with the development of IOOS.
    In March 2002, Ocean.US convened the seminal Airlie House Workshop, 
which produced Building Consensus: Toward an Integrated and Sustained 
Ocean Observing System (IOOS) http://www.ocean.us. This effort brought 
together federal agencies and academic representatives to begin 
defining the scientific and environmental variables, and observing 
techniques, that should drive the IOOS. This report has been provided 
for the record.
    The Draft IOOS Implementation Plan is under development and 
currently consists of three parts covering 1) structure and governance; 
2) the current state of the nation's operational observing assets; and 
3) priority needs for future funding. A great deal of work has been 
done to begin integrating and augmenting the IOOS, while at the same 
time developing specific plans and structures to ensure it is an 
efficient and effective tool for meeting the needs of various 
stakeholders. Undertaking these efforts at the same time--both building 
and designing the IOOS--has proved challenging, but has also offered a 
real-time look at the issues, problems and opportunities that IOOS 
offers.

A Regional Approach
    The Draft IOOS Implementation Plan envisions a national coastal and 
ocean observing system (the IOOS) formed through the integration of 
federal assets (the national backbone) and assets of regional coastal 
ocean observing systems (RCOOS). The Draft IOOS Implementation Plan 
documents the need for a coordinated network of regional associations 
(RAs), to guide the development and implementation of the RCOOS. This 
regional approach is fundamental to meeting user needs on global, 
national, regional, and local scales.
    The purpose of IOOS is to integrate the disparate regional efforts 
and achieve greater efficiencies and utility of the collected 
information. At present, however, there are few examples that can be 
considered Regional Observing Systems. The Gulf of Maine Ocean 
Observing System (GoMOOS) is perhaps the best candidate. What presently 
exists in the United States is a loose collection of independent 
observing capabilities. The Draft Implementation Plan does not 
prescribe a specific number of regional systems needed. Instead, it is 
expected that the regional systems will be self-forming around natural 
biogeographic boundaries and established relationships. The Draft IOOS 
Implementation Plan expects on the order of ten to twelve regional 
systems, comprised of those assets within each region and coordinated 
by a Regional Association. Ocean.US is leading an ongoing effort, with 
representatives from various sectors and regions, to help define and 
establish criteria for RA certification and a national body to 
represent all the Regional Associations (the National Federation of 
Regional Observing Systems). Regardless of the final number of regional 
systems, it is imperative that assets within the regions, non-federal 
and federal, are integrated to form a comprehensive system that meets 
national and regional priorities.
    NOAA is contributing to the regional approach by funding 
competitively selected projects in eight geographic regions to begin 
the process of forming Regional Associations. The Coastal Observation 
Technology System (COTS) is targeting two critical elements for 
establishing regional capacities for coastal and ocean observations: 1) 
creating the infrastructure and methodologies to collect, share and 
integrate environmental data and create useful information products and 
2) developing the organizational and governance structures (Regional 
Associations) necessary for regional partnership formation, user-driven 
requirements assessments, and system management and sustainability. All 
regions except the Gulf of Maine, the Caribbean Islands and the Pacific 
Islands are presently funded to support RA development. NOAA is working 
with the other regions to also establish such projects.

Data Management
    Improved data management infrastructure is also critical to the 
success of the IOOS. Merging disparate efforts into a truly integrated 
system is the primary challenge in establishing an Integrated Ocean 
Observing System. In 2002, Ocean.US established the Data Management and 
Communications (DMAC) Steering Committee to plan for the data 
management and communications subsystem of IOOS. The RAs have stated 
that the challenges of data management should be considered an 
overarching issue that must be funded and adhered to at all phases of 
the creation of IOOS. The DMAC Steering Committee has produced an 
implementation plan with 10-year budget estimates, which has not yet 
been vetted by the National Ocean Research Leadership Council (NORLC).
    There are a variety of ``data management issues'' that need to be 
considered as IOOS is implemented. These are being addressed, and will 
continue to be addressed as technology changes. At the national level, 
the DMAC helps guide direction, but solutions will likely emerge from 
those people addressing the issues head on as they form regional 
collaborations. DMAC can help ``mainstream'' such solutions nationally.
    While funding individual projects helps establish capacity 
(infrastructure) for ocean and coastal observations at specific 
institutions, such capacity development is not itself sufficient to 
build an integrated ocean observing system or to realize the vision of 
a national backbone supplemented by regional observations. Achieving 
the benefits of IOOS requires cultural and technological frameworks 
that facilitate data standards, data sharing, data integration, and 
product development for users within and beyond the scientific 
community. NOAA, the Office of Naval Research, and Ocean.US have been 
working with the grant recipients to establish linkages among projects 
and with the federal agencies to ensure that data collection and 
management efforts are compatible with the goals of IOOS, recognizing 
that the cultural shift and commitment required to meet the IOOS vision 
is significant.
    Through a special focus on data development, management and 
communications, integration, and applications, NOAA is working with 
COTS recipients to ensure that these projects contribute most 
effectively to IOOS, and thus to federal mission agency and public user 
needs. This is an on-going process that requires a high degree of 
commitment to relationship building, and to helping regional partners 
through technical assistance and other means to establish the 
capacities they need to help fulfill the IOOS vision of regional and 
national integration.
    The monitoring and forecasting of El Nino events is a good example 
of integration of many data sources (terrestrial, coastal, ocean) to 
craft an understanding of El Nino o formation and intensity. The data 
management protocols are critical to establishing the capability for 
such integration.

Making it Happen
    While the Draft Implementation Plan outlines a detailed strategy 
for effectively realizing the goal of an IOOS, much work has been done 
to attain this goal. International collaborations have led to the 
deployment of systems such as the Tropical Atmosphere Ocean, or TAO/
TRITON, array and the Argo profiling array, described in the 
accompanying list of NOAA ocean observation capabilities. In the U.S., 
systems such as National Water Level Observation Program and those run 
by the National Data Buoy Center (NBDC) provide data on a national 
(coastal) scale. Regional systems currently run by a growing number of 
organizations also collect data at the higher resolution scale needed 
to forecast impacts to coastal communities.
    Based on the work of the international and national observing 
community highlighted above, the general reasons, needs, technologies, 
and drawbacks to building an IOOS have been detailed multiple times 
over the years. However, it is only recently that mechanisms have been 
established to pull the international, national and regional 
communities together to make it happen. In the U.S., direction and 
input from Congress, NOAA and other federal agencies, the U.S. GOOS 
Steering Committee, local and regional stakeholders, and the 
coordination efforts of the Ocean.US office are the impetus pushing to 
make IOOS a reality.
    Twenty years of ocean observational experience in NOAA suggest that 
the human ability to utilize and apply large amounts of ocean data is a 
critical limiting factor for the effective use of data from large-scale 
ocean observational networks. Obtaining a better understanding of 
regional economic, social, and environmental requirements for IOOS is a 
key consideration as the system evolves. Validating these requirements 
through rigorous analysis is an equally important task that will serve 
to distill the highest priority activities for consideration as IOOS 
investments.
    A three-year regional study on economic and policy drivers for the 
design of IOOS is currently underway. To-date, the study documents that 
five key economic sectors (intermodal transportation, construction and 
engineering, energy, financial services, and recreation and tourism), 
as well as the public health sector, are factoring ocean and coastal 
observational information into economic, business, operational, and 
policy decision making. The study is revealing that increasing the use 
of this information in and beyond these sectors will strengthen 
economic activities and fill these sectors-- identified needs, such as 
watershed-based geographic information system (GIS) mapping, more 
reliable forecasting, improved and higher resolution data on wind 
fields, and enhanced hurricane models and storm predictions.
    There is much work to be done to involve the private sector in 
IOOS, both as a provider and a beneficiary. The private sector brings 
years of experience and expertise to operational observing of the 
environment including for the fields of research, technology 
development and application, the fielding and maintenance of platforms 
and instruments, environmental monitoring and analysis, and the 
operation of complex systems involving the ingestion, processing and 
delivery of real-time data. Studies are being done to help to identify 
and validate business sector requirements for IOOS data and 
information. It will be important, especially in the near term, to 
maintain an open dialog between the private sector, Ocean.US, federal 
and state agencies, and the developing RAs.

Concluding Remarks
    The Preliminary Report of the Ocean Commission notes that ``an 
integrated ocean and coastal observing system that is regionally, 
nationally, and internationally coordinated and is relevant at local to 
global scales can serve a wide array of users, be more cost-effective, 
and provide greater national benefits relative to the investments made. 
Although the current regional systems are valuable assets that will be 
essential to the implementation of the IOOS, they are insufficiently 
integrated to realize a national vision. [page 321]
    The challenges that now exist to bring together individual 
observing efforts to create an integrated system are largely people 
issues:
    <bullet>  Governance
    <bullet>  Mapping the respective roles and responsibilities of the 
public and private sectors
    <bullet>  Interoperability and access to data, information and 
products
    <bullet>  Integration and coordination
    <bullet>  Different needs across a spectrum of users
    <bullet>  Sustainability
    It is these challenges which now hold our attention and for which 
solutions are now being shaped into a strategy to pursue an IOOS both 
nationally and internationally. NOAA is working both internally 
(through NOSA, NOSC, and NOC) and externally (Ocean.US, IOC and others) 
to complete plans for integrated and sustained ocean observations.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions that you or other Members may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Spinrad.
    We have some--on the lower dais, there are a number of 
seats here. So the people standing in the back, if you want to 
come up and sit down here, you are welcome to. We are not going 
to ask you to change your political affiliation or anything 
like that. If you do want to sit up here, you are welcome to 
sit up here.
    Dr. Leinen.

STATEMENT OF MARGARET S. LEINEN, Ph.D., ASSISTANT DIRECTOR FOR 
            GEOSCIENCES, NATIONAL SCIENCE FOUNDATION

    Dr. Leinen. Thank you, Mr. Chairman, members of the 
Committee, Subcommittee, and staff. Thank you for inviting me 
to testify. I am Margaret Leinen, assistant director for 
geosciences at the National Science Foundation. My directorate 
supports ocean science research. As you heard, I also co-chair 
with Dr. Richard Spinrad the National Science and Technology 
Council's Subcommittee on Oceans.
    In my testimony, I would like to make four points about the 
National Science Foundation role in the evolving plans for 
long-term ocean observations and how we are coordinating our 
planning with NOAA, Navy, NASA, and other agencies that are 
part of the National Ocean Partnership Program.
    First, NSF's mission is to support basic research, 
primarily at U.S. academic institutions, and that is our role 
in long-term ocean observations. Thus, our primary involvement 
is through researchers who successfully compete for NSF grants. 
The specific research directions come from the broad ocean 
science community, through workshops, National Academy reports, 
and other activities. This community has made the need for 
long-term ocean observations very clear through all these 
mechanisms.
    In the past, progress in ocean research was driven strongly 
by the ability to make observations in new places or using new 
types of measurements. Now we know that few characteristics of 
the ocean are constant. The ocean and the seafloor beneath it 
are highly dynamic environments. Thus, observations are needed 
over the time scales of these changing processes, often 
decades, centuries, and beyond. A new mode of understanding the 
ocean will evolve over the next decade, driven primarily by 
these long-term observations.
    My second point is that basic research is most effective 
when researchers plan and design their own experiments and 
define their infrastructure requirements. Based on such 
definitions, NSF is planning to fund construction and operation 
of an innovative new research observatory network that we call 
ORION. Funds for the construction of the network are being 
sought through NSF's major research equipment and facilities 
construction account in a project call the Ocean Observatories 
Initiative, OOI. OOI was listed in NSF's Fiscal Year 2005 
budget submission to Congress as a candidate for a new start in 
Fiscal Year 2006.
    The ORION network and its infrastructure have three 
elements. First, a regional array of sites that are connected 
by electro-fiber-optic cable. Two, relocatable deep sea buoys 
that can be deployed in harsh environments, like the Antarctic 
Ocean. And three, an expanded network of coastal observatories. 
These elements will, for example, allow oceanographers to 
understand the factors that control the diversity and species 
composition of coastal biological communities, a key 
requirement to implement ecosystem-based management strategies. 
They will allow them to understand the processes that form gas 
hydrate deposits on continental margins and to discriminate 
natural from anthropogenic climate change. This data will be 
provided in real time to researchers so they can respond and 
adjust to events as they develop. Educators and outreach 
specialists will be able to use the real-time information to 
spread the excitement of discovery to students and the general 
public.
    ORION is part of the broader national and international 
observing effort that Dr. Spinrad told you about, that has 
multiple goals and serves multiple communities. The 
relationship between ORION and operational ocean observing 
systems at the national level is within the integrated ocean 
observing system IOOS. NSF is thus a major participant in the 
interagency process that is planning IOOS.
    My third point is that ocean observatory systems need to 
evolve in response to new capabilities. We believe that new 
technology and scientific knowledge are necessary to meet 
existing user requirements to improve products and to develop 
new applications that are not currently anticipated. Engaging 
researchers and research agencies in long-term ocean 
observations is thus critical to IOOS's evolution, ultimately 
leading to a broader use of the information and increased user 
satisfaction with the products.
    Fourth, and finally, NSF has already begun to make 
progress. NSF funded the Monterey Bay Aquarium Research 
Institute to install a fiber-optic-cabled observatory in 
Monterey Bay that will serve as a test bed for our future 
efforts. This year, we also funded a small ORION project 
office. An executive steering committee comprised of renowned 
scientists from institutions throughout the U.S. and Canada, 
including Dr. Weller, who is testifying today, was also 
established and is working closely with the project office 
staff. In the near future, we will need to develop a data 
system to serve both research and operational observing 
requirements. We are discussing this issue with the other 
Federal agencies and expect a plan that will serve research 
users as well as other customers for IOOS and ORION data.
    In conclusion, NSF believes that ocean observatories are 
the vehicle for a new type of exploration which some refer to 
as exploring in time. We are excited about the possibilities, 
and anticipate that long-term ocean observations will lead to 
many new and important discoveries.
    I am pleased to answer any questions. Thank you.
    [The prepared statement of Dr. Leinen follows:]

    Statement of Margaret S. Leinen, Ph.D., Assistant Director for 
                Geosciences, National Science Foundation

Introductory Remarks
    Mr. Chairman, members of the Subcommittee, thank you for inviting 
me to testify as to how the National Science Foundation (NSF) is 
supporting ocean observing systems and coordinating with NOAA, Navy and 
the other agencies that are part of the National Ocean Partnership 
Program (NOPP) to support the development of regional and national 
ocean observing systems. I am Margaret Leinen, Assistant Director for 
Geosciences at the National Science Foundation. The three divisions in 
my directorate support research in Ocean, Atmospheric and Earth 
Science.
    I also Co-Chair, with Dr. Richard Spinrad, the National Science and 
Technology Council's (NSTC) Joint Subcommittee on Oceans that reports 
to both the NSTC's Committee on Environment and Natural Resources and 
the Committee on Science. The Joint Subcommittee on Oceans is currently 
establishing an interagency Task Force on Ocean Observations to focus 
on national interests and needs in this area.
    NSF's mission is to support basic research, including oceanographic 
research, primarily at U.S. academic institutions. Thus, our primary 
interest and involvement in ocean observations is through the 
researchers who successfully compete for NSF grants, as well as the 
broader ocean science community who provide guidance to our programs 
through workshops, National Academy reports and other venues.

Need for Ocean Research Observatories
    Since the earliest expeditions of H.M.S. Challenger in the 19th 
century, progress in ocean research has been driven strongly by the 
ability to make new observations--either located in new places (i.e. 
classical exploration-going to places on Earth that have not been 
observed before) or using new types of measurements that permit natural 
phenomena or processes to be understood in different ways. As our 
knowledge of the oceans has improved, the realization has grown that 
few characteristics of the ocean are in steady state--the ocean and the 
seafloor beneath are highly dynamic environments. If these processes 
are to be understood, if new insights are to be gained, if quantitative 
models are to be validated satisfactorily, then observations are needed 
over the time scales appropriate to the dynamics of these processes. We 
know enough today to realize that these time scales span milliseconds 
to decades, centuries and beyond and that a new mode of observing the 
ocean will evolve over the next decade, driven primarily by the growing 
need for sustained time-series observations. This need is clear, not 
only in our most reliable source of information concerning research 
trends--the proposals that are submitted--but also in essentially all 
of the community-based planning documents that have been produced in 
recent years.
    NSF continues to invest in research that explores new regions or 
explores new processes that have recently been discovered. In this mode 
of observation, we have invested in exploration that discovered deep 
sea hydrothermal vents, in exploration that discovered new underwater 
volcanoes, and in exploration that discovered new species of organisms 
in the ocean. However, today I would like to highlight another, equally 
important, kind of exploration. When investigators work to understand 
the ocean by making sustained time-series observations they are, in 
effect, ``exploring-in-time''. The earliest oceanographers made great 
discoveries by conventional spatial exploration--they traveled to new 
places in the oceans and discovered unexpected phenomena that 
catapulted their understanding of a particular process to a new level. 
Today, innumerable examples exist in the published literature of 
important and sometimes unexpected discoveries resulting from the 
collection of long time-series data sets. Some people have considered 
this type of ocean observing as ``monitoring.'' It is not--it is the 
classical combination of hypothesis testing and exploration, but in the 
time domain, not the space domain. Researchers are continuously 
developing, changing, and improving measurement strategies and 
techniques to maximize understanding and insight.

What Have We Learned to Date from Sustained Measurements in the Ocean?
    Sustained measurements at a few coastal, open ocean and sea floor 
locations have yielded some very exciting results, some with broad 
policy and management implications, and attest to the potential impact 
of research observatories currently under development. Some examples:
    1.  Measurements from a seafloor observatory show that fluids from 
aging ocean crust support microbial life of high diversity.
    2.  Sustained biological and nutrient measurements off Hawaii and 
Bermuda show changes in the basic life support system of the oceans--
from nitrogen-limitation to phosphorus-limitation of biological 
production--that control life in the North Pacific gyre, and possibly 
in parts of the Atlantic.
    3.  Sustained measurements of the carbon dioxide system in seawater 
off Bermuda and Hawaii show that interannual changes in ocean mixing in 
the Atlantic, and changes in regional precipitation and evaporation in 
the Pacific, cause interannual variations in the amount of carbon 
dioxide that the ocean absorbs from the atmosphere.
    4.  Measurements in the Pacific reveal that long-period (about 50 
years) shifts in air and ocean temperatures affect biological 
productivity and fisheries off Japan, California, Peru and Chile, as 
well as changes to the carbon dioxide sink and source flux of the 
equatorial Pacific.
    5.  Floats that recorded temperatures in the Southern Ocean 
throughout the 1990s show that the Southern Ocean has warmed by about 
0.2 C just since the 1950s.
    6.  Measurements of salinity over the past several decades show 
that tropical ocean waters have become dramatically saltier over the 
past 40 years, while oceans closer to the Earth's poles have become 
fresher.

NSF's Ocean Research Interactive Observatory Networks (ORION) and the 
        Ocean Observatories Initiative (OOI)
    The U.S. oceanographic research community and the National Research 
Council (in two recent reports), as well as the international 
oceanographic research community have all highlighted that modern ocean 
science research requires new types of infrastructure that are capable 
of providing long-term, high-resolution observations of critical 
environmental parameters on appropriate time and space scales. 
Consequently, NSF's Division of Ocean Sciences (OCE) is planning to 
construct and operate an innovative new ocean observatory network, 
Ocean Research Interactive Observatory Networks (ORION), of which the 
Ocean Observatories Initiative (OOI) is the infrastructure component. 
Funds for the OOI are being sought through NSF's Major Research 
Equipment and Facilities Construction (MREFC) account. OOI was listed 
in NSF's FY05 budget submission to Congress as a candidate new start 
for FY06. OOI infrastructure will provide the oceanographic research 
and education communities with new modes of access to the ocean. The 
OOI has three primary elements: 1) a regional cabled observatory (RCO) 
consisting of interconnected sites on the seafloor spanning several 
geological and oceanographic features and processes, 2) relocatable 
deep-sea buoys that could also be deployed in harsh environments such 
as the Southern Ocean, and 3) new construction or enhancements to 
existing systems leading to an expanded network of coastal 
observatories.

ORION Science Plans
    The U.S. and international ocean science community is currently 
engaged in extensive planning efforts to determine how to focus ORION 
observatory assets on the most appropriate and exciting research 
questions. The ORION science plan is not yet final, but based on 
workshop and other reports (see Glenn and Dickey 2003 and Jahnke et al. 
2003), I can provide a sampling of the types of science programs we 
expect to see in the final ORION plan.
    The coastal research community will use ORION to determine and 
quantify the processes at the ocean boundaries that affect the global 
carbon and related cycles; to better understand the environmental 
factors that control the diversity and species composition of coastal 
biological communities--a key requirement to implement ecosystem-based 
management strategies; to better understand fluid flow and life in 
continental margin sediments, including the processes that form gas 
hydrate deposits; and to achieve a much better understanding of water 
circulation in the coastal ocean.
    Researchers will use instruments on open ocean buoys and on the 
seafloor to improve our understanding of earthquakes that occur far 
from land; to develop the long records required to delineate climate 
cycles from long-term change; to quantify changes in the ocean's 
ability to absorb atmospheric carbon dioxide; and to determine the 
impact of anthropogenic CO2 on the ocean carbonate system--which is of 
critical importance to many ocean organisms, including corals. Other 
instruments will be deployed to study the circulation of water flowing 
through the upper ocean crust, which exceeds the flow of all the rivers 
that pour off of the continents, and its impact on subseafloor 
biological and chemical processes. For example, some of holes drilled 
deep by U.S. and Japanese scientific drill ships will be capped with 
elaborate structures called Circulation Obviation Retrofit Kits 
(``CORKS)''. CORKS will enable scientists to monitor processes beneath 
the seafloor and conduct experiments. These advanced seafloor 
observatories allow measurements of temperature, pressure, fluid 
chemistry, and microbiology to be obtained from different depths in the 
borehole.
    Canadian and U.S. scientists will connect CORKS and other 
instruments to the Regional Cabled Observatory (RCO), to be located on 
the Juan de Fuca plate, to answer questions about how the sea floor 
forms and subsides at plate boundaries; as well as the effects of 
geological processes on biological processes on and within the 
seafloor. Instruments connected to seafloor cables but extending up 
into the overlying water column will be used to quantify mixing between 
deep and shallow waters and the rate of gas exchange between the ocean 
and atmosphere.
    An important ORION goal is to provide real-time observatory data to 
researchers, and to those involved in education and outreach. Thus, 
scientists will be able to respond and adjust to events as they 
develop. Educators and outreach specialists will be able to use the 
real-time information to spread the excitement of discovery to students 
and the general public.
    Just as the U.S. academic research fleet is accessible to all 
investigators, the OOI will begin building an openly accessible network 
of ocean observatories to facilitate the collection of long time-series 
data sets needed to understand the dynamics of biological, chemical, 
geological and physical processes. The primary infrastructure for all 
components of the OOI includes both dedicated fiber-optic cables to 
shore and moorings capable of two-way communications with a shore 
station. Moorings are envisioned to be both freestanding, as for the 
global array of buoys, and they will also be attached to fiber optic 
cables to provide the capability for water column investigations. 
Seafloor junction boxes connected to this primary infrastructure will 
support individual instruments or instrument clusters at varying 
distances from cables as well as the moorings. These junction boxes 
include undersea connectors that provide not only the power and two-way 
communication needed to support seafloor instrumentation, but also the 
capability to exchange instrumentation in situ when necessary for 
conducting new experiments or for repairing existing instruments.
    NSF will cooperate with other U.S. Federal agencies and 
international partners to implement the ORION network and as described 
in the next section, to link the ORION researchers with IOOS 
activities. The RCO will be located on the Juan de Fuca plate in US, 
Canadian and international waters (off Washington and British Columbia) 
and will be designed, constructed and operated in cooperation with 
Canada. Institutions that are competitively selected to construct and 
operate coastal observatories will likely be members of the Regional 
Associations that are envisioned as part of the coastal observing 
component of IOOS. Thus, NSF-funded infrastructure and operations funds 
will help support the activities of the RAs. NSF and the ORION Project 
Office are also discussing direct cooperation with NOAA's Office of 
Climate Observation (OCO) to deploy some of the open ocean 
observatories to serve both research and NOAA operational needs and 
requirements for open ocean measurements.

Relation between ORION/OOI and the Integrated Ocean Observing System 
        (IOOS)
    The research-driven ORION (with its infrastructure construction OOI 
component) is part of a broader national and international effort to 
establish long-term ocean observatories, for basic research and 
education, as well as for operational oceanographic needs. The most 
fundamental relationship between the OOI and operational ocean/Earth 
observing systems at the national level is with the proposed U.S. 
Integrated Ocean Observing System (IOOS)- an operational observing 
system that is being planned under the auspices of the National Ocean 
Partnership Program (NOPP). As will be/was described by Drs. Spinrad 
and Winokur, the primary purpose of the IOOS is to provide data of 
societal interest to ``customers,'' ranging from fishermen and 
shippers, to coastal zone managers, to the U.S. Navy. Data to be 
collected are aimed at supplementing current knowledge. In contrast, 
the NSF's OOI is focused on developing new knowledge and new 
technologies that will advance our understanding of the oceans. By 
addressing the ocean research community's needs for time-series 
measurements of ocean processes, the OOI will provide the 
infrastructure needed to advance knowledge and understanding of the 
ocean/atmosphere/earth system, as well as the technical capabilities 
for monitoring that system.
    In a recently released National Research Council Report (NRC, 
2003), a key finding states (p.158) :
          ``The OOI will greatly improve the ability of operational 
        ocean observing systems such as the Integrated and Sustained 
        Ocean Observing System IOOS and the Global Ocean Observing 
        System (GOOS) to observe and, predict ocean phenomena.''
          ``The research based OOI is an important complement to the 
        proposed IOOS. IOOS is an operational system driven by the 
        needs of potential users, and designed to improve the safety 
        and efficiency of marine shipping, mitigate effects of natural 
        hazards, reduce public health risks, improve weather and 
        climate predictions, protect and restore a healthy coastal 
        environment and enable sustainable use of marine resources. The 
        OOI, in contrast, is driven by basic research questions and its 
        principal products will be improved understanding of the oceans 
        and new and improved technologies. The OOI will thus provide 
        the key enabling research for IOOS, including fundamental 
        advances in observatory platforms and, through the research of 
        investigators using the OOI, basic understanding and in sensor 
        technology that will enable IOOS to meet its longer term 
        operational goals. The IOOS is important for the OOI because it 
        will provide a larger framework of observations and background 
        data necessary for interpreting the process oriented 
        experiments that are the centerpiece of basic research.''
    The Preliminary Report of the U.S. Commission on Ocean Policy 
(http://www.oceancommission.gov/) reached a similar conclusion. The 
report states on p. 327:
    The national IOOS will also have significant synergies with the NSF 
Ocean Observatories Initiative, which is being designed to address the 
ocean research community's needs for long-term, in situ measurements of 
biological, chemical, geological, and physical variables over a variety 
of scales. The NSF observatories will be used to examine the processes 
that drive atmospheric, oceanic, and terrestrial systems and will serve 
as an incubator for new technologies to monitor these processes. While 
the IOOS and the NSF observatories have thus far been planned 
independently, the basic research and technology development from the 
NSF Observatories and the information generated by the IOOS are in 
reality interdependent, with each program supplying ingredients 
essential to the other. Close coordination and cooperation between NOAA 
and NSF will be necessary to capitalize on these benefits.

NSF and the Interagency Process to Plan and Develop IOOS
    NSF is part of the National Ocean Partnership Program (NOPP) and is 
one of the original signatories to the NOPP MOU for Establishing a NOPP 
Interagency Ocean Observation Office (http://www.ocean.us/documents/
doc). The signatories of the MOU support the Ocean.US office, which 
serves as a national focal point for integrating ocean observing 
activities. Along with Navy, NOAA, NASA and other agencies, NSF 
provides funds to operate the office and supports two researchers to 
participate in Ocean.US planning and coordination activities. Dr. James 
Yoder, Director of the Division of Ocean Sciences, represents NSF on 
NOPP's Ocean Observations Executive Committee (EXCOM), which oversees 
Ocean.US activities and provides policy guidance, ensures sustained 
Agency support, and approves implementing documents. At present, 
Ocean.US and EXCOM are developing a draft Implementation Plan for IOOS 
to be vetted by the National Ocean Research Leadership Council, which 
NSF chaired last year.
    NSF also participates in the annual NOPP solicitation for research 
projects and is one of the principal sources of funding for projects 
selected through the peer review process. Three of the topics that 
generally appear each year in the NOPP solicitation are chosen by the 
agencies to support ocean observations: Research Observatories, 
Observational Technique Development, and ``Commons'' for Ocean 
Observations. NOPP projects funded cooperatively by the Office of Naval 
Research (ONR), NOAA, NASA, NSF, Sloan Foundation and others during the 
past few years that are related to these ocean observing themes 
include:
    <bullet>  An Innovative Coastal-Ocean Observing Network (ICON), 
Naval Postgraduate School;
    <bullet>  Design Study for NEPTUNE: Fiber Optic Telescope to Inner 
Space, University of Washington;
    <bullet>  Coastal Marine Demonstration of Forecast Information to 
Mariners for the U.S. East Coast, University of Maryland, Horn Point 
Laboratory;.
    <bullet>  Developing Long Range Autonomous Underwater Vehicles for 
Monitoring Arctic Ocean Hydrography, Monterey Bay Aquarium Research 
Institute;
    <bullet>  Autonomous Profilers for Carbon-System and Biological 
Observations, Lawrence Berkeley National Laboratory;
    <bullet>  Incorporation of Sensors into Autonomous Gliders for 4D 
Measurement of Bio-optical and Chemical Parameters, University of 
Washington;
    <bullet>  Accelerating Electronic Tag Development for Tracking 
Free-Ranging Marine Animals at Sea, Stanford University and the 
University of California Santa Cruz;
    <bullet>  Developing Gene-Based Remote Detection, NOAA Atlantic 
Oceanographic and Meteorological Laboratory;
    <bullet>  The Environmental Sample Processor (ESP): A Device for 
Detecting Microorganisms In Situ Using Molecular Probe Technology, 
Monterey Bay Aquarium Research Institute;
    <bullet>  Development of an Integrated Regional, National & 
International Data System for Oceanography, University of Rhode Island;
    <bullet>  A Biotic Database of Indo-Pacific Marine Mollusks, 
Academy of Natural Science;
    <bullet>  Census of Marine Fishes (CMF): Definitive List of Species 
and Online Biodiversity Database, California Academy of Science; and
    <bullet>  Digital Archival of Marine Mammal/Bird/Turtle Data for 
OBIS, Duke University.

Recent NSF Development Efforts to Prepare for Ocean Observatories
    In 2002, NSF's Division of Ocean Sciences funded the Monterey 
Accelerated Research System (MARS). MARS will complete the design and 
then install an advanced cabled observatory in Monterey Bay that will 
serve as the test bed for a state-of-the-art regional ocean 
observatory. MARS thus represents an important step toward harnessing 
the promise of new power and communication technologies to provide a 
remote, continuous, long-term, high-power, large-bandwidth 
infrastructure for multidisciplinary, in situ exploration, observation, 
and experimentation in the deep sea. MARS will be located in Monterey 
Bay offshore the Monterey Bay Aquarium Research Institute (MBARI). It 
will include one science node on 51 km of submarine cable with 
expansion capability for more nodes in the future. The science node 
will provide 8 science ports, and each port will have a 100-Megabit-
per-second, bi-directional telemetry channel. The system will make use 
of the tools, techniques, and products developed over the last several 
decades for high reliability submarine telecommunication and military 
systems to ensure that this system can operate over a 30-year lifetime 
with minimum life-cycle cost.
    In 2004, NSF's Division of Ocean Sciences funded a joint venture of 
the Joint Oceanographic Institutes (JOI), Inc. and the Consortium for 
Oceanographic Research and Education (CORE) to support an ORION Project 
Office to coordinate science community planning in preparation for 
ocean observing projects, including the proposed OOI/ORION initiative. 
The small staff is co-located with JOI, Inc. in Washington D.C. An 
Executive Steering Committee comprised of renowned scientists from 
institutions throughout the U.S. and Canada, including Dr. Weller who 
is testifying today, was also established and is working closely with 
the ORION staff. The two immediate tasks for the Steering Committee and 
the Office staff are to synthesize science community input from 
workshops and other sources to develop an ORION Science Plan to be 
followed by an Implementation Plan. The Office will also work with 
Ocean.US and implementing offices, such as NOAA's Office of Climate 
Observations (OCO), to develop and coordinate ocean observing plans and 
activities.
    In addition to these direct contributions to observation of the 
oceans, I would like to highlight other critical roles played through 
the support of the National Science Foundation. All ocean observing 
systems depend on sensors which have been developed through ocean 
research. The evolution of the observing systems proposed today will 
come about through research into improvements in existing sensors and 
through new sensor development. This research is supported through the 
basic research programs of the National Science Foundation.
    With new sensors come innovative ideas for the sensor networks and 
arrays that can make such measurement. ORION is an excellent example of 
a state-of-the-art sensor network that has evolved from the NSF-
supported research community. Such systems must be tested and developed 
in a research environment before they can be deployed as operational 
systems. Research supported by the National Science Foundation provides 
a mechanism for the development of innovative new sensor networks.
    Once data from observation systems are in hand, they need to be 
assimilated into quantitative computer models that reveal the 
relationship of the observations to the wealth of other ocean 
environmental data. The National Science Foundation has been a strong 
supporter of the research communities that develop such computer models 
of the ocean.
    This end-to-end investment in new technologies for ocean 
observation, new paradigms for ocean observation, and new models for 
the interpretation of ocean observatory data is a hallmark of the 
National Science Foundation Ocean Sciences Division.

Priorities for the Future Interagency Attention
    In addition to agency-specific planning and development activities, 
and to the Implementation Plan currently under development by Ocean.US 
and NOPP's EXCOM, NSF believes attention should be focused on two other 
high priority activities: (1) Development of a data system to serve 
both research and operational ocean observing requirements; and (2) as 
recommended by the U.S. Commission on Ocean Policy (SCOP) Preliminary 
Report, an approach and a plan for transitioning ideas and tools from 
research to operations. Ocean.US and EXCOM are currently discussing the 
data system issue and are receiving considerable input from NSF, Navy, 
NOAA, NASA and other agencies. A high priority is to agree on metadata 
and data standards that satisfies researchers, as well as other users 
of IOOS and ORION data. NSF is optimistic that a plan will soon emerge 
from these discussions that will lead to a flexible data system to 
serve research users as well as other customers for IOOS and ORION 
data. One of the NSF goals is for full and open exchange of data, 
emphasizing the importance of distributing as much as possible in near 
real-time. NSF and the ORION Office are also prepared to participate in 
interagency discussions on the transition issue, as well.
    Mr. Chairman, Thank you for this opportunity to share these 
thoughts on the importance of ocean observations to researchers and the 
role NSF will play in the interagency efforts to develop a national 
ocean observing strategy and system. I am pleased to answer any 
questions.

References
Glenn, S.M. and T.D. Dickey, eds., 2003. SCOTS: Scientific Cabled 
        Observatories for Time Series, NSF Ocean Observatories 
        Initiative Workshop Report, Portsmouth, VA, 80 pp. www.geo-
        prose.com/projects/scots--rpt.html.
Jahnke, R. and others. 2003. Coastal Observatory Research Arrays: A 
        Framework for Implementation Planning, Coastal Ocean Processes 
        (CoOP) Program Report Number 9, Skidaway Institute of 
        Oceanography Technical Report TR-03-01, Savannah, Georgia.
NRC, 2003: ``Enabling Ocean Research in the 21st Century: 
        Implementation of a Network of Ocean Observatories.'' Committee 
        on the Implementation of a Seafloor Observatory Network for 
        Oceanographic Research, National Research Council 220 pages, 
        2003.
NRC, 2000: ``Illuminating the Hidden Planet: The Future of SeaFloor 
        Observatory Science.'' Committee on Seafloor Observatories: 
        Challenges and Opportunities, National Research Council, 135 
        pages, 2000.
Preliminary Report of the U.S. Commission on Ocean Policy, Governor's 
        Draft, Washington, D.C., April 2004.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Leinen.
    Mr. Winokur.

       STATEMENT OF ROBERT WINOKUR, TECHNICAL DIRECTOR, 
                   OCEANOGRAPHER OF THE NAVY

    Mr. Winokur. Thank you, Mr. Chairman, for inviting the Navy 
to participate in this hearing on the status of ocean 
observation systems in the United States. My name is Robert 
Winokur, and I am the technical director to the Oceanographer 
for the Navy. I also serve as the Chair for the interagency 
Federal Oceanographic Facilities Committee, and as the Navy 
representative to the interagency Ocean.US executive committee.
    The Oceanographer of the Navy plans, coordinates, and 
implements the responsibilities of the Chief of Naval 
Operations with regard to naval oceanography. While our needs 
are mission-driven, we also recognize the need and 
responsibility to contribute to a national enterprise in ocean 
observing systems. The Chief of Naval Operations Sea Power 21 
strategy has placed increasing demands on the Naval 
Oceanography Program to better characterize the ocean 
environment, to optimize naval operations on a global scale, 
but with particular emphasis on the coastal regions of the 
world. Our goal is to convert ocean observations into 
information and knowledge to support the war-fighting needs of 
the Navy. The Naval Oceanography Program is focused on 
developing an architecture and phased implementation and 
investigation strategy for battlespace sensing and time and 
space scales consistent with naval operations. Working together 
with the Office of Naval Research and partnering with the 
member agencies of the National Oceanographic Partnership 
Program, we have made major contributions to the national 
effort to establish an ocean observing system.
    For the Navy, a thorough understanding of the ocean 
environment is critical to safe and precise navigation, anti-
submarine warfare, locating and disarming mines, putting marine 
special warfare forces and equipment on the beach, and 
projecting offensive and defensive power from a secure maritime 
maneuver area. As military weapons systems and platforms become 
increasingly sophisticated, the impact of the environment 
becomes a more critical factor to their performance. To this 
end, we use adaptive sampling to obtain high-resolution bottom 
topography, current temperature, sound speed, salinity, surface 
wave, and atmospheric data by using satellites, moored and 
drifting platforms, seafloor cable systems, tide gauges, 
coastal radar, unmanned vehicles, and directed ship surveys and 
observations.
    The Oceanographer of the Navy, through the Commander of the 
Naval Meteorology and Oceanography Command, conducts multi-
function oceanographic surveys in the ocean basins of the world 
and in coastal regions. In addition, the Navy develops and 
operates numerical models that rely on real-time data from a 
variety of sources which are merged with climatological data to 
provide daily forecasts of atmospheric and oceanic parameters 
on a global scale. The Office of Naval Research has invested in 
the development of most of the observing tools now in use in 
the ocean. Many of the knowledge bases about the regions of the 
world ocean have come from ONR-funded programs or 
investigators.
    The U.S. Navy has a global presence and must be prepared to 
respond to an emergency or contingency anywhere, any time. In 
almost every aspect of modern warfare, an accurate and timely 
description of the environment serves as a force multiplier. 
Contingency operations require rapid response, and that gives 
us scant time to complete an environmental assessment.
    Modern diesel submarines operating in a shallow littoral 
environment can pose a serious threat to naval operations. 
Understanding thermal conditions in the water column, along 
with knowledge of bottom properties, is critical to optimizing 
sonar system performance. Similarly, accurate characterization 
of ocean conditions is critical to mine warfare, a potentially 
serious threat in choke points, harbors and ports, and coastal 
landing zones, impacting amphibious landings and special 
operations forces. Simply stated, rapid environmental 
assessment and the provision of environmental knowledge are 
critical elements to the safety and success of naval 
operations.
    While timely and accurate knowledge of the environment is a 
force multiplier for a navy, knowledge of the oceans is also a 
force multiplier for non-defense purposes as well. The Navy is 
part of a National Ocean Infrastructure designed to coordinate 
and leverage existing programs to maximize investment in ocean 
research, resource management, and development. Navy has 
invested heavily in this National Ocean Infrastructure. 
Examples of this investment include recapitalization of the 
National Academic Oceanographic Research Vessel Fleet and 
periodic review and declassification of appropriate naval 
oceanographic data in accordance with policies for access by 
the civilian community.
    And ocean observing system will provide data in support of 
both operational and research requirements, as being advanced 
by a number of U.S. Government agencies under the auspices of 
the National Oceanographic Partnership Program. A long-term and 
sustained ocean observing system will be coordinated through 
NOP interagency office, Ocean.US. Navy has been closely aligned 
with NOP since the program's inception and, in fact, provided 
its first director. The Navy supports Ocean.US's efforts to 
develop an ocean observing system involving regional 
associations and based on a national backbone as a high 
priority for implementing a national ocean observing system. 
The Navy has also partnered with other agencies to support 
regional observing systems in the southeast Atlantic, the Gulf 
of Maine, the Gulf of Mexico, and Monterey Bay.
    The success of these regional systems is paving the way for 
a national and ultimately an international observing system. 
The Oceanographer of the Navy and the Office of Naval Research 
ensure that the full breadth of the Navy is contributing 
strongly and in appropriate ways to the development of an 
integrated ocean observing system. The Navy's observing system 
needs and programs are directed at providing the essential 
data, information, and knowledge required to continuously 
describe the battlespace to support naval operations.
    Thank you, Mr. Chairman, and I look forward to answering 
any questions you may have.
    [The prepared statement of Mr. Winokur follows:]

           Statement of Robert Winokur, Technical Director, 
                Office of the Oceanographer of the Navy

    Mr. Chairman, members of the Subcommittee and distinguished 
colleagues, I want to thank you for inviting the Navy to participate in 
this hearing on the status of Ocean Observation Systems in the United 
States. The U.S. Navy has a long history of ocean observations, dating 
back to the early 1840s, and this program continues with increasing 
importance today.
    While our needs are mission driven, we also recognize the need and 
responsibility to contribute to a national enterprise in Ocean 
Observing Systems. The Chief of Naval Operations Sea Power 21 Strategy, 
with its three essential pillars of Sea Strike, Sea Shield and Sea 
Basing, has placed increasing demands on the Naval Oceanography Program 
to better characterize the ocean environment to optimize naval 
operations on a global scale, but with particular emphasis on the 
coastal or littoral regions of the world. Our goal is to convert ocean 
observations into information and knowledge to support the warfighting 
needs of the Navy. The Naval Oceanography Program is focused on 
developing an architecture and phased investment and implementation 
strategy for battlespace sensing and observations at the time and space 
scales consistent with naval operations. Working together with the 
Office of Naval Research and partnering with the member agencies of the 
National Oceanographic Partnership Program (NOPP) we are proud of the 
leadership role and major contributions we are making to the national 
effort to establish an Ocean Observing System.
    As military weapon systems and platforms become increasingly 
sophisticated, the impact of the environment becomes a more critical 
factor to their performance. Accurate knowledge of the environment 
maximizes combat effectiveness by helping decision makers pick the 
right platform, choose the right weapon, enter the right settings, pick 
the right target area, use the right tactics, and select the right 
time! System performance increasingly requires higher resolution data 
and more rapid refresh rates.
    Before the Navy can fully realize the strategic and tactical 
advantage of the oceans, a comprehensive understanding of the ocean 
environment is required. Environmental characterization is a critical 
component of intelligence preparation of the battlespace. To achieve 
this, the Department of the Navy adaptively samples high-resolution 
ocean data, including bottom topography, volumetric current, 
temperature, and salinity measurements as well as surface wave data via 
in-situ and remote sensing sources. The Navy continuously monitors the 
ocean environment allowing us to better understand our operating 
environment and maintain our ocean stewardship role.
    The Integrated Ocean Observing System (IOOS) has two components; 
the global ocean component and coastal U.S. waters component. The 
Navy's needs also focus on these components with emphasis on coastal 
regions of the world where the Navy operates. The Navy's participation 
in observing system efforts includes those operational activities that 
fall under the responsibility of the Oceanographer of the Navy, along 
with the science and technology activities of the Office of Naval 
Research that underlie the strategic surveys and database needs 
required to support fleet operations and weapons systems development.
    The Oceanographer of the Navy, through the Commander Naval 
Meteorology and Oceanography Command, conducts multi-function 
oceanographic surveys in the ocean basins of the world and in coastal 
regions to provide a baseline for a variety of parameters. In addition, 
the Navy operates global forecast models that integrate real-time 
environmental data from a variety of sources, merges climatological 
data, and produces numerical models of atmospheric and oceanic 
parameters. These models are dependent on timely input data provided 
from in situ and space-based observations.
    The Office of Naval Research (ONR) has invested in the development 
of most of the observing tools now in use in the ocean. Many of the 
knowledge bases about regions of the world oceans other than U.S. 
waters have come from ONR-funded programs or investigators. ONR's ocean 
science and technology niches in the federal funding system are in 
marine meteorology, small-scale ocean physics, optical oceanography, 
bioacoustics, coastal geosciences, and instrumentation development.
    In the global ocean, ONR funds major programs developing and 
validating large-scale numerical models of the ocean using whatever 
data sources may exist, both research and operational. The model 
outputs provide the basis for Navy sound-velocity forecasts in support 
of sonar operations, and provide the boundary conditions for coastal 
and regional ocean models everywhere in the world. This work is done as 
part of the Global Ocean Data Assimilation Experiment (GODAE), to 
leverage the interests of other nations and agencies.
    In the U.S. coastal ocean, ONR research efforts provide 
understanding of a variety of coastal systems and how Naval operations 
can best be performed in those environments, and act as test-beds for 
the development and testing of new technologies for observing the 
ocean. This understanding and technology are useful elsewhere in the 
ocean such as in those areas that are denied to us for research and 
operational purposes.
    Another challenge will be our ability to manage efficiently the 
increasing data flow through sophisticated data networks. The various 
existing data collection resources must accept standardized formats 
that facilitate the dissemination, ingestion, and integration of data 
into processing systems and interactive databases.
    The Integrated Ocean Observing System, which will provide ocean 
data in support of both operational and research requirements, is being 
advanced by a number of U.S. government agencies under the auspices of 
the National Oceanographic Partnership Program (NOPP). Navy has been 
closely aligned with NOPP since the program's inception. In fact, the 
Secretary of the Navy served as Chairman of NOPP's National Ocean 
Research Leadership Council (NORLC) for the first four years and 
currently serves as Vice Chair. The long-term and sustained ocean 
observing system will be implemented and coordinated through a NOPP 
interagency office, Ocean.US. The U.S. Navy strongly supports Ocean.US, 
and, in fact, provided its first director. Ocean.US's efforts to 
develop an observing system of regional associations based on a 
national backbone ranks among the most important national ocean 
initiatives currently underway. The U.S. Commission on Ocean Policy 
Preliminary Report recognized the importance of this observing system 
and recommended the development and implementation of a sustained, 
national Integrated Ocean Observing System.
    Navy's reasons for strongly supporting the development of the 
integrated ocean observing system are compelling. In any military 
engagement, battlespace awareness is paramount; tactical application of 
environmental knowledge is a strong force multiplier. This is 
especially true in the complex and dynamic marine environment. The 
Navy/Marine Corps team is an expeditionary force required to respond 
rapidly to contingencies anywhere on the globe. Knowledge of the marine 
environment is critical to maintaining the tactical edge and allowing 
U.S. forces to operate more safely and efficiently. A network of ocean 
observations that are integrated and assimilated into a global 
operational system and resulting database is a major asset to any sea-
based military operation, and also presents significant advantages for 
commercial and academic interests.
    The lack of data over the oceans was recognized as early as 1842 
when Navy Lieutenant Matthew Fontaine Maury, then Superintendent of the 
Navy's Depot of Charts and Instruments, began collecting weather and 
ocean data routinely recorded in the official log books of both naval 
and commercial ships. These data were compiled on a series of wind and 
current charts for all the world's oceans.
    We no longer need to rely on ships' logs. Technology has increased 
our ability to observe the oceans through the use of satellites, moored 
and drifting buoys and platforms, sea floor cables, tidal gauges, 
coastal radar, unmanned vehicles, directed ship surveys and shipboard 
observations.
    Observations from space are an essential component of the 
Integrated Ocean Observing System. Since 1998 representatives of the 
major international satellite space agencies have been working on an 
Integrated Global Observing Strategy (IGOS). The U.S. has been a leader 
in this activity, and the Navy contributes to this and national 
planning through its own satellite remote sensing systems and its 
involvement in the next generation National Polar-orbiting Operational 
Environmental Satellite System (NPOESS). The Navy currently operates 
two oceanographic satellite systems; GEOSAT Follow On (GFO) which is a 
radar altimeter that measures sea surface height, and Coriolis/Windsat, 
which is used to also measure sea surface wind speed and direction and 
is an important risk reduction program for the future NPOESS. While 
both systems are designed to support Navy needs, data are being made 
available to civil agencies and the research community to further 
understanding of the ocean on global scales.
    NPOESS is an interagency program involving the Defense Department, 
NOAA and NASA. In addition, the European Organization for Exploitation 
of Meteorological Satellites (EUMETSAT) is also a participant and 
demonstrates the global nature of observing systems and partnerships. 
The Navy is an active participant in the NPOESS program through 
Coriolis/Windsat and direct participation in the Integrated Program 
Office, as well as providing two potential ground sites for processing 
the data at the Naval Oceanographic Office and the Fleet Numerical 
Meteorology and Oceanography Center. In fact, both NPOESS and IGOS 
provide opportunities for interagency and international partnerships by 
which to achieve new levels of synergy and cooperation. Satellite 
remote sensing is also an emphasis of the U.S. Interagency Working 
Group on Earth Observations (IWGEO). Navy participates in this effort 
that is linked to an international process to establish a Global Earth 
Observation System of Systems (GEOSS).
    The Navy's world-class military survey fleet collects high-
resolution ocean data with state-of-the-art sensors. These vessels are 
critical to our ability to collect and analyze data. Navy operates 
oceanography and meteorology centers worldwide to process, model, 
disseminate, and archive data and products. These advanced facilities 
include production centers such as the Naval Oceanographic Office at 
the Stennis Space Center in Bay St. Louis, Mississippi, and the Fleet 
Numerical Meteorology and Oceanography Center in Monterey, California. 
In addition, the Naval Oceanographic Office, in collaboration with the 
Marine Corps Intelligence Center provides worldwide riverine support to 
joint operations. The National Ice Center, a tri-agency center 
involving the Navy, the National Oceanic and Atmospheric Administration 
(NOAA), and the United States Coast Guard, is responsible for sea and 
lake ice observations and forecasts for Arctic and Antarctic Oceans and 
their marginal seas as well as the Great Lakes and Chesapeake and 
Delaware Bays.
    Within our own coastal waters, observations are obtained from a 
wide variety of sources to support Navy and Coast Guard operations, 
marine engineering enterprises, the commercial fishing industry, state 
and local governments, and academia. Efficient integration of these 
independent data sources presents a host of challenges related to 
communications and database management.
    IOOS will provide a network to facilitate integration of data 
currently available, as well as increasing the distribution and types 
of ocean observations. These observations should encompass the 
physical, chemical and biological characteristics of the water column, 
as well as meteorological and coastal riverine characteristics. There 
will be many benefits to this system, including a better understanding 
of climate variability, marine resource and ecosystem management, safer 
marine operations, public health and national security. It is in the 
realm of national security that the Navy has the most vested interests.
    When we talk about national security, there are two broad 
categories that should be considered: contingency operations abroad and 
homeland defense.
    The U.S. Navy has a global presence and often serves as America's 
first response to international crises. Consequently, we must be 
prepared to respond to an emergency anywhere, anytime. For speed of 
transit and response, as well as safety of forces, environmental 
knowledge is critical.
    Sea Power 21 is the Navy's strategic vision and transformational 
roadmap for 21st Century naval operations. It relies on three 
conceptual pillars: Sea Strike, Sea Shield, and Sea Basing.
    Sea Strike is the ability to project dominant, decisive, and 
persistent offensive power from the sea in support of joint warfighting 
objectives through networked sensors, combat systems, and amphibious 
ground forces. Sea Shield is the ability to project naval defensive 
power to assure access and protect joint forces ashore.
    Sea Basing provides enhanced operational independence and support 
for joint forces through networked, mobile, and secure sovereign 
platforms operating in the maritime domain. It envisions the sea as an 
independent and secure maneuver space for joint forces as they project 
power ashore. Weapons, sensors, and networked command and control 
functions will ensure a more defensible battle space while facilitating 
operational mobility, logistic support, and strategic flexibility.
    Sea-based forces have historically been limited by the operational 
reach of weapons, limits of communications systems, logistic chains, 
and the vagaries of the environment. Today's precision missiles and 
strike aircraft have significantly increased the mission radius, with 
naval forces able to strike hundreds of miles inland, as demonstrated 
in Operation Enduring Freedom in Afghanistan. With advances in 
satellite technology and digital information, the capabilities of 
communication systems continue to improve with astonishing speed.
    Although sea basing is predicated on the idea that the sea can be a 
great ally, there's no denying that at times the sea can be a 
formidable opponent. Globally distributed sea-based forces will need to 
rely on accurate and rapid weather and sea condition forecasts, and 
that requires data derived from ocean observations.
    Modern diesel submarines are facile and lethal prowlers of the 
shallow littoral zone and we are witnessing a renewed emphasis on 
antisubmarine warfare. Understanding the thermal distribution in the 
water column will help predict sonar performance and highlight shadow 
zones, or acoustic blind spots. Likewise, knowledge of the bathymetry 
and characteristics of the ocean floor will assist submarine hunters as 
they search and destroy stealthy prowlers hiding in the complex 
undersea geography.
    A competent characterization of the subsurface world is also 
critical to mine warfare, a serious threat in strategic chokepoints, 
harbors and ports, and coastal landing zones. Sea Strike includes the 
amphibious landing of ground troops and special operations forces, and 
here again environmental knowledge is a critical component to the 
safety and success of operations.
    Mining of harbors is a threat, and accurate bottom surveys are 
necessary to establish a baseline for mine countermeasure ships as they 
search for ``mine-like'' objects buried in the sediment.
    In almost every aspect of modern warfare, accurate and timely 
environmental characterization serves as a force multiplier. But 
contingency operations require rapid response, and that gives us scant 
time to complete an environmental assessment. A networked system of 
global ocean observations would greatly facilitate a comprehensive 
characterization of the operating environment.
    IOOS will also be a great asset in the area of homeland defense. 
According to NOAA's National Ocean Service, the United States has over 
95,000 miles of tidal shoreline that are vulnerable to asymmetric 
attack. Contaminants capable of causing mass casualties may be set 
adrift on tidal currents from offshore, harbors may be mined, and ships 
scuttled at strategic navigational chokepoints.
    This integrated network of ocean observations will increase our 
knowledge of tidal currents and coastal circulation and increase the 
fidelity of our numerical ocean models. This knowledge will be 
essential to the prediction and consequence management of waterborne 
contaminants. Similarly, a network of offshore weather sensors will 
give us important atmospheric data to improve our ability to forecast 
the downwind distribution of airborne radiological, chemical, or 
biological contaminants.
    Our reliance on real-time data to characterize the operational 
environment and to initialize and refine our numerical models is a 
compelling reason to support the development of a network of global 
observations.
    While timely and accurate knowledge of the ocean environment is a 
``force multiplier'' for Navy, knowledge of the oceans is also a 
``force multiplier'' for non-defense purposes as well. The Navy is part 
of a National Ocean Infrastructure designed to coordinate and leverage 
existing programs to maximize taxpayer investment in ocean research, 
conservation, and development. Navy has invested heavily in this 
national ocean infrastructure. Examples of this investment include 
recapitalization of the national academic oceanographic research vessel 
fleet (providing five new or converted ships in the last decade alone), 
periodic review and declassification of appropriate naval oceanographic 
data in accordance with national policies for access by the civilian 
community.
    The Navy has already partnered with other agencies to support 
regional observing systems such as the Gulf of Maine Ocean Observing 
System (GoMOOS), the Gulf of Mexico Coastal Ocean Observing System 
(GCOOS), the Northern Gulf of Mexico Littoral Initiative (NGLI), and 
the Monterey Bay Innovative Coastal Ocean Observing Network (ICON). The 
success of these regional systems is paving the way for a national, and 
ultimately an international observing system. In America's coastal 
waters there are many sensors already in use by commercial, academic 
and government activities, but getting their data into a national 
shared network will require a federal support structure of data 
management and modeling.
    The Navy has extensive expertise in ocean information management 
and generation of operational information products, which it can apply 
to national ocean information management efforts. As such, the Navy has 
and will continue to coordinate with NOAA on ocean and coastal data and 
information management issues.
    The Navy is an active member of the Executive Committee overseeing 
Ocean.US whose charge is the establishment of the Regional Coastal 
Ocean Observing System. As we move toward the implementation of the 
IOOS, we have also joined in a partnership with NOAA to engage industry 
to develop a synergistic project using disparate data sources to 
support specific multi-agency requirements.
    Finally, the Navy is a strong advocate and participant in the 
international Global Ocean Data Assimilation Experiment (GODAE), an 
operational proof-of-concept demonstration for bringing existing ocean 
data assimilation developments and applications together. To this end 
the Navy is currently providing a U.S. GODAE data server operated by 
the Fleet Numerical Meteorology and Oceanography Center (FNMOC) in 
Monterey, California. This server is an integral node in the GODAE 
architecture. In addition to assimilated data, it will includes 
atmospheric and oceanic numerical model fields from both FNMOC and the 
NOAA National Center for Environmental Prediction (NCEP), as well as a 
number of Navy operational products.
    In summary, throughout virtually all of its history the Navy has 
understood the need to explore, observe and understand the ocean. That 
need is as important today as it was before. The CNO's Sea Power 21 
strategy requires that we understand and exploit the ocean to support 
all phases of naval operations, which, in turn, has placed increased 
demands for higher temporal and spatial resolution from in situ and 
satellite observing systems. The Navy also has a long-standing 
commitment to support national initiatives and participate in 
interagency and international activities. The Integrated Ocean 
Observing System is another example of Navy commitment to national 
priorities. The Oceanographer of the Navy and the Office of Naval 
Research ensure that the full breadth of the Navy is contributing 
strongly and in appropriate ways to the IOOS. Among other things, we 
have been involved in the National Oceanographic Partnership Program 
from its inception, we have provided one of the directors of Ocean.US 
and host the office, we host the international GODAE data server, 
participate in the interagency NPOESS program, and importantly, through 
ONR, have supported the development of most of the observing tools now 
in use in the ocean. Clearly the Navy's observing system needs and 
programs are directed at providing the essential data, information and 
knowledge required to continuously describe the battlespace to support 
naval operations. Nonetheless, we are committed to being a partner in 
the national efforts to build and operate an Integrated Ocean Observing 
System.
    Today vast portions of the ocean remain unexplored. An ocean 
observing system will benefit national security and the nation, and 
permit us to expand our knowledge of the majority of the planet.
    Thank you Mr. Chairman and I look forward to answering any 
questions the Subcommittee may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Winokur.
    Dr. Weller.

    STATEMENT OF ROBERT A. WELLER, Ph.D., SENIOR SCIENTIST, 
DIRECTOR, COOPERATIVE INSTITUTE FOR CLIMATE AND OCEAN RESEARCH, 
              WOODS HOLE OCEANOGRAPHIC INSTITUTION

    Dr. Weller. Thank you, Mr. Chairman. I am Robert Weller, an 
oceanographer at Woods Hole Oceanographic Institution. I was 
recently a member of the NRC Committee on Seafloor 
Observatories. I am not formally reporting on that committee, 
but I am going to try to provide my own synthesis of the 
development of the open ocean observing system.
    To lay a foundation for the global discussion, I want to 
mention a few examples. In May 1960, an earthquake in Chile 
triggered a tsunami that traveled across the Pacific and hit 
Hilo, Hawaii, killing 61 people. But we also know about the 
influence of remote regions of the ocean in modes of 
variability, such as the El Nino mode, where anomalous sea 
surface temperatures in the eastern tropical Pacific affect our 
climate in the United States, or the North Atlantic 
Oscillation, which you, Mr. Chairman, mentioned earlier--again, 
involved with anomalous sea surface temperatures.
    The great economic impact of some of these anomalous sea 
surface temperature--here is a recent result from Sig Schubert 
and colleagues at NASA Goddard, where they have found that 
anomalous sea surface temperatures are the cause of the great 
Dust Bowl anomaly in the central United States in the 1930s. In 
particular, in that decade of the great Dust Bowl, there was 
anomalously cold water off Japan and anomalously warm water to 
the east of Canada, between the United States and Europe. We 
also know that in recent time, in the last half of the 20th 
century, warming in the Indian Ocean has been reflected in 
change in the North Atlantic Oscillation.
    So there is clearly need to make global observations and we 
are moving forward. Here is an example of the national 
contribution to this progress toward an ocean observing system. 
This is a summary of the NOAA Climate Observation Program, 
including, clockwise around the perimeter, a tide gauge, an 
open ocean buoy, a commercial ship used for observations, a 
research ship, equatorial buoy, a drifting buoy, profiling 
floats, and satellites.
    Sea surface temperature is one of the things that we really 
need to monitor and keep track of because of its influence on 
climate and weather. To do that, we use the surface drifters 
and we use moorings, and we need to keep track of how the ocean 
observed exchanges heat and moisture with the atmosphere. And 
again, we use moorings, such as this one here, deployed under 
NOAA support off of Chile, and ships, like the Scripps 
Institution of Oceanography's Roger Revelle. We can also use 
these moorings, shown here, to put a lot of instrumentation in 
the water column and measure temperature, figure out the depth 
of the anomaly, and to measure the currents that affect the 
anomaly. Another tool are the ARGO profiling floats now being 
deployed around the world to help measure those temperature 
anomalies.
    Measuring temperature anomalies is a central part in 
keeping track of what we need to do in an observing system, a 
global observing system. In particular, the thing that we are 
aware of is the large-scale ocean circulation, where water is 
cooled and made more dense at high latitude, sinks, and returns 
toward the Equator. This is a way in which the ocean transports 
heat from the Equator to the poles. Countries like the United 
Kingdom see this as a major focus for their observing efforts. 
They have actually installed an array across the Atlantic to 
measure the north-south transport of different classes of 
water, different temperature and salinity water masses as they 
participate in this Thermohaline Circulation.
    This Thermohaline Circulation is critically important to 
our understanding how properties, such as carbon dioxide, are 
stored, removed from the atmosphere and stored in the interior. 
We have an agreement with other nations to move forward on 
repeat hydrographic lines that sample physical temperature, 
salinity, and chemical properties. As an example of what you 
can see, here is a section made north-south in the Atlantic 
showing chlorofluorocarbon penetration as well as carbon 
penetration. And you can see the slow evolution of quantities 
introduced by man into the interior of the ocean.
    Of course, we have to do measurements for safety and 
security and have measurements of surface wave and sea level 
and biogeochemical parameters and populations of organisms. We 
know what to do, and we have to move forward. This is where the 
NSF contribution really comes in. We do not yet have the 
capability to go to all places in the world's oceans. Things 
that Dr. Leinen talked about, this is a large, very capable 
buoy that can be placed in the Southern Ocean to collect data 
we cannot now collect there. This is a more modest, but still 
more capable than we now have, surface mooring for mid-
latitudes.
    The crustal plates. We believe that there is interaction 
between seafloor seismic activity in the water column. This is 
the fiber optic and electric--
    Mr. Gilchrest. Dr. Weller, could you say that again? I 
didn't hear. The interaction--
    Dr. Weller. Well, seismic activity on the seafloor, for 
example, the release of carbon dioxide or methane.
    Mr. Gilchrest. From the opening of the--
    Dr. Weller. From seismic activity at the cracks in the 
plates, releasing gases--something we are just beginning to 
see. And we know about the hot water vents and the rich 
biological communities there. We haven't had the tools, so the 
NSF contribution is a cabled network to give us the real-time 
capability to investigate this interaction with the seafloor. 
And the third component is the coastal observatories, including 
endurance arrays that would be installed for long amounts of 
time, and movable pioneer arrays.
    Let me move to sum up here and pick an area that I am 
familiar with. This is the region off New England. This is the 
sea surface temperature. It shows how dramatically complicated 
it is. Shortly after World War II, oceanographers and 
meteorologists at Woods Hole Oceanographic Institution moved to 
make predictions of the wintertime climate in New England, 
drawing on knowledge of the meteorology and the sea surface 
temperature in the North Atlantic. They failed, and they failed 
dramatically. We now know why. We know that the climate off New 
England and the variability in New England waters is not just a 
reflection of location processes; it is a concatenation of 
remote regions. And we know that the North Atlantic Oscillation 
influences this region, we know that the Indian Ocean Tropical 
SST influences this region.
    The vision that I see of the future we are building is one 
in which we have meshed observing systems, in which the global 
observing system in the Atlantic provides information about the 
large-scale transported water masses. The global observing 
system provides the information about SST anomalies in remote 
places and tells you how, through the atmosphere, that 
influences this region. But it meshes with the coastal system, 
so that is when you see change in the ecology and the biology 
and the climate and the coastal processes in a region like 
this. You are building your understanding based upon the 
meshing of the coastal, regional, and global observatories. 
Indeed, as Dr. Spinrad mentioned, what we see is a future in 
which these ocean observing systems work in a comprehensive way 
together with the terrestrial and space-based observing systems 
to build a better future for us all.
    Thank you for the opportunity to testify. I would like to 
answer questions later. It is an exciting time, with the 
synergy of the advances that the National Science Foundation 
has proposed, building upon the traditional heritage in this 
country of strong support from the ocean agencies, NOAA, Navy, 
NSF, and also NASA, through their remote sensing.
    Thank you.
    [The prepared statement of Dr. Weller follows:]

 Statement of Robert A. Weller, Ph. D., Senior Scientist and Director, 
   Cooperative Institute for Climate and Ocean Research, Woods Hole 
          Oceanographic Institution, Woods Hole, Massachusetts

    Good afternoon Mr. Chairman and members of the Subcommittee. Thank 
you for the opportunity to testify. I am Robert Weller, an 
oceanographer at the Woods Hole Oceanographic Institution and, 
recently, a member of the National Research Council's Committee on a 
Seafloor Observatory Network for Oceanographic Research. I am not 
formally reporting on the work of that committee on behalf on the 
National Research Council. I am today providing my own synthesis of the 
development of the open ocean observing system. I do field research 
that involves deploying moorings to study the interaction of the 
atmosphere and ocean and better understand the role of the ocean in 
weather and climate. I am at present co-chair of the Science Steering 
Committee of the U.S. CLIVAR (Climate Variability) Program, and 
participate in national and international groups working to design and 
implement ocean observing systems. In my testimony, I will discus the 
development of open ocean observing systems, the synergy between open 
ocean and coastal ocean observing systems, and how terrestrial, 
coastal, and open ocean observations are combined to document 
variability and change in the ocean as well as to develop products for 
diverse users.
    To lay a foundation for discussion of ocean observing systems and 
to illustrate how the development of an integrated ocean observing 
system would serve the nation's needs, I will start by several examples 
of the influence of the ocean on our lives in the United States. The 
ocean, the atmosphere, and the land interact, exchanging heat, 
moisture, and other constituents. The ocean and the atmosphere are 
mobile and can transport energy, heat, and moisture from one location 
to another so that local and regional variability and change in one of 
the three components can be communicated through the ocean and through 
the atmosphere to cause variability and change at other locations. The 
variability and change we experience at any one place is as a result 
driven by a combination of local and regional processes and large-scale 
processes that can bring to our location the influence of regions of 
the global ocean far from where we live or work. For example, in May 
1960 an earthquake in Chile triggered a tsunami that traveled across 
the Pacific and hit Hilo, Hawaii killing 61 people, destroying 537 
buildings, and causing over $23 million dollars of damage.
    The impact of remote ocean regions is evident in weather and 
climate variability and change as well. The ocean and the atmosphere 
have large-scale patterns or modes of variability on different time 
scales, including the El Nino-Southern Oscillation or ENSO mode (Figure 
1) and the North Atlantic Oscillation (NAO) (Figure 2). In these modes, 
departures from normal sea surface temperatures play a key role in 
driving anomalous weather and climate.
    Work by Siegfried Schubert at NASA Goddard Space Flight Center and 
colleagues (Science, vol. 303, 19 March 2004, pp. 1855-1859) points to 
the role of such large-scale patterns and their related sea surface 
temperature anomalies in the climate of the United States. Taking the 
historical observations of sea surface temperature they found that the 
great drought in the central United States in the 1930's was linked 
with anomalously cold sea surface temperatures just east of Japan and 
anomalously warm sea surface temperatures between eastern Canada and 
Europe (Figure 3).

[GRAPHIC] [TIFF OMITTED] T4997.001

[GRAPHIC] [TIFF OMITTED] T4997.002

    Other recent results, these from a team of scientists at the 
National Center for Atmospheric Research, Marty Hoerling, Jim Hurrell, 
and colleagues (Hoerling et al., 2004, in press in Climate Dynamics) 
point to warming in the tropical Indian Ocean in the last half of the 
20th century as a cause for change in the polarity of the North 
Atlantic Oscillation and thus in wintertime climate in the North 
Atlantic region.
    Thus, though the earthquake in Chile, the anomalously cold ocean 
off Japan, and the warm water between Newfoundland and Europe are not 
close at hand, they impacted the United States. We have gathered much 
similar evidence of the role of the global ocean; the need now is to 
move forward to get the research and ongoing ocean data required to 
build understanding into new predictive capabilities and to provide the 
data required to initialize predictive models. We know from such 
evidence and present understanding the types of data that we should be 
observing. We are as a nation and in partnership with other nations at 
work on the task of developing ocean observing systems. This progress 
and the need for continuing work on ocean observations are being 
factored into the plans being developed by the intergovernmental Group 
on Earth Observations (GEO) that met first in July 2003.
    Figure 4 is a summary presentation of the elements of the NOAA 
Climate Observing Program which has gone far to start the U.S. 
investment in the open

[GRAPHIC] [TIFF OMITTED] T4997.003


    Most of the key elements of the open ocean observing system are 
illustrated.
    The ocean is a large source of energy, in the form of heat and 
water vapor; and anomalous patterns of sea surface temperature drive 
anomalous weather and climate via the atmosphere. To track the ocean 
anomalies, we need good global sea surface temperature measurements. 
This is done with surface drifters, which can also collect barometric 
pressure in support of weather prediction, and by satellite. To assess 
and to better model and thus predict the impact of sea surface 
temperature anomalies on the atmosphere, we need observations of the 
exchanges of heat and freshwater between the ocean and the atmosphere. 
These exchanges or fluxes are measured by surface buoys moored to the 
sea floor (Figures 5, 6) and by ships. 

[GRAPHIC] [TIFF OMITTED] T4997.004

[GRAPHIC] [TIFF OMITTED] T4997.005

    To understand the potential for the surface anomalies to last and 
thus have long-lived impacts, we need to measure how deep the anomalies 
are by getting temperature profiles in the upper ocean. A variety of 
techniques are used to obtain temperature profiles, including 
expendable probes dropped from commercial ships, instruments on ocean 
moorings, and the recently developed drifting profiling floats called 
ARGO floats (Figure 7). We need the observations required to understand 
why and how the sea surface temperature anomalies form; these 
observations are of the surface winds, the air-sea exchanges or fluxes 
of heat and freshwater, the depth of the ocean surface mixed layer, and 
the ocean currents. Surface winds are measured by moored buoys, by 
ships, and by satellites. Heat and freshwater fluxes are measured by 
buoys and ships, and work is underway to improve estimates of these 
quantities using satellite observations. ARGO floats, moorings, and 
expendable probes give us mixed layer depth. Drifting buoys and current 
meters attached to moorings give us direct observations of ocean 
currents. We also estimate currents from satellite observations of the 
surface winds and the elevation of the ocean surface together with 
information about the temperature and salinity of the ocean from ARGO 
floats, moorings, expendable probes, and drifters.

[GRAPHIC] [TIFF OMITTED] T4997.006


    Ocean water exposed to the atmosphere in high latitudes loses heat 
and unless freshwater is added, it becomes denser and sinks as part of 
the large-scale three-dimensional circulation of the global ocean 
(Figure 8). Because the sinking depends on both the temperature and 
density of the water, it is called the thermohaline circulation. The 
thermohaline circulation plays a major role in carrying heat poleward 
from the tropics and in other countries, such as the United Kingdom, 
has become a major focus for ocean observations. Such observations seek 
to monitor the temperature and salinity of the water as well as the 
volumes of water of different temperature and salinity properties that 
move north and south through the ocean basins and circulate around the 
Antarctic in the Southern Ocean. At the same time, the process of 
exposure to the atmosphere and subsequent sinking into the interior of 
the ocean results in the ocean playing a major role in how carbon, as 
carbon dioxide and also in other forms of organic and inorganic carbon, 
and other compounds cycle through the atmosphere-ocean-land system. As 
a consequence, our observations should measure carbon dioxide, 
dissolved oxygen, and biogeochemical constituents and their exchange at 
the sea surface. Measurements of the penetration into the ocean of 
chemicals introduced by man into the atmosphere, such as 
chlorofluorocarbons (CFCs), provide a powerful means to assess change 
in the deep ocean and our ability to realistically simulate that change 
and the processes, including mixing that cause it. Passage of water 
through the deepest parts of the ocean on its way back to the surface 
is slow and a challenge to model; we need to at intervals of five to 
ten years make observations of temperature, salinity, and chemical 
constituents over the full depths of the oceans (Figures 9, 10).

[GRAPHIC] [TIFF OMITTED] T4997.007


    At the same time, for safety and for efficient use of the ocean, 
tsunamis, surface waves, and ocean currents should be measured. For 
tracking the tides and storm surges and for identifying long-term 
change in sea level, a global network of sea level gauges is needed. 
The U.S. partners in the global sea level network and the global 
surface drifter network, is building a tsunami warning network of 
moored buoys, and is working toward a global network of surface 
meteorological buoys. Because the ocean is a critical ecosystem for us 
as a food resource, as an element of global biogeochemical cycles, and 
as a resource for plants and animals that yield beneficial products 
other than food, we need to progress toward more comprehensive 
observations of nutrients, of populations of organisms, and of the 
biogeochemical properties of the open ocean.
    We have as a community established these priorities for what to 
observe, identified key locations where to observe, and in some cases 
established multinational partnerships to scope what the contribution 
would be from the United States. However, we do not yet have the 
capability to implement all aspects of the global ocean observing 
system. Some locations, where there are high winds and high waves and 
where there are strong currents, are too challenging for present 
technology. Some locations require instrumentation that draws more 
power than we can provide with batteries alone. In some cases, the 
observations would be best done by laying cable that would both provide 
power and data communications. Further, we have not in these 
challenging locations yet done the detailed research-oriented 
observations required to develop the understanding and 
parameterizations of the processes that drive change and variability 
there and would be incorporated in predictive models that would be one 
user of long-term data coming from these challenging regions.
    The ocean, though it is close at hand and has such impact on our 
lives, in many ways has proved a more formidable challenge to observe 
than space or the land surface. Seawater is corrosive. Marine life 
grows on sensors and causes them to degrade or fail. At the sea 
surface, the waves and currents can flex, fatigue, and break materials.
    We are ready meet these challenges and soon push forward the state 
of the art of ocean observations and make a major step forward toward 
completion of an integrated ocean observing system. This will be done 
by building on the strong foundation of technology, capability, and 
research created over the past by the Office of Naval Research (ONR), 
the National Science Foundation (NSF), the National Oceanic and 
Atmospheric Administration (NOAA), and the National Aeronautics and 
Space Administration (NASA) and by the partnering of the new Ocean 
Observatories Initiative (OOI) of the National Science Foundation 
together with NOAA's commitment to lead a multi-agency partnership to 
implement the integrated ocean observing system.
    The proposed NSF OOI aims to provide critical needed infrastructure 
and capability in three areas: the open ocean, on a regional scale, and 
along the coasts. Let me start with the open ocean and move through 
regional to coastal and end this talk by briefly pointing to the 
integrated system that we anticipate. To meet the challenge of severe 
environments and to provide power to instrumentation from the surface 
to the sea floor, the OOI is planning for a large, very capable surface 
buoy with a fiber optic and power cable to the seafloor (Figure 11). In 
locations with less severe sea states, a smaller buoy that provides a 
step forward in communications technology is planned (Figure 12). In 
both cases the emphasis is on bringing the observations of diverse 
ocean disciplines (physics, biology, geology, seismology, chemistry, 
optics) together for coincident collection of data, some or all of 
which would be available in real time, and thus enabling an 
unprecedented interactive, collaboratory open ocean observing 
capability.

[GRAPHIC] [TIFF OMITTED] T4997.008


    This intent to push the state of the art is also applied in the OOI 
to the notion of comprehensively instrumenting one of the plates that 
form the earth's crust beneath the sea. The goal is to make a step 
forward in capability to observe the interactions between the seafloor 
seismic activity, seafloor biology (for example, the rich ecosystems 
around hydrothermal vents) and seafloor geochemistry (for example, the 
release of methane during seismic activity) and the water column above. 
Because of the episodic nature of seismic activity, high sampling rates 
and a capable, flexible observing network are needed. This led to the 
development of the concept of the regional cabled observatory (Figure 
13).

[GRAPHIC] [TIFF OMITTED] T4997.009

    The third element of the NSF OOI addresses the aim of advancing the 
capabilities of coastal ocean observatories. At the coasts, additional 
processes contribute to variability and change (including nutrient and 
sediment runoff in rivers, mixing of bottom sediments, wind-driven 
coastal upwelling, breaking waves, and rip currents) and bottom 
topography and coastal orography combine to produce rich spatial 
variability on regional and local scales. To observe and understand 
variability and change in the coast, the OOI proposes a combination of 
long-term, fixed, well-instrumented arrays known as ``endurance 
arrays'' and more dense but shorter-lived ``pioneer arrays''. The 
endurance arrays would be permanent observing facilities at key 
locations. To achieve sufficient spatial sampling, the pioneer arrays 
would be installed in conjunction with an endurance array for several 
years at a time (Figure 14). The endurance and pioneer arrays would be 
instrumented to measure the surface forcing and air-sea exchanges 
(surface meteorology and heat and freshwater fluxes), the temperature, 
salinity, and velocity in the water column, and diverse biogeochemical 
parameters including dissolved oxygen, fluorescence, nutrients, and 
carbon dioxide. New sensor technologies would be tested for making 
observations of the populations of different species.

[GRAPHIC] [TIFF OMITTED] T4997.010

    The NSF OOI will, in summary, greatly advance capability for 
global, regional, and coastal ocean observations. High spatial and 
temporal sampling and real time data links will advance our 
understanding of processes that cause variability and change and of the 
relationship, for example, between physical change and change in the 
ecosystem. At the same time, the OOI will result in a step forward in 
observing system capability, providing programs such as the NOAA 
Climate Observing Program with the technology and infrastructure 
experience required to successfully occupy the more challenging 
environments of the global ocean. Many of these locations, such as 
those in the Southern Ocean, are beyond present capability and yet are 
where the thermohaline circulation of the ocean is driven and where 
atmosphere-ocean exchange of heat and carbon dioxide is believed to be 
large. As a consequence, these sites are of very high priority in 
observing system plans.
    I believe that we have in hand the all the elements to occupy such 
sites and thus make a leap forward in the development of ocean 
observation systems. We have the strong foundation built by the 
different ocean agencies. The Ocean Commission report and the 
international GEO process provide guidance at national and 
international levels for NOAA as the ocean mission agency to go 
forward. We have key remote sensing methods for sampling the ocean 
developed by NASA that should be recognized as of high national 
priority and sustained. We have the remarkable technological step 
forward proposed by the NSF to advance ocean sciences capabilities and 
the ongoing efforts of the Office of Naval Research to observe, 
understand, and predict ocean variability in support of Navy needs. 
There is a dialog between agencies that recognizes and builds on the 
synergy between ocean research, long-term ocean observations, 
assimilation of data, and improved predictive models and products.
    Let me close be showing a satellite image of the Atlantic Ocean off 
the northeastern United States (Figure 15). This is an with productive 
fisheries, where many citizens live, work, and play, and a region where 
the ocean transports warm water from the south and cool water from the 
north. In the years after World War II, oceanographers at the Woods 
Hole Oceanographic Institution worked to develop techniques to predict 
the winter climate in New England based on knowledge of the weather 
systems in eastern North America and in the North Atlantic and on the 
sea temperature of the ocean off New England. They failed to develop 
reliable prediction methods.

[GRAPHIC] [TIFF OMITTED] T4997.011


    We now know why. Variability in change in New England climate or in 
the ocean off New England is not solely driven by local processes. It 
results from a concatenation of remote, regional, and local processes. 
The global ocean, as I discussed in the beginning of this testimony, is 
a driver of change in the NAO. Model studies point to the need to 
consider the influence of the tropical Indian Ocean and the western 
Pacific Ocean off Japan as well as of the northern North Atlantic 
Ocean. If the oceanographers at Woods Hole had known this in the 1950s, 
they would have admitted to little chance of success. It is a much 
different perspective 50 years later. The efforts to develop ocean 
observing systems will come together. Regions like the waters of the 
Mid-Atlantic Bight and New England will be instrumented by the NOAA 
National Ocean Service, National Data Buoy Center, and by the regional 
associations Dr. Spinrad described as part of the coastal observing 
system. The global ocean observing system will be implemented, building 
on the NSF OOI and on the ocean research carried out by ONR and NSF, 
and under the oversight of NOAA and programs such as the Climate 
Observation Program.
    The coastal and open ocean systems will be meshed. In this case, 
the global system in the Atlantic Ocean will provide the large-scale 
patterns of variability and change in which the coastal waters are 
embedded. At the same time the global array will provide the 
information of the variability of the ocean in remote locations such as 
the equatorial Pacific that also drive variability and change in New 
England. The coastal arrays will provide the offshore transports of 
freshwater, sediments, nutrients, and other properties into the open 
ocean, information about the regional processes, and record the 
variability and change along the coast. These ocean observing systems 
will be complementary to terrestrial and atmospheric observing systems. 
The land, the ocean, and the atmosphere are linked. Research programs 
such as the Global Energy and Water Cycle Experiment (GEWEX) and CLIVAR 
work together and, for example, show that terrestrial observations, 
such as of soil moisture, are needed to further develop the ability to 
predict drought conditions.
    In closing, thank you for allowing me to submit this testimony. The 
United States is at the forefront of developing and implementing ocean 
observing systems, supported in the past mainly by the National Oceanic 
and Atmospheric Administration (NOAA), the National Science Foundation 
(NSF), the Office of Naval Research (ONR), and the National Aeronautics 
and Space Administration (NASA). The past diversity of the funding and 
the engagement of both government and academic oceanographers in the 
endeavor has been a great strength. We now have a convergence of 
planning, synergy between research and mission oriented goals, the 
development of new capability, and the recognition of the value of 
ocean observations. It is an exciting time, and I would be glad to 
answer your questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Weller.
    Dr. Boesch, welcome.

       STATEMENT OF DONALD F. BOESCH, Ph.D., PRESIDENT, 
    CENTER FOR ENVIRONMENTAL SCIENCE, UNIVERSITY OF MARYLAND

    Dr. Boesch. Mr. Chairman, it is always good to see my 
congressman. Good to be here.
    I am going to summarize my longer testimony and I am 
focusing on coastal observing systems. The rapid development of 
numerous coastal observing systems is testament not only to the 
entrepreneurial efforts of research institutions like mine, but 
also to an energetic, but often turbulent, confluence of 
significant push from emerging technologies in sensors, 
telecommunications, data management, and computation, and a 
growing pull for real-time nearly continuous information about 
the ocean, for both practical as well as scientific uses.
    As you indicated in your opening remarks, depending upon 
how the existing systems are defined, there are between 40 to 
60 coastal ocean observing systems in existence in our Nation 
today. Some are operational. Many others have been built for 
scientific purposes as opposed to functioning as operational 
systems for monitoring and prediction. And many of these 
scientific systems are also attempting to serve operational 
requirements as well.
    By and large, these systems have different sets of 
protocols and standards, collect different physical, chemical, 
and biological data based on different calibrations. Coastal 
observing systems are operated by a variety of Federal, State 
agencies, regional authorities, universities, and research 
institutions, and they do not at this point adequately share 
data or provide information through single access points. 
Because of the differences among these systems, generally 
speaking there is no standardized inter-operability. Coastal 
observing systems are generally chronically under-funded and 
difficult to sustain, and compete, typically through a 
political process, for limited funding.
    Although wonderful technology developments are proceeding, 
clearly the present situation is inefficient, less effective 
than it should be, and unsustainable. These concerns have 
naturally led to a call for an organization of national coastal 
observing systems as a network of regional associations in the 
plans for the integrated ocean observing system that was 
mentioned by my colleagues earlier. Both the environmental 
characteristics and user information needs of the Nation's 
coastal ocean vary enormously. Resources and uses also vary, 
from historically abundant fisheries of Georges Bank to the 
busy ports of the Mid-Atlantic Bight to the tourism of the 
Florida peninsula to oil and gas production in the Gulf of 
Mexico and fisheries in the Gulf of Alaska and Bering Sea.
    Organization based upon regional associations allows the 
focus to vary within the regions while also serving the 
national need, and it also resonates very well with the call by 
the U.S. Commission on Ocean Policy for stronger regional 
governance of the Nation's ocean resources based upon the 
principles of ecosystem-based management. Regional associations 
can provide the backbone of observations required for national 
needs, while at the same time, as I say, cater to varying needs 
of individual regions.
    Effective regional organization and management allows 
implementation on a scale sufficiently large to attain the 
critical mass necessary for successful delivery of useful 
products, but sufficiently small to focus on the most important 
scales of management and operations. With the advent of IOOS, 
the new regional associations will not only accelerate the 
development of these systems, but also accelerate the 
production and delivery of relevant information to the end 
users. Regional associations promise an organizational 
governance structure that ensures not only the interests of the 
participants are served, but also that the observational 
information forecast and analysis products will be delivered.
    I want to briefly focus on the Chesapeake Bay as an example 
of our development of trying to bring people together on 
observing systems. As you know, Mr. Chairman, my center started 
in the early 1990s, the Chesapeake Bay Observing System, with 
some Virginia institutional partners. And after we put in some 
buoys in the Bay, we instituted a program of monthly aircraft 
remote sensing flights. And as this system expanded, other 
organizations also have gotten into the business of making 
observations. Dr. Spinrad's program in the National Oceanic and 
Atmospheric Administration operates the physical oceanographic 
real-time port system for the ports in the Chesapeake Bay, 
providing the same kind of service as he indicated using the 
example of the Houston ship channel. In addition to that, our 
own Maryland Department of Natural Resources has instituted a 
program called Eyes on the Bay, which deploys shallow-water 
sensors off piers and in other shallow-water areas to give us 
the full complexity of the diversity of environmental 
conditions and responses throughout the Bay.
    In the Chesapeake Bay region, we are now working with 
Federal, State, and private partners to pull this all together 
into a more consolidated Chesapeake Bay observing system that 
integrates all of this information. But I have to tell you, it 
is challenging because the resources just to stay in this 
effort, for all of us, are very difficult to find.
    On a larger scale, of course, we are now trying to 
integrate the Chesapeake Bay observing system, which has to be 
useful to serve the Chesapeake Bay management--port security, 
navigation, recreational boater interests--but also integrate 
that into a regional network. We find it is a great opportunity 
for us and advantage to us. For example, by bringing in what 
goes on in the Continental Shelf, of course, which--water comes 
into the Bay and affects in a major way conditions that take 
place in the Bay within this broader system. So we are looking 
forward to integrating this into a regional system.
    Let me just very briefly conclude with a comment related to 
the fact that these investments in observing systems have to be 
integrated with equal and well sorted out investments in the 
science needed to understand and interpret the ocean 
environment, particularly around our Nation's coast. The U.S. 
Commission on Ocean Policy calls for a new era of ecosystem-
based management of the Nation's ocean environment that is 
supported by the best available science. Ocean observations 
alone are insufficient in meeting these scientific and 
information knowledge requirements for ecosystem-based 
management. Research on the causes and effects underlying the 
observations and the integration of science that advances 
proved understanding and supports robust prediction are also 
required. I would urge you to think about the sustained and 
significant investment that the Commission recommends in the 
science that is needed to manage our ocean resources wisely 
well into the future.
    So thank you very much for the opportunity to testify.
    [The prepared statement of Dr. Boesch follows:]

 Statement of Dr. Donald F. Boesch, President, University of Maryland 
         Center for Environmental Science, Cambridge, Maryland

    Chairman Gilchrest and Members of the Subcommittee, thank you for 
the opportunity to speak with you concerning our nation's present 
capabilities and future opportunities for ocean observing systems, 
particularly coastal observing systems.
    I am Donald Boesch and serve as President of the University of 
Maryland Center for Environmental Science. My institution was in the 
first wave of those initiating a coastal observing system, the 
Chesapeake Bay Observing System, more than a decade ago. In addition I 
have been involved in considerations of the development of a national 
ocean observing system through involvement in activities of the 
National Research Council, Consortium on Ocean Research and Education, 
Southeastern Universities Research Association, and U.S. Commission on 
Ocean Policy.
    I know it has proven difficult for Members of Congress to see a 
single compelling national objective for a national, integrated and 
sustained network of coastal ocean observing systems for several 
reasons. Is this for science or for some operational requirement? What 
is the primary purpose and which agency should be responsible for its 
management and funding? How will it support, replace, or improve what 
we are already doing in science and operations?
    As the U.S. Commission on Ocean Policy argued in its preliminary 
report the ocean observing systems offer numerous benefits and should 
therefore serve multiple masters. These systems can help: detect and 
forecast climate variability, facilitate safe and efficient marine 
operations, ensure national and homeland security, manage resources for 
sustainable use, preserve and restore healthy marine ecosystems, reduce 
risks from natural hazards, support safe development and transportation 
of energy sources, and ensure public health and safety. This requires a 
national, interagency program for the efficient integration and service 
of these user needs.

Coastal Observing Systems
    The rapid development of numerous coastal ocean observing systems 
is testament not only to the entrepreneurial efforts of research 
institutions like mine, but also to an energetic but often turbulent 
confluence of a significant push from emerging technologies in sensors, 
telecommunications, data management and computation and a growing pull 
for real-time and nearly continuous information about the ocean.
    Depending on how the existing systems are defined, there are 
between 40 to 60 coastal ocean observing systems in existence in our 
nation today. Some are operational, such as the NOAA NDBC buoys, C-MAN 
stations, National Water Level Observing Network and PORTS systems, to 
name a few. Many others have been built for scientific purposes, as 
opposed to functioning as operational systems for monitoring and 
prediction. But, many of these are also attempting to serve operational 
requirements as well. By and large, these systems have different sets 
of protocols and standards, and collect physical, chemical, and 
biological data based on different calibrations. Coastal observing 
systems are operated by a variety of federal and state agencies, 
regional authorities, universities and research institutions and they 
do not share data or provide information through a single access point. 
Because of the differences among these systems, generally speaking, 
there is no standardized interoperability. Coastal observing systems 
are generally chronically under-funded, difficult to sustain, and 
compete--typically through the political process--for very limited 
funding. Although wonderful technical developments are proceeding, 
clearly the present situation is inefficient, less effective than it 
should be, and unsustainable.
    These concerns have naturally led to the call for organization of 
the national coastal observing system as a network of Regional 
Associations in the plans for the Integrated Ocean Observing System by 
Ocean.US. Both the environmental characteristics and the user 
information needs of the nation's coastal ocean vary enormously. 
Geography, climate, ocean circulation, and ecosystem characteristics 
act to create a complex variety of local waves, tides, currents, 
fisheries, and water quality. Extending only 30 to 120 miles offshore 
from the shallow bays, estuaries and inner continental shelf to the 
deep ocean, coastal waters can show marked changes, from the cold, 
rough waters of the Gulf of Maine, to the South Atlantic Bight with its 
close proximity to the Gulf Stream, to the warm expanses of the 
continental shelf from west Florida to Texas, to the big waves of the 
cold California surf. Resources and uses also vary, from the 
historically abundant fisheries of Georges Bank, to the busy ports of 
the Middle Atlantic Bight, to the tourism of the Florida peninsula, to 
oil production in the Gulf of Mexico, to the fisheries of the Gulf of 
Alaska and Bering Sea.
    Organization based on Regional Associations also resonates well 
with the call by the U.S. Commission on Ocean Policy for stronger 
regional governance of the nation's ocean resources based on principles 
of ecosystem-based management. Regional Associations can provide the 
backbone of observations required for national needs, while at the same 
time, cater to the varying needs of individual regions. Effective 
regional organization and management allows implementation at a scale 
sufficiently large to attain the critical mass necessary for successful 
delivery of useful products, but sufficiently small to focus on the 
most important scale of management and operations. The time has arrived 
when observing systems can produce real-time information on the coastal 
ocean that is valued by a variety of constituencies. With the advent of 
IOOS, the new Regional Associations will not only accelerate the 
development of these systems, but also accelerate the production and 
delivery of relevant information to the end users. The Regional 
Associations promises an organizational and governance structure that 
ensures not only that the interests of the participants will be served, 
but also that observational information, forecasts, and analysis 
products will be delivered.

The Chesapeake Bay Example
    Observing systems to serve needs on subregional scales will, 
however, be the essential building blocks for the Regional 
Associations. As an instructive example I will briefly summarize our 
experience in the Chesapeake Bay and Middle Atlantic region.
    For almost a decade and a half efforts have been underway to 
develop an observing system for the Chesapeake Bay and adjacent 
continental shelf. The Chesapeake Bay Observing System (CBOS) was 
started by the University of Maryland, with a few Virginia partners, by 
placing two radio-telemetry buoys in the northern Bay. Soon after these 
buoys were launched, a program of monthly aircraft remote sensing 
flights commenced. As CBOS expanded, other systems began to come 
online. The National Oceanic and Atmospheric Administration's National 
Ocean Service (NOS) Physical Oceanographic Real-Time System (PORTS) was 
initiated to help guide shipping to the ports of Baltimore, Hampton, 
and Norfolk. Recently, Maryland's Department of Natural Resources 
``Eyes on the Bay'' program began to instrument docks and piers in Bay 
tributaries to track water quality in shallow waters. Similar efforts 
are underway in Virginia. In addition, there has been a 20-year long 
effort to monitor the water quality conditions and living resources in 
the Chesapeake Bay through periodic (weekly to monthly) sampling of the 
Bay from boats.
    Although these systems have achieved some success and longevity, 
they have not yet been established with an adequate level of funding to 
ensure continuous, sustained observations. Continuous, multiyear 
records have been obtained, but the struggle to provide this 
information has come through comparatively small amounts of funding 
from multiple sources. This hand-to-mouth operation has not only 
prevented full spatial and temporal coverage, but has also limited the 
development of information products tailored to users needs. These 
products demonstrate the value of the system, and thereby help the 
search for funding.
    Over the past two years, a Chesapeake Bay Observing System 
Association has formed from academic, governmental, and private-sector 
partners. This new, larger CBOS structure includes academic 
participants (University of Maryland Center for Environmental Science, 
Virginia Institute of Marine Science, and Old Dominion University), 
state agencies (Maryland Department of Natural Resources, the Maryland 
Department of the Environment, Maryland Emergency Management Agency, 
and the Virginia Department of Environmental Protection), federal 
agencies (National Weather Service, National Ocean Service, National 
Aeronautic and Space Administration, the U.S. Geological Survey, and 
the Environmental Protection Agency), the military (Aberdeen Proving 
Ground, Patuxent River Naval Air Station, Navair Atlantic Range, Fleet 
Base Norfolk, Fleet Base Little Creek, and Navy Meteorological and 
Oceanographic Forecasting), and a host of private-sector partners, 
including the Chesapeake Bay Foundation, the region's primary 
environmental advocacy group.
    For the Chesapeake Bay region, forecasts of conditions in the Bay 
and over the adjacent continental shelf would greatly aid the effort to 
restore its water quality and productive fisheries, would support an 
ecosystems-based management for these resources, and also facilitate 
safe marine operations in the Bay and its ports of Baltimore, Norfolk, 
and Hampton, provide warnings for natural hazards, and increase the 
enjoyment and safety of marine recreation. The recent experience of 
Hurricane Isabel, which took the less-traveled route to the west of 
Chesapeake Bay, indicates that the timely delivery of detailed 
forecasts of storm surges would greatly improve the ability to diminish 
loss of life and property from such storms. Presently, the accuracy of 
marine forecasts over the Chesapeake Bay region is hampered by the lack 
of data of winds and the marine boundary layer over the water. Both 
short-term and long-term forecasts have been shown to be of significant 
value to the insurance industry. Real-time information is valuable for 
energy production such as Calvert Cliffs Nuclear Power Plant, which 
depends on Chesapeake Bay water for cooling its reactors. Safe 
operation of the nearby Liquid Natural Gas terminal also depends on 
accurate forecasts and nowcasts of currents and marine weather. Even 
port security would be aided by a real-time observing system over the 
Bay. The same high-frequency radars that are employed to measure 
surface currents are now being modified to provide a ship-tracking 
capability for vessels as small as 30 feet.
    Recently, a CBOS Demonstration Project was funded through NOAA to 
produce real-time information products of winds and waves over the 
Chesapeake Bay. The majority of CBOS partners will be involved in this 
effort, which is expected to provide the seed for a fully sustainable 
operational system. Winds and waves are key inputs to the developing 
Chesapeake Bay Community Model, which will serve as the primary 
forecast tool, assimilating real-time data from CBOS to ensure high-
accuracy predictions.
    On the larger regional scale, the span of coastal ocean between 
Cape Cod and Cape Hatteras contains a dynamic and productive ecosystem, 
crossed by a web of busy shipping lanes and scoured by both midwater 
and groundfish trawlers. Many of the important resources and threatened 
ecosystems are located, not over the outer continental shelf, but along 
the shore and within the large and increasingly urbanized estuaries--
Chesapeake Bay, Delaware Bay, Hudson-Raritan River, Long Island Sound, 
and Narragansett Bay. Into these estuaries, the Susquehanna, Potomac, 
James, Delaware, Hudson, and Connecticut Rivers drain a significant 
portion of the eastern United States, where about 23% of the nation's 
population lives. These nearshore waters contain tier-one ports, 
military bases, and important inshore shellfish and finfish grounds. It 
is here that economically valuable uses such as recreation, tourism, 
and fisheries readily conflict with other valuable uses, chief among 
which is the discharge of nutrients from watersheds and from municipal 
sewers. The regional ocean observing system for the Middle Atlantic 
must meet the challenge of incorporating these important nearshore 
environments as well as the continental shelf.
    For the Chesapeake Bay, the new Mid-Atlantic Regional Association 
promises significant advantages, the most important being providing the 
observing system for the continental shelf with which the Bay 
communicates. Approximately half the water in the Bay at any one time 
originated from the shelf. Our forecast models will not be sufficiently 
accurate without accurate observing and modeling of the Middle Atlantic 
Bight. Furthermore, regionalization will provide an effective means for 
sharing of comparative information within the region and linkage with 
the national IOOS and cost efficiencies regarding data management and 
telecommunications.
    Sustainability is a key challenge in the Middle Atlantic region as 
it is elsewhere. Through engaging users of these systems at the outset, 
they will produce information products that the users may deem 
sufficiently valuable to provide financial support. However, realistic 
assessments from demonstration efforts indicate that this business 
model is unlikely to succeed without base funding support from the 
federal government. The Weather Observing Network has been justified as 
being funded by the federal government because it serves a common good, 
common to the entire nation. In Chesapeake Bay, a successful Coastal 
Marine Demonstration Project produced valued products operationally for 
a variety of users, yet the development of the system and the size of 
the user base did not reach the stage where the threshold of self-
sustainability was reached. Even the most mature Regional Observing 
System, the Gulf of Maine Ocean Observing System, has not yet reached 
that threshold. However, with the planned structure for both 
subregional and Regional Associations built around having users at the 
table as full partners, we can expect at least a portion of the 
financial support accruing from the user community.

Science Requirements
    Additional investments in science will be necessary to fully reap 
the benefits of coastal observing systems. We must move beyond the 
basic set of measurements of temperature, salinity, winds and currents 
in order to take full advantage of the substantial investments in 
platforms. The explosions of new technologies that allow more 
miniaturization, lower power requirements, and ensure robust 
performance in the environment allow the reliable measurement of 
chemical and biological properties and processes. With support from 
NOAA's Coastal Services Center we have developed the Alliance for 
Coastal Technologies (ACT), a partnership of research institutions, 
state and regional resource managers, and private sector companies 
working together to develop, improve, and apply standardized sensor 
technologies for studying and monitoring our coastal environments. ACT 
provides an unbiased, third-party testbed for evaluating new and 
developing coastal sensor technology and sensor platform technologies, 
a comprehensive data and information clearinghouse on coastal 
technologies, and a forum for capacity building through workshops and 
seminars on specific technologies. Our partners represent all the key 
geographic areas and environmental conditions along our coasts. These 
include my own University of Maryland Center for Environmental Science 
for the Mid-Atlantic region; the Gulf of Maine Ocean Observing System 
for the New England region; Moss Landing Marine Laboratory and Monterey 
Bay Aquarium Research Institute for the Pacific coast; Skidaway 
Institute of Oceanography for the South Atlantic region; the University 
of South Florida for the Gulf region; the University of Hawaii for the 
western Pacific, and the University of Alaska for the northern Pacific.
    NOAA's Coastal Services Center is also supporting a wide variety of 
efforts linking research to products and services for the coastal 
community by funding 16 organizations through its Coastal Observation 
Technology System (COTS). These grants are designed to further the 
development of an integrated regional coastal ocean observing system.
    The U.S. Commission on Ocean Policy calls for a new era of 
ecosystem-based management of the nation's ocean environments that is 
supported by the best-available science. Ocean observing systems will 
make a contribution in that regard, but alone are insufficient in 
meeting the scientific and information and knowledge requirements for 
ecosystem-based management. Research on the causes and effects 
underlying the observations and integration of science that advances 
improved understanding and supports robust prediction are also 
required. The Commission recommends a substantial increase in 
investment in ocean science, strategically directed by an improved 
interagency process, to accomplish these objectives.

Legislation
    In order to establish a nation-wide, integrated ocean observing 
system, legislation is called for that provides the proper authority to 
the responsible agencies to work together, takes advantage of and 
builds on the existing infrastructure that has already been developed 
on a regional and sub-regional basis, and relies on a regionalized 
operating structure.
    The Senate passed S. 1400 in November of 2003. Congressman Curt 
Weldon (R-PA) has prepared legislation that update S. 1400 by 
incorporating the recommendations from the U.S. Ocean Commission and 
addresses concerns of many Members of the House. This bill has had the 
input of numerous constituencies and I believe that it provides a 
viable mechanism for the federal agencies to work together, taking 
advantage of and building on our existing observation infrastructure, 
and utilizing a regional approach for operations.
    One of our great concerns regarding any legislation of this kind, 
however, is the jurisdictional situation. Any bill of this kind, like 
S. 1400, will be referred to more than one committee. In the instance 
of S. 1400, the bill has been referred in the House to your Committee, 
as well as to the Science Committee, Armed Services Committee, and the 
Transportation and Infrastructure Committee. With so many committees 
having jurisdiction, it is of critical importance that the Resources 
Committee, which has primary jurisdiction under the House Rules, 
provide the leadership necessary to move the legislation. In addition, 
we would urge you to work with the other committees sharing 
jurisdiction to promote hearings and markups so that legislation 
establishing an Integrated Ocean Observing System can be passed and 
signed into law as soon as possible.
    Estimates of what the costs would be to fund such a nation-wide 
system may appear to be extremely large. However, when one considers 
the benefits to the large ocean and coastal constituencies, including 
supporting the national security mission of the Federal government, the 
costs are not high at all. The bottom line is that everyone of us 
within the United States is highly dependent upon our coastal and ocean 
waters; hence the costs, when analyzed properly and spread to the 
actual beneficiaries, are very reasonable. The recently updated, 
initial year estimate, spread among all the primary federal agencies, 
is about $140 million. With the necessary coordination and 
infrastructure development over the next five years, the number ramps 
up to about $500 million. These numbers were developed by Ocean.US and 
represent a more realistic cost outlook.
    Although these sums seem quite large, an initial economic analysis 
by independent economists under contract to NOAA estimated a return of 
$5 to $6 for every $1 invested in ocean observing and predictions. This 
is an excellent return on the investment, and benefits all user 
communities of our oceans and coasts, including industry, government 
and the public. We hope you will bear this in mind when you consider 
legislation to establish an integrated ocean observing system.

Conclusion
    All of us in the research community appreciate the interest you 
have shown in this issue, Mr. Chairman. Thank you for the opportunity 
to comment on it and support your subcommittee in its deliberations. I 
would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Boesch.
    I want to thank all of you for your testimony. There is a 
lot of extraordinary things happening out there. There are 
enormous amounts of information, as you presented to us this 
morning, and we would really like to work with all of you to 
coordinate your testimony, that information, your background to 
bring in this ocean observing system as a premier tool of the 
United States to monitor 70 percent of the earth's surface, and 
then integrate that with the rest of the world and set the 
stage for a new generation of understanding.
    Dr. Spinrad, in your testimony, you talked about an ocean 
observing system that could--I guess, if I am hearing right--
detect areas of hypoxia, see beach closures necessary before 
they happen, determine or detect in a better manner over-fished 
stocks, invasive species, harmful algal blooms, storm damage, 
erosion, et cetera. How far are we right now away from 
determining those things in a timely manner? The existing 
system that we have right now, how integrated is it, how 
fragmented is it, how far are we away from being able to, in a 
real-time fashion, monitor and then predict the management 
necessarily to deal with those issues?
    Dr. Spinrad. In many of the cases, Mr. Chairman, we have 
been able to demonstrate through pilot studies a capability in 
targeted areas, in very specific examples, some dramatic 
improvements in our abilities. For example, with harmful algal 
blooms in the eastern Gulf of Mexico, we are, at NOAA, in a 
pre-operational mode, intend to go operational within the next 
six to 9 months to provide coastal managers in the Gulf of 
Mexico with that kind of forecast capability.
    Mr. Gilchrest. To forecast where the hypoxic areas are 
going to be?
    Dr. Spinrad. Where and when we expect--not the hypoxia, the 
harmful algal blooms in the eastern Gulf of Mexico.
    Mr. Gilchrest. So in six to 9 months, you would be able to 
predict that there is going to be a harmful algal
    bloom outbreak?
    Dr. Spinrad. In six to 9 months, we will be going 
operational with the capability to provide forecasts on a days 
to weeks kind of timeframe.
    Mr. Gilchrest. If there is going to be a red tide or 
something like that. When you have that capability of 
predicting that that is going to happen, do you know why that 
happens?
    Dr. Spinrad. Well, this is where the connection with the 
research community is so critical. We do have good fundamental 
understanding of primary productivity, that is, trophic 
interactions, what influence injection of nutrients will have 
to result in productivity of those kinds of algal blooms, and 
then which algal blooms themselves are the toxic algal blooms. 
We have a good basis of research, but this is a classic example 
of working with NSF, the Office of Naval Research, to define 
what the user community--in this case, coastal managers--need 
in terms of duration of forecast, what kinds of specific events 
they care about, that is, those that are most influential on 
the shell fishery, and therefore be able to define what sorts 
of research requirements we have for the Integrated Ocean 
Observing System.
    Mr. Gilchrest. So in six to 9 months there will be 
operational capability to begin to predict those types of 
harmful algal blooms and get that information to coastal 
managers.
    Dr. Spinrad. That is correct, in the Gulf of Mexico.
    Mr. Gilchrest. In the Gulf of Mexico. And is there then an 
understanding as to the contribution to those outbreaks of 
harmful algal blooms from the Mississippi River, from the 
coastal community itself, from the sources that--I guess, is 
there a distinction between the kinds of natural algal blooms 
that were out there 500 years ago and the type of algal blooms 
that are there now, possibly as a result of industry, sewer 
plants, just a whole range of human activity?
    Dr. Spinrad. I don't think we are at the point now where we 
can conclusively break out, say what the anthropogenically 
influenced harmful algal blooms might be versus those that were 
occurring over long periods of history. Clearly we have a much 
better understanding of the factors that contribute to the 
onset and also the dispersion of these blooms, but we are not 
at the stage where we can make that clear a discrimination.
    Mr. Gilchrest. Is there some discrimination or 
understanding between harmful algal blooms and hypoxic waters?
    Dr. Spinrad. Those really are treated somewhat 
independently, although obviously one of the critical factors 
is the physical forcing mechanisms--the mixing, the 
distribution of the waters. And in fact, the hypoxia events, 
again in the Gulf of Mexico, or for that matter in the 
Chesapeake Bay, are predictable to a certain extent, but unless 
you incorporate the real-time weather information as well--as 
we saw just this year in the Gulf of Mexico, where the 
forecasts were somewhat controverted, if you will, by the late 
onset of storm mixing events which introduced oxygen where we 
had forecast stronger hypoxic events. So it calls out the real 
critical need not just to build an integrated ocean observing 
system, but that system has got to be well integrated with our 
meteorological observations as well.
    Mr. Gilchrest. Would you call this, what you are doing, 
this integrated system in the Gulf of Mexico, a first stage of 
a long-range project to do this type ocean observing or create 
this type of system throughout the United States?
    Dr. Spinrad. Very much so, yes, from the standpoint that 
one of the things that we consider critical in the development 
of the Integrated Ocean Observing System is having a clear 
continuum from the basic research through pilot projects to 
pre-operational and then operational capabilities.
    The other thing that particular example calls out nicely is 
that we do have specific regional interests. And the reason why 
you have heard each of the witnesses here allude to the 
Regional Observing System capabilities is because there are 
specific priorities. There are general needs for backbone kinds 
of observations, like water-level observations. But then there 
are specific regional priorities. And, for example, the Gulf of 
Mexico hypoxia and harmful algal bloom priorities are different 
from the kind of priorities we may have in other parts of the 
country.
    Mr. Gilchrest. I understand. I have a few more questions, 
but at this point I will yield to the gentleman from New 
Jersey.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to get to 
the funding issue and ask Dr. Spinrad, in your written 
testimony you make a compelling case for why an Integrated 
Ocean Observing System is needed. Indeed, every witness sitting 
at the table has articulated why the U.S. needs such a system. 
And I have to say that I am pleased to see such overwhelming 
support for it and, you know, applaud the efforts thus far in 
moving toward that goal.
    But as I mentioned in my opening, even though we are all 
optimistic, there is a lot of pessimism regarding the funding 
to implement and sustain a national ocean observation system. 
As we saw with the President's budget request and then the 
recent House Commerce/Justice/State appropriations bill, there 
were significant reductions to NOAA's budget, I guess to the 
tune of $46 million from Fiscal Year 2004-enacted levels. And 
then in the Senate we have S. 1400. If you use that as a guide, 
implementation would cost all agencies involved a total of over 
$200 million for each of the next 5 years. So that is a billion 
dollars.
    So you contrast what we think we need versus what we are 
getting, assuming that the CJS appropriations bill passes 
Congress, I would like to know, Dr. Spinrad, what NOAA programs 
will be specifically affected by the budget cuts with regard to 
their responsibility in helping to implement the ocean 
observing system. And perhaps you can talk about a few programs 
and then submit a list of the affected programs to the 
Subcommittee later. But if you would at least tell us what you 
can at this point, I would appreciate it.
    Dr. Spinrad. Yes, I would be glad to do that. There are a 
couple of important initial points that I would like to make in 
response. The first is that we are converging on a clear 
understanding of what the current level of investment is, and 
nationally we are looking at a level of investment on the order 
of about $900 million per year, from research through 
operations, among all of the agencies that are invested in the 
Integrated Ocean Observing System. NOAA's contribution to that, 
through our various pieces, is approximately $600 million per 
year. So the first important point is that our ability to 
sustain that investment persists. We will continue to invest in 
those levels. And you have heard some reference to the kinds of 
programs that we will be able to continue invest in the 
physical oceanographic real-time system--
    Mr. Pallone. But still, tell us how--I mean, there must be 
some impact from these cuts. And if you would give us some 
information about how the budget cuts would affect the system.
    Dr. Spinrad. Without the specifics associated with some of 
those cuts, it is hard to determine at a program level where we 
will see those cuts. Now, for example, in language in the House 
appropriation, there was sustainment of our navigation services 
efforts. Many of the kinds of observations that I am talking 
about here are in fact embedded within the navigation services 
investments. The water-level observations, for example, is part 
of that as well. There are research investments within NOAA, in 
our Ocean Assessment Program; we are trying to determine what 
the cut effects might be on those particular research programs. 
It is unresolved at this point.
    Again, with respect to our budget submission, however, what 
you will see is that there are specific growth areas that we 
have proposed both in the navigation services and then in the 
climate-related ocean observations arena, to the tune of $24 
million on the climate side.
    Mr. Pallone. But, well, I know you are trying not to be 
specific and maybe you can just get back to us later. But I 
mean, the bottom line is there has to be some impact. I mean, 
didn't the President's own Fiscal Year 2005 request cut some of 
the ocean observation earmarks specifically?
    Dr. Spinrad. Well, the budget request itself included 
sustainment of the baseline investments and two particular 
areas of proposed increases with respect to navigation services 
and climate investments.
    Mr. Pallone. But there were no cuts specifically in ocean 
observation earmarks?
    Dr. Spinrad. The earmarks that had been provided in past 
years were not resubmitted as part of the budget in the 
National Oceanic and Atmospheric Administration.
    Mr. Pallone. Now, what about--I mean, is it likely that 
what you are going to do is just divert funds from other 
programs to cover the expenses of implementation? I mean, you 
keep stressing overall and not wanting to get to the specifics. 
Is that what is likely to happen?
    Dr. Spinrad. I would hope it is not what is likely to 
happen. As I said, our budget actually included some specific 
increased areas for ocean observations and a determined effort 
to sustain those core, if you will, areas that we have retained 
within the $600 million figure that I identified earlier, as 
well as the sustained efforts in data management and 
communications.
    Mr. Pallone. But I just don't know how you are going to do 
it all and, you know, still not have some impact. But I guess 
you are reluctant to give me much in the way of details. But 
with the help, along with your support, Mr. Chairman, if we 
could get some, you know, written statement from you about how 
the CJS appropriations would specifically affect the different 
programs or line items, I would appreciate it.
    Dr. Spinrad. Absolutely. We are well prepared to develop 
those impact statements.
    Mr. Pallone. Could I just ask one more thing--with your 
indulgence. Is it reasonable to expect users of ocean 
observation data to pay for access to the data? In other words, 
who would be required to pay for access--commercial/
recreational fishers, commercial shippers, recreational 
boaters? What would you think about that?
    Dr. Spinrad. There has been a long history in the 
meteorological community, that the Weather Service has been 
party to, in dealing with exactly that question, the 
availability of data. And I might add that this is a critical 
issue in the international scene. The World Meteorological 
Organization, for example, years ago established a policy for 
the full and open availability of those data. The oceanographic 
community is, to a large extent, taking a lead from that 
community, trying to make full and open availability of these 
data. Where we expect to see similar kinds of developments in 
the oceanographic community is in the development of tailored 
products for which there may be subscription services, for 
which there may be charges--not unlike, for example, what is 
seen in the meteorological community, where you clearly can get 
for free data from the National Weather Service, but should you 
choose to request a particular tailored product, there is a 
whole private-sector community that can provide outstanding 
services along those lines. I think we can do the same kind of 
thing in the oceanographic community.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    This is not exactly a clarification, but in reference to 
the $400 million cut that NOAA received for the 2005 budget on 
the House side, in the 2003 appropriation--well, in 2003, when 
we appropriated for 2004, the NOAA budget was increased by 15 
percent. And that was good. That was for this year. And we 
supported that. The 2005 budget, as a result of that increase, 
we were told by our good friends on the Appropriations that 
they were sustaining in a much more equitable fashion, given 
all of the other Government programs, of the $2 trillion that 
we spend, it was to get NOAA back to where they normally would 
be and still be able to fund the programs that they felt were 
necessary.
    Now, while we all supported that 15 percent, we didn't 
necessarily support the $400 million cut. Even though it was a 
huge increase and if you got 6 percent or 7 percent increase 
that would have been good, and then that would have been 
matched by another 7 percent increase this year. So NOAA 
basically fared, given the last 2 years of appropriations, 
fairly well. A long way, though, from where we want to go. And 
we are competing with dollars for a man on Mars, a man on the 
moon, and all of those other things.
    So I would like to say to the gentleman from New Jersey 
that long before we have an appropriations for the 2006 budget, 
where we generally go to the appropriators a week before it 
comes to the House floor, we probably should have a strategy, 
starting in January, to visit the Chairman and Ranking Member 
of that particular appropriations subcommittee to bring in some 
of the people who are testifying before us here today to talk 
about the need and the essential requirement for our 
understanding of how the ocean works, and this ocean observing 
system, how far along we can go with it with a few extra 
dollars. And maybe we can postpone the landing on Mars for a 
few years, set these priorities. NASA is a wonderful agency and 
we do know that a lot of the ocean observing systems are 
coordinated with NASA. But I think maybe you and I and some 
other Members can begin the process of talking to the 
appropriators starting in January.
    I had a couple of questions for Dr. Leinen. You talked 
about the necessity of long-term ocean observations, whether it 
is a year, 10 years, even out to centuries. Now, I am going to 
play the devil's advocate here, even though I agree with you a 
thousand percent. I wish we could dump about $20 billion in the 
next appropriations process just for the system.
    But we have to do deal in a different, very peculiar 
reality up here on Capitol Hill. Because people are here for a 
lot of different reasons other than ocean observing systems. So 
if I tell my good colleagues that an ocean observing system is 
absolutely essentially, they are going to ask me why. And if 
you could come up with--you know, it seems obvious for all of 
you here even in this room why an ocean observing system deals 
with the whole range of things that Dr. Spinrad discussed.
    What would you tell a Member of Congress, that has no frame 
of reference to oceans, has never heard of an ocean observing 
system, doesn't have any idea that the climate is affected by 
the ocean because he was in a different business. So what would 
you say to him as to the importance of an ocean observing 
system?
    Dr. Leinen. Thank you, Mr. Chair. I think that my comment 
was that we understood that the processes take place over up to 
centuries. I think some wonderful examples of changes that we 
have documented as a result of looking at longer-term 
observations include our knowledge from sustained biological 
and chemical observations off Hawaii and Bermuda that show a 
basic change in the life-support system of the North Pacific 
Ocean from nitrogen limitation. For example, we fertilize our 
lawns with nitrogen. The North Pacific is changing from 
nitrogen limitation to phosphorus limitation. That--
    Mr. Gilchrest. Let me ask you--biological, chemical makeup 
of the ocean is changing over time, I would guess. And when you 
say it is changing from nitrogen limitation to phosphorus 
limitation, what does that mean?
    Dr. Leinen. It means that over the last 20 years or so, as 
a result of looking at measurements of the biology, of the 
chemistry, including the phosphorus and nitrogen chemistry of 
the North Pacific, we have determined, the scientists have 
determined, that the basic life support, the plankton of the 
North Pacific, used to be limited by nitrogen. Now they appear 
to be limited by phosphorus instead.
    Mr. Gilchrest. Why is that?
    Dr. Leinen. We don't know why that is yet. We know that--
    Mr. Gilchrest. But that is going to affect the plankton in 
that area of the ocean?
    Dr. Leinen. It affects the plankton in that area of the 
ocean, it affects everything that lives on the plankton, which 
is essentially the entire trophic structure of the ocean. It 
also affects the chemistry of the ocean because the chemistry 
is so strongly influenced by the phytoplankton. There are also 
indications from the studies in the Atlantic that parts of the 
Atlantic may be moving from nitrogen limitation to phosphorus 
limitation.
    Now, a wonderful question is why is this happening? Is this 
a regular alternation that has something to do with one of the 
decadal cycles that you mentioned in your remarks, or is this 
something else that is going on? In order to make those sorts 
of determinations, first we need to be able to link these 
observations and these findings to other parts of the ocean. We 
also need to be able to look at the ocean for a longer period 
of time, to see whether the North Pacific, for example, 
switches back to nitrogen limitation.
    In addition, measurements of the salinity over the past 
several decades show that tropical ocean waters have become 
dramatically saltier over the past 40 years, while ocean waters 
closer to the poles have become fresher. One of the reasons 
that this is an important observation is that the formation of 
deep water in the North Atlantic and its relation to climate 
are very, very strongly influenced by the salinity, by how 
fresh the waters are in the North Atlantic. This is a change 
which appears to have taken place over about 40 years.
    Mr. Gilchrest. Is that as a result of warming temperatures?
    Dr. Leinen. It is not necessarily directly a result of 
warming temperatures. There are certainly indications that the 
North Atlantic has warmed as well. But obviously, the salinity 
is related both to how much precipitation takes place--
rainfall, and how much evaporation takes place. And so this 
balance--
    Mr. Gilchrest. So that is related to warming temperatures?
    Dr. Leinen. It could be related to warming temperatures.
    Those are excellent examples. In the latter, for example, a 
recent paper by Ruth Curry that talks about these processes 
really points out the data limitation that is there. Her 
records had many gaps in the records, although this 40-year 
trend was quite clear. And that points out the tremendous need 
that we have for these sustained observations and for 
observations over a greater part of the ocean. Those are just 
two examples.
    A third would be an example of looking at the fisheries 
catch in the oceans over the last 50 years or so. Measurements 
in the Pacific show that shifts in the air and ocean 
temperatures affect the biological productivity and fisheries 
off Japan, California, Peru, and Chile. Obviously, those 
fisheries are affected by how many fish are removed from them 
as well. But it is only with those kinds of observations that 
we can tell whether the fisheries are responding primarily to 
the physical forcing of the ocean, the temperature and so 
forth, whether they are responding primarily to our removal of 
fish from the fishery, and how they are related on various 
parts of the ocean.
    So those are three reasons that I would give a congressman 
who might ask that question.
    Mr. Gilchrest. Thank you very much. We are going to use 
those.
    Mr. Pallone?
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask Mr. Winokur a question. You were the 
assistant administrator at NOAA for the National Environmental 
Satellite Data Information Services. And during that time, you 
participated in the modernization of NOAA's weather forecasting 
and satellite observation platforms. I am not trying to over-
simplify, but your work directly impacted the ability to 
monitor extreme and hazardous weather events, and that, of 
course, in the end, saved lives and money. So I just wanted to 
ask what parallels you can draw between the modernization of 
weather forecasting and the modernization of ocean observations 
systems in the certain. And are we not trying to achieve the 
same goals as those achieved for the atmosphere? And basically 
what I am trying to get out, you know, what is lacking about 
our current efforts to gain political and financial support to 
create an Integrated Ocean Observing System. You know, what do 
you suggest that we do, given that you were involved in this 
with the weather aspect?
    Mr. Winokur. Thank you for the question. I see my past is 
catching up to me.
    But it is a very good question, quite honestly, because 
there is a direct parallel between the modernization of the 
Weather Service and what we are trying to achieve with an 
Integrated Ocean Observing System. Many years ago, I think as 
Dr. Spinrad mentioned, the nations of the world got together 
and created something called the World Weather Watch. And that 
in fact was to build an international framework in which data 
would be collected and shared with respect to the atmosphere to 
improve our ability to forecast weather and hazardous events 
and everything that goes with that.
    I think those of us--I won't speak for my colleagues here 
at this table, but we are sort of wannabes. We would like to be 
like the World Weather Watch. And an analogy I think that you 
could use for an Integrated Ocean Observing System is a World 
Ocean Watch, which would achieve very much the same thing--an 
integration of space-based operations with in situ data 
collection from all of the capabilities that my colleagues here 
have mentioned. I think if we were to do that, that would 
certainly give us the capability to forecast all of those types 
of events that Dr. Spinrad and Dr. Leinen had mentioned; but 
also, in the context of the Navy, for example, it gives us the 
ability to characterize the ocean environment on real-time 
basis anywhere in the world so that not only would the civil 
community be able to use it, but the military community as 
well.
    I think it takes a concerted effort on the part of, 
certainly, all of those that are here--this panel and the panel 
you will hear from right after us--to convince the public, to 
convince yourselves, I think as Congressman Gilchrest said, 
your colleagues on the Hill of the importance of what needs to 
be done with understanding the contributions that ocean 
observations make to the ocean. So that ultimately we will not 
only have this Integrated Ocean Observing System, but--my 
words, I guess--a World Ocean Watch which would be very much 
parallel to the World Weather Watch. Everybody understands on a 
daily basis, because it is the lead-in every day on the news, 
what the weather is. It is the teaser every night: Stay tuned, 
and in 20 minutes we will tell you if it is going to rain. 
Well, we would like to do the same thing in the ocean--stay 
tuned, and in 20 minutes we will tell you if you can go to the 
beach and what the conditions are; if you are in my situation 
as I am right now, having moved from NOAA back to the Navy, 
what impacts the weather and knowledge of the ocean will have 
on military operations. So we need a good public relations 
firm, I guess.
    Mr. Pallone. OK. You know, along the same lines, I wanted 
to ask Dr. Weller or Dr. Boesch, many Americans, obviously, are 
unaware of the importance of the ocean. And both the Pew and 
U.S. Commission on Ocean Policy stress the need for a better-
educated public with regard to the ocean. So sort of the same 
question: Do you see a link between public education on the 
oceans and success in implementing or sustaining a national 
ocean observation system? What strategies have either of you 
employed to raise awareness of ocean issues to the public and, 
you know, what would you suggest in that regard, if you would 
care to comment?
    Dr. Weller. Don?
    Dr. Boesch. Well, let me just say that one of the things 
that we realize as we develop observing systems is that the 
observing systems, or ocean observing systems are a marvelous 
educational tool, too, because it captures the fascination of 
young people, of things that are high-tech, things that are 
real-time. And so a number of programs all around the country 
are trying to bring these together with K-12 education. In the 
Mid-Atlantic region, for example, with your own institution, 
Rutgers, and the University of Maryland is partnering with 
several other institutions in the region on an NSF-sponsored 
education program called COSEE, which is to bring ocean science 
to the younger people, and the whole framework, the whole focus 
of our effort is the observing systems. We have LEO, Chesapeake 
Bay observing system. We are using this information to bring it 
to school groups, bring it to teachers. And it is marvelous how 
these kids really develop a better understanding of the ocean, 
get excited about it, and help to educate their own parents and 
other friends about it as well.
    Mr. Pallone. A good point.
    Dr. Weller. I agree with Don. NSF and NOAA both have a 
Teacher-At-Sea program, where we take middle school teachers to 
sea on cruises. And it is remarkable, the engagement of the 
classrooms. We have real-time communication.
    But I think another thing we have to do better is be very 
clear and lucid when we develop products and understanding 
about the link between the ocean and things on the land. I 
mean, for example, drought in the central part of the United 
States or fire-fighting efforts. I mean, we are now, as we 
build observing capability and better models, gaining an 
ability to predict and link conditions in the dry and the wet 
periods. I think we should be right up-front about, you know, 
this is the way the buoy data from, say, the middle of the 
North Pacific gives you the information that tells you about 
the drought. One of the big sources of moisture for the central 
part of the U.S. is the Gulf of Mexico. This is the way that a 
buoy system in the Gulf of Mexico that measures the air-sea 
exchange of moisture, that is the way it contributes to 
understanding about drought conditions in the middle of the 
country. We need to do a bit better job at being clear about 
our science.
    Mr. Pallone. Thank you. Thanks a lot.
    Dr. Boesch. Could I just add one other thing, to add to Dr. 
Weller's comment about the connection, helping people 
understand the connection between the ocean and what happens on 
land. It works the other way, too, because I think, when we 
think about ocean observing systems, we have to think of it in 
a context of earth observing systems. And so much of what we do 
on land affects the coastal ocean, and the areas from the New 
York Bight, Chesapeake Bay, or Gulf of Mexico are great 
examples of that. But part of this has to be boosting and 
sustaining the observations we make on land, the river flow 
observations, USGS monitoring of the inputs to the system. So 
it goes both ways, both in terms of how the ocean affects us on 
land as we affect the ocean.
    Mr. Pallone. Thanks a lot.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Dr. Leinen, one more question. You mentioned in your 
testimony about the--and I am going to paraphrase. It is not an 
exact quote. I hope I didn't get it completely wrong. How do 
you discriminate--you said with an ocean observing system you 
would be better able to discriminate between manmade CO2 
contributions, or greenhouse gas contributions, and those from 
natural variability, or the natural causes for CO2 in the 
atmosphere, or greenhouse gases. So how do you--can you, in 
fact, make a distinction between what comes from volcanos or 
other areas and what comes out of the tailpipe of SUVs?
    Dr. Leinen. What I said was that an ocean observing system 
would allow us to look at the question of climate change and 
which portions of that were naturally occurring climate change 
or had happened in the past versus those that might be related 
to anthropogenic change, not specifically CO2. There, I think, 
the biggest issue is that, as I mentioned before, the ocean is 
very data poor compared to measurements on land. And even those 
records that I talked about as wonderful examples of places in 
which we had seen substantial changes have been characterized 
by observations in one place, or in a very restricted area--and 
again, over a period of maybe a couple of decades or, at the 
most, 40 years.
    You alluded to the fact that we see a lot of naturally 
occurring cycles like the North Atlantic Oscillation or the 
ENSO cycles. And in order for us to understand whether the 
changes that we see are related to those cycles or whether they 
are related to changes that are accompanying anthropogenic 
change, we have to be able to look at the ocean in enough 
detail and over a long-enough period to be able to discriminate 
a decadal oscillation or a decadal variability from something 
that is either an abrupt change or a change that is related to 
man's activity.
    Dr. Weller showed several examples of what oceanographers 
are able to do tracing manmade substances that go into the 
ocean. There are examples both from chlorofluorocarbons, from 
bomb tritium, and so forth. And oceanographers have been able 
to link specific kinds of other changes in the ocean to the 
time scales of those changes. So that is another example where 
the observation, linked with things that we know are 
anthropogenic, can allow us to discriminate between natural 
cycles or natural changes and anthropogenic changes.
    Mr. Gilchrest. So we can detect some of those differences 
now, but over a period of time, with a better integrated 
national and international ocean observing system, those 
mysteries will be a little more clear.
    Dr. Leinen. Not only will they be a little more clear, but 
the implications, or the impacts, of those changes will be 
clearer. And Dr. Weller gave a wonderful example, that he had 
related to the modeling that he talked about in his 
presentation, with the link between drought on land and changes 
in the ocean. There are many such linkages that oceanographers 
believe are important and believe are there, but we are unable 
to document them with the present observational capability in 
the ocean.
    Mr. Gilchrest. Thank you.
    Dr. Weller, the statement you made about the Dust Bowl in 
1930s being related to sea surface temperatures, and then your 
other comment about warming in the Indian Ocean affects 
temperatures in the North Atlantic, those are observations that 
are known, that because of sea surface temperatures you can say 
categorically that there was a drought in the Midwest? There is 
a pretty clear link?
    Dr. Weller. Yes. In the first result, Sig Schubert and 
modelers at NASA Goddard, what they did is they took observed 
sea surface temperature fields over time, took a variety of 
state-of-the-art atmospheric models, used the observed sea 
surface temperature fields, and ran the models to do a hindcast 
of precipitation over the United States. And what they saw was 
that the models agreed, and agreed in the average over all the 
models quite well, with predicting a drought in that 1930 
period.
    And then they went in and looked for what was anomalous in 
that sea surface temperature forcing field and unique to that 
1930s. And what stood out was that the picture I had showed of 
cold water off the coast of Japan and warm water in the North 
Atlantic.
    Now, I think the North Atlantic result you could understand 
in the context of the North Atlantic oscillation where 
temperature anomalies in the Atlantic Ocean modify the balance 
of low- and high-pressure systems and the storm tracks and how 
things would enter into the middle of the United States, 
whether storms would come in and drop rain.
    I think the surprising thing in their result is the link to 
the cold temperatures very close to the coast of Japan. That is 
an unexpected result. That is not something I can give you an 
answer for. And it goes--you know, one of the things I have to 
be up front about is we are building observations and we are 
trusting models, but a lot of the things built into the models, 
for example, how ocean and atmosphere exchange heat and 
moisture in a model, we just need more observations to get that 
right.
    Mr. Gilchrest. OK. Let me ask you sort of an ancient 
question. The conveyor belt in the North Atlantic, that heat 
pump that dries the current, there has been--there is a lot of 
discussion around here about whether or not there is climate 
change, global warming. Some people in higher offices will say 
this science is a sham and it is the Europeans trying to 
subvert the U.S. economy. That is the beginning and the end of 
the conversation.
    There will be people who are saying there is a discerning 
effect out there that can be observed that human activity is 
causing or adding to the global warming.
    One of the topics that come up for conversation is that 
this heat pump, conveyor belt type thing in the North Atlantic 
shut down 10,000 or 11,000 years ago, and since it shut down, 
if, in fact, it did--and I am not that familiar with this kind 
of issue. But if, in fact, it did shut down 10,000 or 11,000 
years ago and you had a mini or some type of Ice Age that 
lasted several hundred years, it is only normal that the 
potential for it to shut down is because of natural causes and 
not human causes. And, besides, nobody knows that caused the 
shutdown 10,000 or 11,000 years ago.
    And so I have been sort of wondering, does somebody know 
why it was possibly shut down 10,000 or 11,000 years ago so I 
can tell this potential person that we do know why it shut 
down? You know, more complicated than that, but did it shut 
down 10,000 or 11,000 years ago, and do we know the reason it 
did?
    Dr. Weller. My understanding, talking to people like Ruth 
Currey and her husband, Bill Currey, who is a paleo-
oceanographer, is that in the paleo record, I mean, the record 
in the sediments and things, we do have evidence of shutdown, 
slowing, and warming changes in that. And, indeed, you know, 
the early results of some of the Atlantic observations now 
besides--in addition to the changes in temperature and 
salinity, suggest that that thermohaline circulation is 
changing its rate.
    I think the thing you have to get across to people in these 
discussions is that against the backdrop of the natural 
variability in the hydrologic cycle and the temperatures, is we 
are doing an experiment now where we are going into some place 
where we have not been before with the amount of greenhouse 
gases and things.
    When I talk to people who study high latitudes, they say, 
you know, we are really surprised at the dramatic rate of loss 
of glacial ice and ice caps, and, you know, new results are 
showing that when it gets warm enough to have water flowing 
underneath the ice, between the ice and the land, that you can 
rapidly accelerate the loss of ice. I think the questions we 
should ask are: In this place where we have never been before, 
if you took most of the ice away and so you changed the 
reflectivity, I think there is a chance we will never get back 
to where we were historically. And I think those are the things 
we have to worry about and better understand.
    Mr. Gilchrest. Thank you very much. I might have this 
person call the Curreys to have this conversation.
    Dr. Boesch, you mentioned the need for--not only the need 
for an ocean observing system, but also for these regional 
associations to be able to manage this type of activity a 
little bit better. So I have two questions.
    Are there regional associations--or how many regional 
observing systems are currently operational right now? And what 
type of data are they collecting and for what purpose? So where 
are those regional associations right now?
    And the other thing is, as we move toward a more integrated 
system, would they be better able then to predict a storm like 
Isabel that we experienced last fall in the Mid-Atlantic States 
and in small communities on the upper Eastern Shore saw a tide 
rise 8 or 9 feet above normal?
    And then last night, for example, in Havre de Grace, North 
East, parts of northern Kent County, they ranged from 4.5 
inches in less than an hour to close to 8 inches of rain, a 
pretty dramatic event.
    So those kinds of things, will they be--you know, that is a 
quick rush thunderstorm, and can you predict that kind of thing 
a day in advance? You know, we heard yesterday that there is a 
60-percent chance of afternoon thundershowers, and all of a 
sudden, boom, we really had some thundershowers.
    Also, let me also go into--as we collect this data, we want 
to improve water quality. We want to improve that whole 
ecosystem out there. And when we look at the issues affecting 
water quality around the country, the Chesapeake Bay in 
particular, because we see hypoxia areas, we see algal blooms. 
As soon as it gets warm, you see this massive green freckle 
system move into those little tidal basins. We are trying to 
improve the sewer plants as far as their nitrogen and 
phosphorous contributions, and we are improving those 
wastewater treatment plants. Maryland now has this flush fee, 
flush tax, or whatever.
    But as we improve the percentage of release of these 
nutrients, while the percentage might stay the same, then we 
have this relatively huge increase in little communities from 
100 people to 500 people, from 3,000 people to 12,000 people, 
up and down the Delmarva Peninsula. So that is adding to the 
sewage treatment output of nutrients while not changing the 
percentage based on the volume. Then we have development and 
you have power boats. When you travel out of some of these 
little tidal basins to some of the larger estuaries that reach 
into the Chesapeake Bay, it is like 495 on the weekend, the 
number of boats that are out there, and the whole other range 
of reduced forest cover.
    So we know that specific human activity is having an effect 
on that local ecosystem. With this more integrated ocean 
observing system, with these regional associations, can you get 
that kind of information to the people who determine land use, 
how it is going to be used? So do you foresee a better way to 
get this information in a timely fashion to planning and 
zoning, to county commissioners, local government, to make use 
of this information?
    Dr. Boesch. There were a lot of questions there. Let me 
start--
    Mr. Gilchrest. I do not know if you have the ability to 
answer all that in about 30 seconds.
    Dr. Boesch. Just amending Bob on your other question about 
your fictitious friend who is a skeptic, I would recommend, 
highly recommend--
    Mr. Gilchrest. He is not fictitious. This is a real human 
being.
    Dr. Boesch. I would highly recommend today's Kids' Page in 
the Washington Post, to read it. It is a very interesting 
graphic on glacial retreat, real world, in the United States, 
as well as a simple explanation of how greenhouse processes 
work.
    Let me see if I can try to address some of the points you 
made, Mr. Gilchrest. With respect to are there regional systems 
in place now, I guess the short answer, the real answer is no. 
Most of the systems that are in place, the 40 or so that we 
talked about, are what we might call subregional. So, for 
example, our programs in the Chesapeake Bay or the programs 
that Mr. Pallone mentioned off of New Jersey, they are not 
covering the whole Mid-Atlantic region. So when we talk about 
regions, we are talking about large sections of the country, 
pretty much in the same line as what the Ocean Commission talks 
about, regional scale management, on the scale of, say, the 
Regional Fisheries Management Councils, those sorts of things.
    So the effort now underway is to take the existing programs 
as well as emerging programs that may be at this point 
subregional and to integrate them within regions so that we 
have a system that might involve observing platforms off of New 
York Harbor, for example, and those in New Jersey, Delaware 
Bay, the Chesapeake Bay, the shelf off of the Delmarva area. 
And they will all be talking to one another and be integrated 
as a whole. And they will have to serve not only sort of the 
regional scale assessments and information users, but, of 
course, all of these users are--sort of like politics, they are 
local. And so one is concerned about not only how the Mid-
Atlantic is doing or what is going on in the Mid-Atlantic, but 
what is going on in the Chesapeake and, furthermore, what is 
going on in Chester River as opposed to the whole Chesapeake 
Bay. So it has to be multi-scale in which we can bring 
information down to the relevant scales of the users.
    You mentioned forecasting and our ability to forecast. You 
used as an example the heavy rainfall that we had in some parts 
of Maryland and the flooding that took place. Well, 
interestingly, I remember yesterday morning listening to the 
radio, listening to a Baltimore station, where there was a 
prediction of flash floods. That was hours before they 
occurred, and the reason we had that predictive capability is 
that we had a good measurement system in that we used in the 
weather system and we had excellent models that can make those 
kinds of forecasts, with some level of uncertainty. That is why 
the estimate was 60 percent and so on. But if you were 
attentive, you should know that, you know, we are going to have 
heavy rains, likely have heavy rains, and there could be flash 
flooding. So that is the benefit of these models.
    Mr. Gilchrest. Let me just interject one quick item, and I 
do remember hearing yesterday that there was potential flash 
flooding in several of the counties where there eventually was 
flash flooding. Is there some way that these ocean observing 
systems, as they get more sophisticated, can pinpoint why this 
particular storm is occurring? Can that be fine-tuned based on 
what happened in the 1930s with the sea temperature?
    Dr. Boesch. I think the models that are used in the weather 
forecasts are the why. They are deterministic models that are 
based upon a lot of scientific understanding of the processes.
    With respect to the specific example you used of Hurricane 
Isabel and the surprise that many Bay communities got during 
this last year because of the higher-than-projected storm 
surge, here again is where these observing systems could play a 
very critical role because they could give you estimates and to 
correct the misunderstanding that we normally have of how do we 
project storm surge with a lead time of some hours in advance. 
So, yes, indeed, I think if we had a functioning integrated 
observing system for the Chesapeake Bay, we would have had 
better warning, better forecasts about tidal flooding due to 
Hurricane Isabel.
    You mentioned the water quality issue, and, interestingly, 
maybe it will come out soon in the Post, I was just interviewed 
yesterday by a reporter who was questioning what some of us 
believe might be an overreliance on models to judge the state 
of the Chesapeake Bay. You know just reading the paper that 
while the Bay program estimates that nitrogen levels are down 
20 percent. Well, how do we really know that because it is 
based upon some estimates, some models that they do? And the 
metaphor that I used--and, unfortunately, I might be quoted by 
it--is that we use--just like a weather situation. We use 
weather forecast models--and they are very sophisticated--all 
the time to make plans and judgments. But if we want to know 
what it is doing right now, I do not just look at the newspaper 
and say, well, it should be raining. I look out the window. And 
so that is why you need to couple these with the observing 
systems to help us understand the dynamics, whether it is 
navigating up the Houston Chip Channel or the Chesapeake Bay, 
in real time to correct the imperfection of our understanding 
that underpins the models.
    Mr. Gilchrest. I see. Thank you very much, Dr. Boesch.
    Dr. Spinrad?
    Dr. Spinrad. Mr. Chairman, if I can add something to Dr. 
Boesch's comments, and it gets right back to the example that 
you cited of Hurricane Isabel, and it also brings to mind some 
of the comments that the panelists have made with respect to 
education. In fact, as a direct result of some of the 
Chesapeake Bay observing system stations that Dr. Boesch 
alluded to, as well as NOAA's water level observations 
scattered throughout the Bay, we were able to provide the best, 
most accurate forecasts of storm surge for Hurricane Isabel 
that we have ever seen in terms of intensity, timing, and 
location.
    What we found--and if you ask constituents, they will tell 
you this--is that there was a very low credibility for those 
forecasts. And, consequently, the actions taken by the public 
were not consistent with the quality of the forecasts. So part 
of this is, in fact, improving the modeling and the forecast 
capability, but an awful lot of it is enhancing the education 
and outreach to the community.
    Mr. Gilchrest. A lot of those people know that now.
    Dr. Boesch. They do.
    Mr. Gilchrest. They are going to move their cars.
    The last question, and what we are going to do after this 
last question is take a 10-minute break before the next panel 
so people can stretch their legs. I guess anyone can answer 
this question. As far as limited budgets are concerned, we have 
got this big budget deficit, we have a lot of other interest 
area priorities. So given the realistic limitations upon which 
we operate up here, how would you suggest, as far as an ocean 
observing system is concerned and the difficulty of trying to 
fund that and make it really integrated, how would you suggest 
we proceed with the limited funding that is out there? And if 
you have any suggestions for how to prioritize moving forward 
with this, we would appreciate it.
    Dr. Spinrad. Mr. Chairman, if I may, I think one of the 
very first things that we need to do is adequate convey the 
cost avoidances and the cost savings associated with having a 
fully implemented integrated ocean observing system. We have 
got some anecdotal and some preliminary information, economic 
studies and analyses, which suggest that there would be 
extraordinary benefits and gains from such a system. But I do 
not think we have adequately made that compelling argument. So, 
in effect, what I am saying is we cannot afford not to develop 
an integrated ocean observing system, and we need to develop 
those studies in a more effective and compelling manner.
    Mr. Gilchrest. Thank you very much.
    Mr. Winokur?
    Mr. Winokur. I would just add, in addition to doing that 
type of analysis, the cost/benefit studies which I think would 
probably show the benefits and the costs that are involved, one 
of the key activities, I believe, that we all alluded to is the 
leveraging, and so we have seen certainly over the last few 
years with the advent of the National Oceanographic Partnership 
Program a willingness on the part of all of the agencies to 
really band together and work together on this issue, since I 
think we all collectively see it as a national issue and not 
just an individual agency issue. So that as we move forward and 
again, as alluded to by the panelists, we meet regularly at 
least once a month. The agencies get together and invest a lot 
of time and energy in trying to put together a true national 
program and not just an individual agency program. So I think 
you see a significant amount of cooperation going on right now 
that probably heretofore did not exist 10 years ago.
    Mr. Gilchrest. Thank you very much, Mr. Winokur.
    Dr. Weller?
    Dr. Weller. Yes, I would like to just respond to your 
question, Mr. Gilchrest, and say that I think one of the things 
you have seen here are some common themes. We have identified 
some priorities. We know the things we need to measure. And we 
live in a world where the ocean observations will always 
probably be sparse. So we have a high reliance on models to get 
our products.
    My personal view would be we need to move forward in a few 
key locations on the coasts and in the open ocean and sustain 
long time series, get into being multidisciplinary and new 
biological, biogeochemical, as well as physical observations, 
because there will be a synergy between these long time series 
observations and the research and understanding that will go 
right into the models, that will improve the value of the time 
series and improve our products.
    Mr. Gilchrest. Thank you very much.
    Dr. Boesch?
    Dr. Boesch. Congressman, I would like to suggest that--put 
the ball in your court and say that--
    Mr. Gilchrest. The ball in our court.
    Dr. Boesch. And say that what could be done to help make 
the right decisions, making the right steps, the first steps 
and the right investments, is a framework that would empower 
the Federal agencies to do what is being discussed here and to 
commit Congress to working with the executive branch to meet 
those ends. And I think that mechanism is some version of an 
enabling legislation paralleling S. 1400. As you know, Mr. 
Weldon is developing such a bill, and he spent a lot of time 
trying to engage the--accommodate the interests of Members of 
Congress, make it consistent with the U.S. Ocean Commission 
recommendations, make it consistent with what the Ocean 
Leadership Council is doing through Ocean.US, and having that 
in place will give us a mechanism to make sure that we are 
making the right investments, the right steps in a logical way 
rather than a disorganized way without a real process to 
organize, make it truly integrated, put the ``I'' in IOOS.
    Mr. Gilchrest. Thank you, Dr. Boesch, and I think the Ocean 
Commission report puts forth that kind of framework in a very 
workable fashion.
    Dr. Leinen?
    Dr. Leinen. Yes, thank you, Mr. Gilchrest. I think that one 
of the things that you heard very clearly from the three 
agencies that were here was a similar message about our 
commitment to this, about our willingness to prioritize, and 
about the incredible importance of it to the mission of all of 
our agencies. And if you had the rest of the agencies who 
participate in the Joint Subcommittee on the Oceans or in the 
National Ocean Partnership Program, you would have heard the 
same thing.
    And so the word that I want to leave you with is this is a 
topic over which the agencies have truly come together, both 
taking the priorities and the guidance of the scientific 
community as well as the interests of the Congress and your 
sense of wanting to get the priorities for that system. We 
really stand ready to do that because we all see the advantage 
to each of our missions in doing it. And I have rarely seen 
that kind of commitment to a common shared vision, but this 
sense of an ocean observatory capability has truly captured the 
imagination of the agencies.
    Mr. Gilchrest. Well, thank you very much, and we will take 
advantage of that momentum.
    I want to thank all the witnesses for coming this morning 
and giving us their testimony, and we would like to continue to 
work with you over the coming months.
    We will now take a 10-minute break.
    [Recess.]
    Mr. Gilchrest. The hearing will come to order. I want to 
thank the witnesses for their patience and for still being 
here.
    The hearing on Indian gaming is still going on, so Mr. 
Pallone will move back and forth, but we appreciate all of you 
coming here now this afternoon. We want to welcome Dr. Newell 
``Toby'' Garfield, San Francisco State University; Ms. Molly 
McCammon, Executive Director, Alaska Ocean Observing System; 
Mr. Evan Richert, Muskie School University of Southern Maine, 
Gulf of Maine Ocean Observing System. My daughter is now 
attending College of the Atlantic in Bar Harbor. She is having 
a great time. Mr. Cortis Cooper--now that is an interesting 
word. Mr. Cortis Cooper, Metocean--Metocean?
    Mr. Cooper. It is short for meteorology and oceanography.
    Mr. Gilchrest. I see. A consultant and energy technology, 
ChevronTexaco. Mr. Fred Grassle, director of the Institute of 
Marine and Coastal Sciences, Rutgers, the State University of 
New Jersey, the Garden State; and Ms. Helen Brohl, President, 
National Association of Maritime Organizations. I want to 
welcome all of you here this afternoon and I look forward to 
your testimony.
    Dr. Garfield, you may begin, sir.

  STATEMENT OF NEWELL ``TOBY'' GARFIELD, SAN FRANCISCO STATE 
    UNIVERSITY, CENTER FOR INTEGRATIVE COASTAL OBSERVATION, 
                RESEARCH AND EDUCATION (CICORE)

    Dr. Garfield. Chairman Gilchrest, Ranking Member Pallone, 
and members of the Subcommittee, thank you for the opportunity 
to present testimony on California State University's Center 
for Integrative Coastal Observation, Research and Education, or 
CICORE, and the development of ocean observing in California. 
My name is Newell Garfield. I am on the faculty of San 
Francisco State University and very involved with California 
ocean observing.
    There are numerous ocean monitoring activities in 
California ranging from regional to very local. At first 
glance, they may appear to create duplication and overlap; 
however, California programs are remarkably complementary and 
are moving toward national observing system goals through 
collaboration, user outreach, through better communication, 
data sharing, and data distribution. This is in part because, 
like other regions, many California organizations have embraced 
the Ocean.US vision.
    In California, we have two emerging regional associations, 
CeNCOOS and SCCOOS, which along with NANOOS in Oregon and 
Washington, will represent the Nation's west coast. These 
regional associations are in the initial formation stages, 
determining governance structures and seeking certification. 
They plan to become fully functioning within about 2 years.
    My program CICORE is a NOAA Coastal Services Center Coastal 
Ocean Technology program. It was established in 2002 to focus 
on the region from the 100-meter depth up to the coast, 
including California's bays, estuaries, and wetlands. This 
shallow water area is where most impacts occur, yet is seldom 
systematically sampled because of the complexity of the ocean 
circulation there. CICORE draws upon the strengths of the 23 
campuses of the California State University system and dots the 
entire coastline between Humboldt State in the north and San 
Diego State in the south. Our external partners include local, 
State, and Federal entities. We also leverage the expertise of 
scientists at Florida Environmental Research Institute and 
Virginia's Old Dominion University. California State University 
produces a large fraction of staffers who work in local, State, 
and Federal environmental agencies. Many professionals needed 
to implement coastal observing systems will be trained by the 
CSU, and the opportunities offered to students by the CICORE 
program are important for their preparation.
    CICORE distinguishes itself by utilizing three key 
technologies:
    First is high-resolution spectral imaging or hyperspectral 
imaging for mapping and classifying of shallow water and 
wetlands area. Just one application of this data is mapping not 
only the distribution of California kelp beds, but also 
assessing the age and health of the kelp fronds which will help 
guide management decisions like harvesting permits.
    The second technology is high-resolution acoustic seafloor 
mapping and characterization of critical shallow water 
habitats. As an example, these analyses can aid the cruise ship 
industry in defining anchorage areas which will not disturb 
sensitive benthic habitats.
    The third technology, in situ sensors for time series 
measurements of water quality and current measurements are 
being installed at discrete locations throughout California. 
The previous panel amply stated the need for this technology. 
In addressing education, we are actually partnering with the 
various aquaria to display that data real-time and have 
outreach programs.
    CICORE is following the initial Ocean.US data management 
communication recommendations on data discovery, access, and 
archiving. CICORE data are posted to Web-accessible sites as 
quickly as possible to ensure that the data are openly 
available to the public.
    To address external requirements, CICORE has established an 
advisory board whose members include representatives from 
industry, the regulatory community, scientists, EPA, NOAA, and 
other observing programs. And CICORE actively seeks community 
partnerships in identifying program stakeholders and products.
    The State of California is also investing heavily in 
coastal monitoring, and its efforts are being coordinated with 
the emerging regional associations.
    In 2002, California voters authorized $21 million to 
monitor coastal circulation. Anticipating Ocean.US 
recommendations, the principal observing tool will be a 
statewide array of surface current mapping radars, or SCM 
radars. Dr. Grassle will probably refer to them also.
    The system will help with predicting beach closures caused 
by bacterial contamination, search and rescue operations, 
tracking oil and other pollutant spill trajectories, and the 
fate of early larval stages of commercially important fisheries 
species.
    In summary, deployment of an integrated and sustained ocean 
observing system will address well-established national 
priorities. Federal legislation is needed to resolve issues of 
governance, roles, and responsibilities and to allocate 
sustained funding. The research community appreciates that this 
committee is taking a serious look at the best ways to approach 
this work.
    As Congress considers the recommendations of the U.S. 
Commission on Ocean Policy and efforts to establish a coherent 
national coastal ocean monitoring program, it is imperative to 
realize that the stability of the long-term operations is a 
goal that is as important as the development of its 
infrastructure. With that in mind, I encourage you to promote a 
broad interagency approach, led by Ocean.US, to support the 
emerging regional associations. They will need the ability to 
respond to local and regional needs and to be able to receive 
funding from multiple sources, whether they be Federal, State, 
or other.
    This concludes my testimony, and I look forward to 
answering any questions you might have.
    [The prepared statement of Dr. Garfield follows:]

          Statement of Dr. Newell (Toby) Garfield, Professor, 
         San Francisco State University and CICORE Coordinator

    Chairman Gilchrest, Ranking Member Pallone, and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to present testimony on the California State University's Center for 
Integrative Coastal Observation, Research and Education (CICORE), and 
the development and implementation of ocean observing in California. My 
statement is organized to respond to the nine specific questions asked 
of me by Chairman Gilchrest in his letter of invitation to testify.

1. Testimony on the development and implementation of California's 
        ocean observing system:
Current Observing Systems in California
    The State of California has long recognized the importance of ocean 
observing and monitoring and has embraced monitoring systems at a 
number of levels. One of the original monitoring programs began in 1949 
to study the ecological aspects of the collapse of the sardine 
population and fishery with the formation of the California Cooperative 
Oceanic Fisheries Investigations <SUP>1</SUP> (CalCOFI), a 
collaboration of NOAA National Marine Fisheries, California Department 
of Fish and Game and Scripps Institution of Oceanography. An expansion 
of this program, to cover the whole U.S. west coast and to focus on the 
management of its living resources, is being proposed as the Pacific 
Coastal Ocean Observing System (PACOOOS).
---------------------------------------------------------------------------
    \1\ http://www.calcofi.org/
---------------------------------------------------------------------------
    Over the last few years, the need to establish systems for the 
long-term monitoring of the nation's coastal regions has been 
recognized and promoted by policymakers in California and Washington, 
D.C. A number of initiatives have enabled both the transformation of 
existing programs and the establishment of new monitoring programs 
directed at coastal monitoring. In part because funding sources have 
varied greatly, at first glance they may appear to create duplication 
and overlap. However, ongoing California programs are remarkably 
complementary and synergistic. These programs are serving to bridge the 
gap between research and operations and, in fact, are moving explicitly 
toward observing system goals through user outreach and through better 
communication, data sharing and data distribution between academia, 
state and federal agencies, NGOs and the general public.
    Presented here are some of these programs, their goals and funding 
sources:
    CICORE <SUP>2</SUP> (Center for Integrative Coastal Observation, 
Research and Education) is a nearshore (<100 m water depth, up to and 
onto the coast) observatory conceived by the presidents of the 
California State University (CSU) <SUP>3</SUP> and endorsed by the 
system's Chancellor and Board of Trustees. The program has received 
Congressionally-directed funding and is administered through the NOAA 
Coastal Services Center (CSC) Coastal Ocean Technology Section (COTS). 
The principal goals of the program are to coordinate coastal 
observations at the 23 CSU campuses throughout California to provide a 
distributed monitoring program along the California coastline. This 
network allows characterization and observation of statewide and local 
coastal ocean variability, with a focus of making information 
accessible for applied needs and education. Ultimately, CICORE will 
become a key backbone element of both the CeNCOOS and SCCOOS Regional 
Associations, described below.
---------------------------------------------------------------------------
    \2\ http://cicore.mlml.calstate.edu
    \3\ http://www.calstate.edu/
---------------------------------------------------------------------------
    CIMT <SUP>4</SUP> (Center for Integrated Marine Technology) was 
initially known as the Winds to Whales Project. Based at UC Santa Cruz, 
in 2002 the program reorganized to pursue an integrated approach to 
looking at the ecosystem transformation of energy, starting with the 
initial forcing functions of the sun, wind and currents and following 
the energy up through the trophic levels of plants and animals to the 
top predators. The program uses northern Monterey Bay as its study 
region. The goals of the program also include sustained observations 
and technology development, and the program receives Congressionally 
directed funding administered through NOAA COTS. For these reasons, 
CIMT is also described as a monitoring program.
---------------------------------------------------------------------------
    \4\ http://cimt.ucsc.edu/
---------------------------------------------------------------------------
    ACT <SUP>5</SUP> (Alliance for Coastal Technology) is a national 
program led by the University of Maryland. The program aims to be a 
clearinghouse for ocean instrumentation. This program is also a 
Congressionally directed funding program administered by NOAA COTS. Two 
California institutions, Moss Landing Marine Laboratories (MLML), and 
Monterey Bay Aquarium Research Institute (MBARI), are members.
---------------------------------------------------------------------------
    \5\ http://www.actonline.ws/
---------------------------------------------------------------------------
    There are other distributed observing efforts that exist in 
California. NEOCO <SUP>6</SUP> (Network for Environmental Observations 
of the Coastal Ocean) is funded by the University of California Marine 
Council to locate water quality monitoring devices at UC coastal 
campuses. PISCO <SUP>7</SUP> (Partnership for Interdisciplinary Studies 
of the Coastal Ocean) is a multi-institutional program, funded by the 
Packard Foundation, which addresses environmental issues at a number of 
specific sites along the west coast.
---------------------------------------------------------------------------
    \6\ http://www.es.ucsc.edu/?neoco/
    \7\ http://www.piscoweb.org/
---------------------------------------------------------------------------
    There are many other agencies and organizations that have 
monitoring operations in California, many of which are very local. NOAA 
and the California Regional Water Quality Boards are two examples of 
agencies that have specific observational mandates.
    A goal in the creation of the federally recognized Regional 
Associations, described in detail in the next few paragraphs, is to 
identify all relevant needs and mandates, as well as existing efforts, 
so that coordinated systems can be developed to meet the regulatory and 
agency requirements for monitoring coastal California water quality. 
Taken together, the entities described above are making steady progress 
toward building the backbone of coordinated, integrated, regional 
systems, consistent with the policy goals recommended in the Pew Ocean 
Commission's report <SUP>8</SUP> the National Research Council's 
<SUP>9</SUP> Ocean Report and the Preliminary Report of the U.S. 
Commission on Ocean Policy <SUP>10</SUP>.
---------------------------------------------------------------------------
    \8\ http://www.pewoceans.org/
    \9\ http://www.nationalacademies.org/nrc/
    \10\ http://oceancommission.gov/
---------------------------------------------------------------------------
California's Emerging Regional Associations
    A recommendation from Ocean.US <SUP>11</SUP>, the federal 
interagency entity that is charged with coordinating the development of 
an operational and integrated and sustained ocean observing system 
(IOOS), is that certified Regional Associations be formed that will 
work at the national level to promote the establishment of a national 
Coastal Observing System and work at the local level to coordinate 
observing efforts. In California, CeNCOOS <SUP>12</SUP> (Central and 
Northern California Ocean Observing System) and SCCOOS <SUP>13</SUP> 
(Southern California Coastal Ocean Observing System) are the two 
emerging Regional Associations. The overlap between the systems will be 
at Point Conception, a natural geographic boundary. They will work with 
NANOOS (Northwest Association of Networked Ocean Observing Systems) to 
represent the west coast of the continental United States. These 
Regional Associations are in the initial formation stages, determining 
their governance structures and seeking certification. It will probably 
take about two years until they become functioning Regional 
Associations able to conduct Ocean.US mandates.
---------------------------------------------------------------------------
    \11\ http://ocean.us/index.jsp
    \12\ http://www.cencoos.org/
    \13\ http://www.sccoos.org/
---------------------------------------------------------------------------
    CeNCOOS presently has initial members from over 40 different 
agencies and institutions and has identified about 70 existing 
monitoring or observing systems in central and northern California. The 
association has hired a coordinator and is focusing on determining its 
governance structure with the goal of becoming accredited by June 2005. 
SCCOOS, which is headquartered at UCSD's Scripps Institute of 
Oceanography, has also received Congressionally directed funding 
administered through NOAA COTS. Both SCCOOS and CeNCOOS have also 
received competitive grant money from NOAA to begin the work of forming 
Regional Associations. These two Regional Associations are part of the 
eleven member National Federation of Regional Associations 
<SUP>14</SUP>, a group working with Ocean.US to ensure Regional 
Association accreditation.
---------------------------------------------------------------------------
    \14\ http://usnfra.org/index.jsp
---------------------------------------------------------------------------
Supplementary Efforts Sponsored by the State of California
    The State of California continues to be a national leader in 
investing in coastal research, and its efforts are being coordinated 
thoughtfully with the federal Regional Association concept in mind. In 
2000, California enacted the California Ocean Resources Stewardship 
Act, which led to the creation of the California Ocean Science Trust 
<SUP>15</SUP> (CalOST). This state-funded, non-profit organization has 
a mandate to fund marine and coastal research in California and to 
encourage coordinated, multi-agency, multi-institution approaches to 
ocean resource science. CalOST has appointed an executive secretary and 
is determining its role for promoting ocean observing and management in 
California.
---------------------------------------------------------------------------
    \15\ http://resources.ca.gov/ocean/CORSA/CORSA--index.html
---------------------------------------------------------------------------
    In 2002, through voter-approved Propositions 40 and 50, the voters 
of California authorized the creation of a program to monitor coastal 
circulation. The California State Coastal Conservancy and the 
California State Water Resources Control Board will fund and administer 
the Coastal Ocean Currents Monitoring Program <SUP>16</SUP> (COCMP). 
Initial funding of $21 million dollars is for the development of 
backbone elements of coastal monitoring infrastructure. Two proposals, 
one from SCCOOS and the other from northern California, have been 
funded to create a statewide integrated system. The northern proposal 
will become a CeNCOOS component. The principal observing tool will be 
an array of surface current mapping <SUP>17</SUP> (SCM) radars, which 
will allow monitoring of ocean surface currents throughout the state. 
(SCM radars are also commonly referred to as ``high frequency'' or HF 
radar and by the name of the major manufacturer, CODAR.) Other 
infrastructure will include a shoreline surf and current monitoring 
array and three-dimensional modeling of coastal circulation. This 
program, with its emphasis on SCM radar technology, closely follows the 
recommendations of the Ocean.US surface current mapping initiative. SCM 
instruments are shore-based, seaward looking radars. Advantages of this 
technology include wide area coverage and lower maintenance costs 
compared with equipment placed in the ocean. SCM data will help with 
predicting beach closures caused by bacterial contamination, tracking 
oil and other pollutant spill trajectories, and the fate of the early 
stages of commercially important fisheries species.
---------------------------------------------------------------------------
    \16\ http://www.cocmp.org/index.html
    \17\ http://oceancurrents.us
---------------------------------------------------------------------------
2. What is the status of the Center for Integrative Coastal 
        Observation, Research and Education (CICORE) System?
    The CICORE program was established in 2002 as a coastal observing 
research and academic program distributed among CSU campuses located 
along the California Coast. CICORE leverages the intellectual and 
infrastructure resources of the CSU system and seeks to address the 
coastal monitoring priorities of stakeholders along the entire 
California coast. Among others, CICORE partners include the California 
Department of Fish and Game, the State Regional Water Quality Board, 
local harbor districts, the three National Marine Sanctuaries, and two 
of the three National Estuarine Research Reserves. Now in its second 
year, and funded for a third year, CICORE is one of the 16 NOAA Coastal 
Observing Systems <SUP>18</SUP> (COTS) programs either funded by 
Congressional directive (nine) or through COTS competitive 
announcements (seven).
---------------------------------------------------------------------------
    \18\ http://www.csc.noaa.gov/cots/projects.html
---------------------------------------------------------------------------
    CICORE draws upon the strengths and expertise of California State 
University (CSU) campuses dotting the entire California coastline, 
including CSU Hayward, Humboldt State University, CSU Long Beach, CSU 
Monterey Bay, Moss Landing Marine Laboratories, San Diego State 
University, San Francisco State University, San Jose State University, 
and California Polytechnic State University, San Luis Obispo. In 
addition, CICORE leverages the expertise of scientists at the Florida 
Environmental Research Institute and Old Dominion University. Together 
these groups work together to perform in situ observations and 
collaborate on periodic field efforts in areas of stakeholder interest. 
The program anticipates adding other CSU campuses each year in an 
orderly manner to ensure maximal benefits to the identified educational 
and resource priorities in the coastal region.
    The California State University and CICORE are indispensable to the 
region's ability to meet national and state goals related to coastal 
observation. The CSU is the nation's largest university system, with 23 
campuses and seven off-campus centers, 409,000 students, and 44,000 
faculty and staff. Stretching from Humboldt in the north to San Diego 
in the south, the CSU offers a wealth of relevant applied research 
expertise and is uniquely positioned geographically to undertake the 
observing mission. Moreover, the CSU is renowned for the quality of its 
teaching and for its job-ready graduates. For example, the CSU produces 
about 60% of California's teachers and a large fraction of the staffers 
in local, state and federal environmental agencies. Many of the 
professionals needed to implement coastal observing systems will be 
trained by the CSU, and the CICORE program is important for the 
preparation of all these individuals.

3. What types of data are being collected and what technologies are 
        used?
    The CICORE program set as its observational region an important 
area missed by many of the existing monitoring programs, the region 
extending from the 100 meter isobath (water depth) into and onto the 
coast, including California's bays, estuaries and wetlands. This 
critical zone, between ``deep water'' and the shore, is where most 
impacts occur yet is seldom systematically sampled and monitored. 
CICORE has distinguished itself in establishing a program based on 
three technologies, which provide critical information in the coastal 
region. These are:
    <bullet>  high resolution spectral imaging for mapping and 
classification of shallow water and wetlands areas,
    <bullet>  high resolution acoustic seafloor mapping and 
characterization of critical shallow water habitat areas, and
    <bullet>  in situ sensors for time series measurements of water 
quality and current measurements at discrete locations throughout 
California.
    In addition, each CICORE partner may obtain local data directly 
pertinent to their regional needs. Data from these technologies are 
combined with other observational systems to develop and produce 
products to directly address concerns of policy makers, regulators, 
scientists and the public.
    High Resolution Spectral Imaging: High resolution or hyperspectral 
imaging (HSI) is emerging as a key assessment tool for coastal water 
and shoreline characterization and monitoring. Florida Environmental 
Research Institute (FERI) is the civilian agency working with the Naval 
Research Laboratories' Portable Hyperspectral Imager for Low Light 
Spectroscopy (PHILLS) sensor, and is responsible for developing 
domestic applications. In collaboration with FERI, CICORE is developing 
this technology and using it for a number of assessment and monitoring 
purposes. Acoustic ship surveys cannot be conducted in very shallow 
water; it is too dangerous for safe ship operations. HSI technologies 
allow for high resolution mapping (on the scale of meters) over 
thousands of square kilometers per year. CICORE is actively collecting 
co-located seafloor mapping and hyperspectral imagery in order to 
develop and validate the retrieval of bathymetry and habitat 
classification in this difficult to assess environment. Once these 
algorithms are verified, the hyperspectral imagery will provide an 
effective way to quickly map the shallow water environment. The other 
uses of hyperspectral data being developed relate to terrestrial land-
use and runoff interactions, vegetation mapping, and water column 
processes. These include (but are not limited to) fresh water fluxes 
and resulting ecological shifts, assessment of benthic vegetation and 
kelp canopy growth and coverage, and identifying and tracking of 
Harmful Algal Blooms (HABs). With the planned inclusion of laser 
ranging LIDAR, these data will be extended to issues of coastal erosion 
and shoreline instability. CICORE is presently working with the San 
Francisco Bay National Estuarine Research Reserve <SUP>19</SUP> to 
investigate invasive plant species (Spartina and Pepperweed), 
documenting both the spread of the invading plants and the ecological 
changes occurring as a consequence. Another application of HSI data is 
the ability to not only map the distribution of kelp beds, but also to 
assess the age and health of the kelp fronds. This information will 
help guide harvesting permits.
---------------------------------------------------------------------------
    \19\ http://www.sfbaynerr.org
---------------------------------------------------------------------------
    High Resolution Acoustic Seafloor Mapping: The second observing 
technology is the use of multibeam and sidescan acoustic imaging to 
characterize nearshore habitats. The seafloor mapping component is 
characterizing and quantifying the diverse benthic habitats found in 
the nearshore region. It will be many years before the entire coastal 
region will be mapped with the resolution possible with the multibeam 
acoustic surveys employed by CICORE. The program is identifying 
sensitive sites undergoing benthic modification. These data have been 
used to identify critical fishery habitats and, in a subtractive mode, 
identify areas of deposition and erosion. These are the first high-
resolution images being produced in a number of critical areas. One 
application of these data are to assist the cruise ship industry in 
locating anchorage areas that will not disturb sensitive benthic 
habitats.
    In Situ Monitoring: The third technology is in situ monitoring. 
Robust methodology for high temporal resolution monitoring of the basic 
water quality parameters temperature, salinity, density, sediment load, 
and water clarity provide the basis of a distributed network of 
instruments that provides web-accessible data in near real time. These 
in situ measurements are critical for both assessment of regulatory 
decisions and investigating long term trends related to climate 
variability. Other measured parameters at selected sites also include 
currents, fluorescence, oxygen and nutrients. In this shallow coastal 
environment, fluctuation of fresh water flow is one of the major 
modifying parameters. The deployed instrument array tries to focus on 
these critical regions to obtain the data that will assist scientists, 
planners and resource managers needing water quality information.
    These combined measurements constitute an observing system that 
characterizes the near shore coastal zone and allows monitoring in real 
time of the water quality fluctuations. Real time water quality 
monitoring and habitat characterization are two data sets frequently 
requested by regulatory agencies to ensure balanced management plans 
for coastal resources.

4. How are issues of data processing, distribution and archival 
        handled?
    Data processing and archival systems pose a formidable challenge 
for coastal observatories, yet one that is critical to the success of 
any observing system. CICORE participates in regional workshops on data 
standards and is following the Ocean.US Data Management and 
Communications (DMAC) recommendations on data discovery, access and 
archiving. CICORE data are posted to web accessible sites as quickly as 
possible to ensure the data are openly available to the public. The in 
situ data are posted in near real time, while the acoustic mapping and 
hyperspectral imagery require more intensive post collection processing 
before the data can be made available. The numerous data sets can be 
accessed at the main CICORE site or through the individual partner 
sites listed in the table below. The hyperspectral imagery generates 
terabytes of data. Users can view these data through IMS servers at 
FERI and California Polytechnic State University, San Luis Obispo. Data 
extraction requests are handled by FERI. Similarly, the high resolution 
acoustic bathymetry can be viewed and retrieved from the California 
State University, Monterey Bay Seafloor Mapping site.

    CICORE web pages at the member institutions:

Moss Landing Marine Laboratories--http://cicore.mlml.calstate
California Polytechnic State University, San Luis Obispo--
    http://www.marine.calpoly.edu/cicore/default.shtml
California State University, Hayward--http://www.sci.csuhayward.edu/
        cicore/
California State University, Monterey Bay--
    http://seafloor.csumb.edu/CICOREweb.html and
    http://seafloor.csumb.edu/arcims.htm
Humboldt State University--http://cicore.humboldt.edu/
San Francisco State University--http://sfbeams.sfsu.edu
Florida Environmental Research Institute--http://
        www.flenvironmental.org/ and http://www.flenvironmental.org/
        HyDroDB/login.asp

5. Does CICORE represent all of the ocean observing systems in 
        California?
    No, as detailed in response to question one, above, CICORE is one 
of many complementary programs in California engaged in ocean 
observing. These programs are working together to establish Regional 
Associations which are part of the coastal component of the U.S. 
Integrated Ocean Observing System.

6. If not, are other systems and CICORE coordinating to avoid 
        duplication and collect uniform data to support a regional 
        system?
    Absolutely. The challenge of coastal ocean observing in California 
is larger than any one institution and the only way it can be 
effectively addressed is through collaboration. As detailed earlier, 
CICORE is one of several existing, and complementary, ocean observing 
programs. In northern California, other existing programs include CIMT, 
ACT, NEOCO, and PISCO. Many local, State, particularly California Fish 
and Game, and Federal (NOAA and USGS) agencies also maintain observing 
or monitoring programs that span portions of California's 3425 miles of 
coast line. In general, the existing programs complement one another 
well in a number of ways, including the area covered, the variables 
measured, and the technologies employed.
    In recognition of the emerging national priority to monitor the 
coastal ocean, organizations on the west coast have begun to organize 
three regional associations that will allow the pursuit of the goals 
articulated by Ocean.US, the National Research Council Ocean Report, 
the Pew Oceans Trust Report, and the U.S. Commission on Ocean Policy. 
These associations are: Southern California Coastal Ocean Observing 
System (SCCOOS), the Central and Northern California Ocean Observing 
System (CeNCOOS), and Northwest Affiliated Network of Ocean Observing 
Systems (NANOOS) in Oregon and Washington. They will form three 
geographically overlapping and coordinated Regional Associations for an 
integrated approach to implementing local, state and federal ocean 
monitoring needs. CeNCOOS and SCCOOS have already signed a memorandum 
of understanding to ensure coordination of regional associations in 
California. CICORE partners are involved in all three emerging Regional 
Associations.
    Meanwhile, the state-sponsored COCMP program will build backbone 
elements of a regional observing system. CICORE partners Humboldt State 
University, San Francisco State University, Moss Landing Marine 
Laboratories and California Polytechnic State University, San Luis 
Obispo are lead organizations in the State COCMP observing system that 
will directly support the national Integrated Ocean Observing System.

7. How will the CICORE system support a national ocean observing 
        system?
    The CICORE program was developed specifically with the nation's 
ocean observatory priorities in mind. Throughout the development and 
expansion of the CICORE program, partner institutions have paid close 
attention to the observational goals of Ocean.US, Congress and COTS. 
These have formed the basis of the CICORE observatory backbone and the 
technological approaches that are adapted through the program. As 
described earlier, once the Regional Associations are accredited and 
receive sustained federal funding, CICORE will conduct its monitoring 
as part of the federally recognized Integrated Ocean Observing Systems 
(IOOS). In addition, the core technologies being developed by CICORE 
(specifically high resolution digital mapping) will be made available 
to all other Regional Associations.

8. Does the CICORE system incorporate requests or requirements of user 
        groups to produce usable products?
    Yes. First, CICORE established an Advisory Council whose members 
include individuals from industry, the regulatory community, 
scientists, EPA, NOAA and other COTS programs. Secondly, CICORE has 
actively sought community partnerships in identifying program 
stakeholders and products. During the last data collection effort, 
CICORE partnered with the San Francisco National Estuarine Research 
Reserve and the Point Reyes National Seashore Recreation Area in 
planning the overflight and imagery coverage. In addition, CICORE 
carried a CIMT sensor on the airplane to provide intercomparison of 
instruments. CICORE is also working with the State Water Quality Board 
in expanding the in situ array. These are just a few examples of 
outreach efforts.

9. Please include any other information you think is pertinent to the 
        overall discussion of ocean observing systems.
    The technology, expertise, and organizational capabilities now 
exist to produce real-time, continuous observations of and predictions 
about the ocean in much the same way as we can produce observations and 
predictions about the atmosphere and weather. Deployment and operation 
of an Integrated and Sustained Ocean Observing System will (1) improve 
the safety and efficiency of marine operations; (2) mitigate the 
effects of natural hazards more effectively; (3) improve predictions of 
climate change and its socio-economic consequences; (4) improve 
national security; (5) reduce public health risks; (6) help protect and 
restore healthy ecosystems; and (7) sustain and restore living marine 
resources. An initial economic analysis by independent economists under 
contract to NOAA estimated $5 to $6 of return for industry, government, 
and the public for every $1 invested in ocean observing and 
predictions. Immediate returns are expected in maritime safety and 
efficiencies for shipping, fishing, energy, tourist, and other 
industries; search-and-rescue; national security; and monitoring and 
clean-up of discharges and spills to ocean waters.
    Because responsibility for ocean observing and monitoring is 
currently distributed among a number of federal agencies, federal 
legislation is needed to resolve issues of governance, roles and 
responsibilities, and allocate sustained funding. We in the research 
community appreciate the fact that this committee, and others in 
Congress, are taking a serious look at determining the best ways to 
approach this important work.
    As Congress considers the recommendations of the U.S. Commission on 
Ocean Policy and efforts to establish a coherent coastal ocean 
monitoring program, it is imperative to realize that the stability of 
the long-term operations is a goal, as important as the development of 
the infrastructure. With that in mind, I encourage you to promote a 
broad interagency approach, lead by Ocean.US, to support the emerging 
Ocean Observing Regional Associations (RAs). The RAs will become the 
regional mechanisms for monitoring the ocean and they need to have the 
ability to respond to local and regional needs and to be able to 
receive funding from multiple sources, federal, state and other.
    This concludes my testimony. I hope that you will view me and my 
colleagues engaged in ocean observing in California as a resource to 
this committee as you continue your important work in coastal ocean 
observing.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Garfield.
    Ms. McCammon?

       STATEMENT OF MOLLY McCAMMON, EXECUTIVE DIRECTOR, 
                 ALASKA OCEAN OBSERVING SYSTEM

    Ms. McCammon. Thank you, Mr. Chairman. I will be presenting 
a shorter version of my written testimony today.
    I represent a group of Federal agencies, universities, 
research institutions, and nonprofit organizations who have 
committed to organizing the Alaska Ocean Observing System as 
part of the national Integrated Ocean Observing System.
    Alaska is the largest ocean State in the country, with more 
than 47,000 miles of coastline, about two-thirds of the total 
U.S. coastline. Alaska's oceans are among the most productive 
ecosystems in the world with healthy fish and shellfish 
populations producing over 50 percent of the Nation's seafood, 
more than 80 percent of the Nation's seabird population, and 36 
recognized populations of marine mammals. Alaska's oceans and 
coastal watersheds produce 25 percent of the Nation's oil as 
well as minerals from several world-class mines. In short, 
Alaska is a tremendous national asset.
    Currently, the Alaska Ocean Observing System--or AOOS, as 
we cal it--is in its early stages of planning and development. 
Our partners feel so strongly about the importance of the AOOS 
mission and goal that they have committed their own funds to 
help kick-start the effort in Alaska toward its development 
phase.
    The vision for AOOS is to provide ocean data and 
information products to users of Alaska's marine environment, 
whether they are fisheries managers, offshore oil developers 
and transporters, or Alaska Native subsistence users.
    We do not have an integrated ocean observing capability 
today. No process or forum currently exists for users to meet 
together with the providers of ocean observations to identify 
gaps and needs and jointly develop priorities. AOOS can provide 
that forum.
    It is important to note that AOOS is not intended to 
supplant existing marine research entities and local observing 
capabilities in Alaska; rather, AOOS will serve as the overall 
facilitator and coordinator for the statewide system, providing 
funding and establishing standards to ensure that statewide and 
regional needs are met consistent with the national program.
    We are now working with the three large marine ecosystems 
encompassed by Alaska: the Arctic Ocean, Beaufort and Chukchi 
Seas, the Bering Sea and Aleutian Islands, and the Gulf of 
Alaska. And within these three larger regions are smaller 
subregions, such as Prince William Sound and Cook Inlet, that 
will require more intensive observing systems.
    In Prince William Sound, we are working to develop an 
integrated observing system that will provide important 
information to oil tankers transiting the sound to and from 
Valdez, the terminus of the Alaska Pipeline, to commercial 
fishermen who want to understand and better forecast salmon 
production, and to recreational boaters who want to know 
weather conditions for weekend trips.
    In Cook Inlet, an integrated observing system will help 
captains pilot barges up the inlet more safely and more cost-
effectively with better information about currents and tides. 
It will help oil spill responders better understand where oil 
might go in the event of a spill and help city and borough 
planners predict what will happen to bluff erosion along the 
shores of Cook Inlet.
    In the Bering Sea, one of the richest fisheries in the 
world, an integrated system will help develop more accurate 
maps of the wintertime southern ice edge, a valuable tool for 
subsistence users who rely on marine mammals such as walrus and 
seals for food and for commercial fishermen who fish year round 
in the Bering Sea. The system will provide greater 
understanding of the ocean warming and its impacts on 
commercial fisheries and develop better predictive models of 
climate change impacts so that coastal communities can be 
better prepared to respond to rising sea levels and coastal 
erosion caused by more frequent extreme storm vents.
    These are all benefits that will have substantial economic 
benefits not only to Alaskans, but to the Nation was a whole. 
One of the important aspects of AOOS, as well as other regional 
associations, is the requirement that a cost/benefit analysis 
be conducted when planning and developing the various 
components, and especially the information products, of the 
regional observing systems.
    Although AOOS is still in the planning and early 
development stages, pieces of a system are already under 
development. The Prince William Sound Science Center and the 
Oil Spill Recovery Institute have been working for more than 5 
years on a Nowcast-Forecast program to provide real-time 
information and predictions on ocean conditions in Prince 
William Sound.
    The Exxon Valdez Oil Spill Trustee council's GEM program, 
whose aim is to monitor well into the future the area impacted 
by the 1989 oil spill, is funding the placement of ocean 
observing instruments on State ferries and tankers as ``ships 
of opportunity.''
    In Cook Inlet, the Kachemak Bay Research Reserve, the city 
and borough of Anchorage, as well as other programs are 
collecting information in Cook Inlet.
    But these are not adequate for the current needs. In the 
entire Gulf of Alaska, which includes Southeast Alaska, Prince 
William Sound, and Cook Inlet, we have only 11 NOAA buoys and 9 
C-MAN stations. The Gulf of Alaska coastline is more than twice 
that of the Northern California, Oregon, and Washington coast, 
yet has about half the number of buoys and C-MAN stations.
    The Bering Sea and Arctic has only one NDBC buoy, although 
several research buoys have been used intermittently.
    Implementation of an Alaska Ocean Observing System 
represents an enormous challenge due to the vastness of the 
region. But in spite of these challenges, the opportunities and 
needs, as well as the economic benefits, warrant national 
attention.
    Again, I want to thank you for the opportunity to testify 
and would be happy to answer any questions.
    [The prepared statement of Ms. McCammon follows:]

                Statement of Molly McCammon, Director, 
                     Alaska Ocean Observing System

    Mr. Chairman and Members of the Committee. I am honored to be here 
today to testify before you on the development and implementation of 
the Alaska Ocean Observing System.
    My name is Molly McCammon and I represent a group of federal 
agencies, universities, research institutions, and non-profit 
organizations who have committed to organizing an Alaska Ocean 
Observing System as part of the national Integrated Ocean Observing 
System.
    We are the largest ocean state in the country, with more than 
47,000 miles of coastline, about two-thirds of the total U.S. 
coastline. Alaska occupies 20% of the nation's land base, 40% of the 
nation's surface water, and contains half the nation's wetlands. 
Alaska's oceans are among the most productive ecosystems in the world, 
with healthy fish and shellfish populations producing over 50% of the 
nation's seafood, more than 80% of the nation's seabird population, and 
36 recognized populations of marine mammals. Bristol Bay alone supports 
the world's largest sockeye salmon fishery, and Alaska's snow crab 
fishery is the largest in the U.S. Alaska's oceans and coastal 
watersheds produce 25% of the nation's oil as well as minerals from 
several world-class mines. Compared to other oceans and watersheds 
elsewhere in the United States, Alaska's resources are healthy, 
productive and pollution-free. In short, Alaska is a tremendous 
national asset.
    Currently, the Alaska Ocean Observing System--or AOOS as we call 
it--is in its early stages of planning and development. The consortium 
of government agencies, research institutes and non-profit 
organizations developing AOOS feel so strongly about the importance of 
the AOOS mission and goals that they have committed their own funds to 
help kick-start the effort in Alaska towards its development phase. 
These have been supplemented by two small planning grants from NOAA. 
These organizations--and for this purpose I'll call them the AOOS 
partners--have signed onto a Memorandum of Agreement that commits them 
to work collaboratively to develop an Alaska node for integrating 
coastal and ocean observing activities in anticipation of authorization 
of the national effort.
    Thus far, our partners include federal agencies such as NOAA, 
including the National Weather Service, NOAA Fisheries, and the Office 
of Oceanic and Atmospheric Research; the Department of Interior 
agencies of USGS and Minerals Management Service; academic institutions 
including the University of Alaska; research organizations such as the 
North Pacific Research Board, the Alaska SeaLife Center, the Prince 
William Sound Science Center and Oil Spill Recovery Institute, the 
Barrow Arctic Science Consortium, and the Alaska Sea Grant Program. We 
are working closely with other potential partners including the U.S. 
Coast Guard, the State of Alaska, and industry groups who will likely 
be joining as partners as AOOS develops. Our office is co-located with 
the North Pacific Research Board, a program created by Congress to help 
meet the research needs of Alaska's oceans.
    The vision for AOOS is to provide ocean data and information 
products to users of Alaska's marine environment whether they are 
fisheries managers, offshore oil developers and transporters, or Alaska 
Native subsistence users. Our program is developing in line with the 
national goals of improving the safety and efficiency of marine 
operations, mitigating the effects of natural hazards, especially 
coastal erosion from extreme storm events and earthquake generated 
tsunamis, improving predictions of climate change and its effects, 
improving national security, especially to our ports, reducing public 
health risks from contaminants in the marine environment, more 
effective protecting and restoring healthy coastal marine ecosystems, 
and enabling the sustained use of marine resources. The program is 
intended to be an operational provider of ocean observations, not a 
research program, although the research community is definitely a 
primary user group in Alaska.
    We do not have an integrated ocean observing capability today. 
Historically, government agencies have had the responsibility for 
gathering these observations, but have had neither sufficient funding 
nor discretion to mount comprehensive long-term collection efforts or 
tailor data collection to meet practical local needs. As a result, many 
observation and information gaps exist in Alaska. As uses of the marine 
environment increase, the broader, ecosystem-based decisions expected 
in the future will require more systematic, coordinated databases.
    No process or forum currently exists for users to meet together 
with the providers of ocean observations to identify gaps and needs and 
jointly develop priorities. AOOS can provide that forum. It is 
important to note that AOOS is not intended to supplant existing marine 
research entities and local observing capabilities in Alaska. Rather, 
AOOS will serve as the overall facilitator and coordinator for the 
statewide system, providing funding and establishing standards to 
ensure that statewide and regional needs are met consistent with the 
national program.
    We are now working in the three large marine ecosystems encompassed 
by Alaska--the Arctic Ocean, Beaufort and Chukchi Seas, the Bering Sea 
and Aleutian Islands, and the Gulf of Alaska. Within these three larger 
regions, are smaller sub-regions--such as Prince William Sound and Cook 
Inlet--that will require more intensive observing systems.
    In Prince William Sound, we're working to develop an integrated 
observing system that will provide important information to oil tankers 
transiting the sound to and from Valdez, the terminus of the Alaska 
Pipeline, to commercial fishermen who want to understand and better 
forecast salmon production, and to recreational boaters who want to 
know weather conditions for weekend trips.
    In Cook Inlet, an integrated observing system will help captains 
pilot barges up the inlet more safely with better information about 
currents and tides; help oil spill responders better understand where 
oil might go in the event of a spill; and help city and borough 
planners predict what will happen to bluff erosion along the shores of 
Cook Inlet.
    In the Bering Sea, one of the richest fisheries in the world, an 
integrated ocean observing system will help develop more accurate maps 
of the wintertime southern ice edge, a valuable tool for subsistence 
users who rely on marine mammals such as walrus and seals for food and 
for commercial fishermen who fish year round in the Bering Sea; provide 
greater understanding of ocean warming and its impacts on commercial 
fisheries; and develop better predictive models of climate change 
impacts so that coastal communities can be better prepared to respond 
to rising sea levels and coastal erosion caused by more frequent 
extreme storm events.
    These are all benefits that will have substantial economic benefits 
not only to Alaskans, but to the nation as a whole. One of the 
important aspects of AOOS--as well as the other regional associations--
is the requirement that a cost-benefit analysis be conducted when 
planning and developing the various components--and especially the 
information products--of the regional observing systems. In Alaska, 
we're working with the University of Alaska's School of Business 
Administration and Public Policy to develop a business plan for AOOS.
    Our planning efforts are focusing on two separate, but closely 
related tracks. One track encompasses the ``core'' ocean observations 
supported by various federal agencies that desperately need to be 
enhanced as part of the national backbone for the Integrated Ocean 
Observing System. These include buoys collecting weather observations 
as part of the National Data Buoy Center, NASA satellite observations 
of sea surface variables such as chlorophyll-a, waves and currents, 
temperature and sea ice extent, USGS water level and tidal gauges, and 
NMFS fisheries stock assessments. Data from these enhanced observations 
will be incorporated into a Data Management and Communications 
subsystem that transcends individual government agencies, research and 
monitoring programs, and research institutions.
    On a parallel track, we are meeting with user and stakeholder 
groups to identify local user needs and the local observations needed 
to meet those needs. These users include the oil and gas industry, 
marine shippers, the cruise ship industry (with more than 45 vessels 
carrying a million passengers in Alaska waters this summer), 
recreational boating organizations, commercial and recreational 
fishermen, the charter boat industry, Coast Guard search and rescue 
operations, oil spill response teams, and city and borough planners. 
All have expressed enthusiasm and support for AOOS efforts.
    Although AOOS is still in the planning and early development 
stages, pieces of an Alaska Ocean Observing System are already under 
development. The Prince William Sound Science Center and its affiliated 
Oil Spill Recovery Institute have been working for more than five years 
on a Nowcast-Forecast program to provide real-time information and 
predictions on ocean conditions in Prince William Sound. That program 
is being enhanced to include additional precipitation and 
meteorological information, as well as surface current maps using High 
Frequency Radar.
    Another program is the Exxon Valdez Oil Spill Trustee Council's 
Gulf Ecosystem Monitoring Program whose aim is to monitor well into the 
future the area impacted by the 1989 oil spill. The GEM program is 
funding the placement of ocean observing instruments on state ferries 
and oil tankers as ``ships of opportunity''.
    In Cook Inlet, the Kachemak Bay Research Reserve, established as a 
National Estuarine Research Reserve, collects basic oceanographic 
conditions throughout the bay; the city and Borough of Anchorage 
collects water quality information as part of its sewage discharge 
permit, and a PORTS system in Anchorage and Nikiski gathers water level 
and meteorological information to aid marine traffic in the inlet. 
Experimental High Frequency Radar systems are being deployed to help 
improve tide predictions, but there is no entity that plans--or has the 
capability--to keep these in place operationally over the longer term. 
These observations are not sufficient for the needs of southcentral 
Alaska which is the most heavily populated region of the state and the 
largest port in the state.
    In the entire Gulf of Alaska, which includes Southeast Alaska, 
Prince William Sound, and Cook Inlet, we have only 11 NOAA buoys and 9 
C-MAN stations. The Gulf of Alaska coastline is more than twice as long 
as that of the northern California/Oregon/Washington coast, yet has 
about half the number of buoys and C-MAN stations.
    In the Bering Sea and Arctic, we have only one NDBC buoy, although 
several research buoys have been in place intermittently over the past 
10 years. Most observational data has been acquired as part of short-
term research programs with no commitment for long-term deployment. 
What is needed are permanently based monitoring buoys with the 
capability to take physical and biological measurements above and below 
the water surface and ice profiling sensors where appropriate, as well 
as a network of C-Man stations along the coastline, several long range 
High Frequency radar surface current mappers at pulse points in ocean 
circulation (such as the Bering Strait and Aleutian Straits) and major 
fishing grounds, intensive cabled observatories in key areas, and 
enhanced fisheries surveys. The kinds of information products needed 
include improved sea ice forecasts, predictions of coastal erosion 
based on weather and wave data, and real-time access to data from 
moorings, HF radar systems, and cabled systems monitoring water and sea 
characteristics.
    We are now using Prince William Sound's developing ocean observing 
system as the pilot project for the AOOS data management system. We 
envision a distributed system using multiple data nodes across the 
state with easy access from a centralized system as needed. Data would 
be provided in formats that are readily accessible to researchers, 
regulators, educators, and public and commercial users. That system 
will likely be housed at the University of Alaska Fairbanks 
supercomputer. Our long-term goal is a 24-7 real-time operational 
system. However, in Alaska, given our huge geographic range and current 
dearth of observations, our initial commitment is to make data 
available on a website as soon as practical. The data collected under 
the AOOS umbrella will meet national standards and feed into national 
databases as appropriate.
    AOOS is designed to be user and information product-driven. The 
user needs vary widely. Some groups require precise navigation and 
real-time information, while others need only rudimentary knowledge of 
currents and water masses. Some needs exist today, yet others lie in 
the future, such as possible Northwest Passage transits under reduced 
Arctic ice cover. Increased surveillance, security and safety of 
transportation and commercial shipping activities (offshore, in ports, 
and in sea lines of communication between Alaska and the continental 
U.S.) are a recent and emerging area of concern for the U.S. that will 
be addressed by many of the proposed AOOS activities. Another area is 
climate change impacts. Since greenhouse gas-related global warming is 
thought to be amplified in polar regions, Alaska conditions can be 
viewed as a harbinger for climate change across the globe. All of the 
these needs are closely tied to forecasting of weather and 
oceanographic conditions as most weather systems, including extreme 
events, transit across marine waters before entering our state.
    Implementation of an Alaska Ocean Observing System represents an 
enormous challenge due to the vastness of the region. Alaska's 
remoteness and extreme weather conditions make designing, installing 
and operating an ocean observing system throughout the three Alaska 
regions the most difficult undertaking of any shelf area in U.S. 
waters. However, in spite of these challenges, the opportunities and 
needs, as well as the economic benefits, warrant national attention.
    Again, I want to thank you for the opportunity to testify before 
you today. If you have any questions, please don't hesitate to contact 
me at the Alaska Ocean Observing System office, 1007 West Third Avenue, 
Suite 100, Anchorage Alaska 99501, 907-770-6543.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. McCammon.
    Mr. Evan Richert?

             STATEMENT OF EVAN RICHERT, PRESIDENT, 
              GULF OF MAINE OCEAN OBSERVING SYSTEM

    Mr. Richert. Thank you, Mr. Chairman, and thank you for the 
opportunity to testify. The Gulf of Maine Ocean Observing 
System is one of several young regional coastal ocean observing 
systems in the Nation.
    GoMOOS, as we are known, has been in the water now for 3 
full years--reporting on the hour, 24 hours a day, 365 days a 
year. We monitor waters across the 36,000 square miles of the 
Gulf of Maine, from Cape Cod to the Bay of Fundy. And if, 
before coming to this hearing this morning, you had logged onto 
www.gomoos.org, as I hope you did, you would have been one of 
several thousands users who are viewing our data at the rate of 
more than 1 million pages and 5 million hits per year, and 
growing. These are data for--
    Mr. Gilchrest. Could you give me that www thing again?
    Mr. Richert. Www.gomoos--
    Mr. Gilchrest. GoMOOS?
    Mr. Richert. G-o-m-o-o-s, Gulf of Maine Observing System--
dot org. We had to get that before Alaska did, the GoMOOS 
thing.
    Mr. Gilchrest. GoMOOS.
    Mr. Richert. Yes.
    Mr. Gilchrest. OK.
    Mr. Richert. These are data for which there is a hungry 
public. The data products, all available on a free and open 
basis across the Internet, are designed to meet the needs of 
many users.
    We track users because we are explicitly a user-based 
system, kind of a cooperative utility. We are a nonprofit with 
more than 30 organizations as paying members and a board of 
directors composed of representatives of educational and 
research institutions, marine industry, marine resource 
agencies, and NGO's.
    We ask for feedback on our website on how our observations 
are used. Here are a dozen examples that I selected from the 
last 6 months, and these are not from our larger institutional 
users, such as the National Weather Service, the military, or 
NOAA, all of whom account for many visits to our site. But 
these are examples of individual users that might give you a 
flavor of who is using this data:
    A business is using the data products for shipping 
analysis. Another business is using it in a report for siting 
an LNG Regas plant. A research organization is using the data 
for a study on cod larval transport. A hospital employee is 
using it for a presentation on marine hazards. A Coast Guard 
employee is using it for training and search and rescue. A 
marine surveyor is using the data to investigate weather-
related damage, while a contractor is using it for a new marine 
construction project. A nonprofit group is using buoy data to 
help in a salmon tracking study in Cobscook Bay. A middle 
school teacher is using it for a science class, and a college 
student for a marine ecology class. A scientist is loading the 
data into a model of the Gulf of Maine. A member of the public 
is using the data to predict waves for surfing, another to plan 
sailing trips, and another for kayaking. A State government 
employee is using the data to help with lobster management 
zones. And an engineer is using the wind speed data to assess 
wind turbine electrical performance.
    And so our users are mariners, fishermen, search and rescue 
personnel, scientists, recreationalists, educators, marine 
contractors and engineers, and resource managers. By delivering 
real-time information and forecasts to them, GoMOOS is helping 
to save lives, save dollars, and save a large and valuable 
marine ecosystem. A preliminary, independent NOAA analysis 
estimated that the return from GoMOOS may be worth as much as 
$30 million annually. If this is true, and if we amortize our 
initial capital costs of about $8 million and add our annual 
operating costs of about $3.5 million, the return to society is 
roughly 5:1. And you can get a sense of this, of the components 
of this, when you know and understand that simply the operating 
costs of shipping transiting the Gulf of Maine is about $50 
million a year. A 1-percent increase in efficiency in those 
operations will translate into a savings of half a million 
dollars a year.
    Or when we realize that there are 6,000 search and rescue 
missions in the Gulf of Maine each year, including 500 to 600 
life-and-death situations, most of those are saved; 25 to 30 
die. If we can through our system allow the Coast Guard to beat 
the 2-hour critical time period in which one must be rescued in 
the cold waters of the Gulf of Maine, we will help save lives.
    Regional coastal ocean observing systems fill a large 
niche. With our real-time observations of ocean conditions, we 
are positioned between and complement the atmospheric 
observations of the National Weather Service, the long-term 
fisheries surveys of the National Marine Fisheries Service and 
State fisheries agencies, and the seafloor geological surveys 
of USGS. We measure winds, currents, waves, fog, sea 
temperature, salinity, dissolved oxygen, chlorophyll, and 
measures of fluorescence that track plankton blooms. We comply 
with high, uniform standards for the data and, as a result, are 
able to exchange it freely and routinely with the Weather 
Service and other agencies.
    Indeed, we have formed a close bond with these agencies, as 
well as with the Census of Marine Life and other generators of 
large marine data bases on the gulf. Together, we have formed 
the Gulf of Maine Ocean Data Partnership, which GoMOOS hosts. 
This partnership is committed to a seamless system of data 
exchange--physical, geological, and biological--that will be 
available to the public on demand; in short, a truly integrated 
coastal ocean observing system for our region.
    This is the forerunner of what will become over the next 
year a regional association of State, Federal, institutional, 
and nonprofit observing systems in the Gulf of Maine. In turn, 
the regional association will join a national federation of 
such associations and create a national system of observations 
and predictions for the coastal ocean similar in function and 
value to the observations and predictions of the atmosphere by 
our weather service. That is our goal.
    Thank you, and I would be pleased to answer questions later 
on.
    [The prepared statement of Mr. Richert follows:]

                 Statement of Evan Richert, President, 
                  Gulf of Maine Ocean Observing System

    Mr. Chairman and members of the Committee, thank you for allowing 
me to testify on the status of Ocean Observing Systems in the U.S., and 
in particular about the Gulf of Maine Ocean Observing System (GoMOOS). 
GoMOOS is one of several young regional coastal ocean observing systems 
in the nation. Our existence is made possible by a new generation of 
technology, the skill of scientists at our region's universities, the 
investments of taxpayers and member organizations, and the commitment 
of dozens of user groups and volunteers in our region.
    GoMOOS has been ``in the water'' now for 3 full years--reporting on 
the hour, 24 hours a day, 365 days a year. We monitor waters across the 
36,000 square miles of the Gulf of Maine, from Cape Cod to the Bay of 
Fundy. And if, before coming to this hearing this morning, you had 
logged onto www.gomoos.org, you would have been one of several thousand 
users who are viewing our data at the rate of more than 1 million pages 
and 5 million ``hits'' per year, and growing. These are data for which 
there is a hungry public. The data products, all available on a free 
and open basis across the Internet, are designed to meet the needs of 
many users
    We track users because we are a user-based system. We are a 
nonprofit with more than 30 organizations as paying members, and a 
Board of Directors composed of representatives of educational and 
research institutions, marine industry, marine resource agencies, and 
NGOs.
    We ask for feedback on our web site on how our observations are 
used. Here are a dozen examples from the last six months:
    <bullet>  A business is using the data products for shipping 
analysis
    <bullet>  Another business is using it in a report for siting an 
LNG Regas plant
    <bullet>  A research organization is using the data for a study on 
cod larval transport
    <bullet>  A hospital employee is using it for a presentation on 
marine hazards
    <bullet>  A Coast Guard employee is using it for training and 
search and rescue
    <bullet>  A marine surveyor is using the data to investigate 
weather related damage, while a contractor is using it for a marine 
construction project
    <bullet>  A nonprofit group is using buoy data to help in a salmon 
tracking study in Cobscook Bay
    <bullet>  A middle school teacher is using it for a science class, 
and a college student for a marine ecology class
    <bullet>  A scientist is loading the data into a model of the Gulf 
of Maine
    <bullet>  A member of the public is using the data to predict waves 
for surfing, another to plan sailing trips, and another for kayaking
    <bullet>  A state government employee is using the data to help 
with lobster management zones
    <bullet>  And an engineer is using the wind speed data to assess 
wind turbine electrical performance.
    And so our users are mariners, fishermen, search and rescue 
personnel, scientists, recreationalists, educators, marine contractors 
and engineers, and resource managers. By delivering real time 
information and forecasts to them, GoMOOS is helping to save lives, 
save dollars, and save a large and valuable marine ecosystem. A 
preliminary, independent NOAA analysis estimated that the return from 
GoMOOS may be worth as much as $30 million annually. If this is true, 
and if we amortize our initial capital costs of about $8 million and 
add our annual operating costs of about $3.5 million per year, the 
return to society is roughly 5:1.
    Regional coastal ocean observing systems fill a large niche. With 
our real-time observations of ocean conditions, we are positioned 
between and complement the atmospheric observations of the National 
Weather Service, the long-term fisheries surveys of the National Marine 
Fisheries Service and state fisheries agencies, and the seafloor 
geological surveys of USGS. We measure winds, currents, waves, fog, sea 
temperature, salinity, dissolved oxygen, chlorophyll, and measures of 
fluorescence that track plankton blooms. We do so from an array of 
fixed buoys with remote sensors, high frequency radar stations, and 
satellite images. The system was designed by and is operated under 
contract to a Science Team based at the region's universities and 
research institutions. We comply with high, uniform standards for the 
data, and as a result are able to exchange it freely and routinely with 
the Weather Service and other agencies.
    Indeed, we have formed a close bond with these agencies, and with 
the Census of Marine Life and other generators of large marine data 
bases on the Gulf of Maine. Together, we have formed the Gulf of Maine 
Ocean Data Partnership, which GoMOOS hosts. This Partnership is 
committed to a seamless system of data exchange--physical, geological, 
biological--that will be available to the public on demand; in short, a 
truly integrated coastal ocean observing system for our region.
    It is the forerunner of what will become over the next year a 
Regional Association of state, federal, institutional, and nonprofit 
observing systems in the Gulf of Maine. In turn, the Regional 
Association will be part of a national federation of such associations. 
This will create a national system of observations and predictions for 
the coastal ocean similar in function and value to the observations and 
predictions of the atmosphere by our weather service. That is our goal.
    Thank you, and I would be pleased to answer any questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much.
    Mr. Cortis Cooper?

       STATEMENT OF CORTIS COOPER, METOCEAN CONSULTANT, 
              ENERGY TECHNOLOGY CO., CHEVRONTEXACO

    Mr. Cooper. Thank you, Mr. Chairman.
    The oil industry has had to operate safely in some of the 
harshest ocean regions on the planet, including the North 
Atlantic and Gulf of Mexico. Despite the hazards, we have 
compiled an excellent record with far fewer weather-related 
losses than other major marine industries such as fishing and 
shipping. This is due in large part to the considerable money 
and expertise that we spend on the issues.
    I would like to start by making a couple of points. First 
of all, offshore U.S. oil production is important. Today, 
nearly 30 percent of the total U.S. production comes from 
offshore, virtually all of it from the Gulf of Mexico. This 
percentage is expected to increase in the next few years. For 
these reasons, the Gulf of Mexico will be the focus of the rest 
of my comments.
    The second point I would like to make is the oil industry 
has been following the development of IOOS thanks in part to 
folks in the regional area who have continually encouraged us 
to participate.
    The next slide shows two of the major concerns that we have 
in the Gulf of Mexico. Of course, the well-known hurricanes. 
Good forecasts in this case are especially important in guiding 
our mandatory evacuations. A less well known phenomenon is the 
loop current. This is a strong current which is shown by the 
dark red in the slide. It enters into the gulf through the 
Yucatan Straits and exits through the Florida Straits where it 
becomes known as the Gulf Stream. The loop and its eddies can 
generate currents of 5 to 6 miles per hour, well down into the 
water column, and create static loads equivalent to a 60-foot 
wave.
    The IOOS products of potential interest to the oil industry 
are as follows: We would be very interested in measurements of 
currents, waves, wind, especially in real-time in the Gulf of 
Mexico. Second, we would be interested in operational satellite 
products in near real-time, especially from the four existing 
altimeters and from the coastal color scanners. Third, we would 
like to use or have access to the IOOS data management and 
archival infrastructure. Confidentiality issues will, of 
course, have to be addressed. And, last, IOOS could not only 
collect data but might also run operational current models 
which could be extremely useful.
    The potential benefits of IOOS to the industry are: First 
of all, it could help improve forecasts for hurricanes, winter 
storms, and loop current eddies. Second, it could assist in 
spill response contingency planning and cleanup. Third, it 
could improve design and operational efficiency of our offshore 
activities. With improved knowledge from IOOS, the industry 
could reduce loss of life, reduce the likelihood and impacts of 
accidental spills, reduce operational downtime, and reduce 
capital costs for new facilities. As a result, IOOS could spur 
development of more marginal oil and gas fields that might 
otherwise remain undeveloped because they cannot compete with 
the less costly oil coming from places outside of U.S. waters.
    There are a number of ways in which we could potentially 
cooperate with IOOS. First of all, we have lots of offshore 
real estate. The industry has approximately 3,000 platforms in 
the Gulf of Mexico alone, offering a good place to take ocean 
measurements from. Second, we collect a lot of data. We are or 
soon will be collecting ocean current profiles at the deepwater 
sites shown in this figure.
    There are some key inhibitors to cooperation. First of all, 
collecting ocean data is expensive, which, of course, leads to 
the business question: Why should any company give away costly 
data to a competitor? Another issue is liability. For example, 
what happens if we inadvertently release erroneous data to the 
public and someone gets hurt? All of these factors will be 
considered during an offshore operators committee workshop 
planned for early this fall. The workshop will involve all the 
major players, including the oil companies, NOAA, MMS, and IOOS 
organizers.
    Thanks for this opportunity to testify.
    [NOTE: Mr. Cooper's PowerPoint presentation has been 
retained in the Committee's official files.]
    Mr. Gilchrest. Thank you very much, Mr. Cooper.
    Dr. Grassle?

   STATEMENT OF J. FREDERICK GRASSLE, DIRECTOR, INSTITUTE OF 
 MARINE AND COASTAL SCIENCES, RUTGERS, THE STATE UNIVERSITY OF 
                           NEW JERSEY

    Dr. Grassle. Chairman Gilchrest, Mr. Pallone, and members 
of the Subcommittee and staff, thank you for inviting me to 
testify before this Subcommittee on ocean observing systems in 
the United States. I am director of the Institute of Marine and 
Coastal Sciences at Rutgers University. We built the Nation's 
first cable ocean observatory, LEO-15, on the continental shelf 
off New Jersey and have since extended this to become the New 
Jersey Shelf Observing System that provides information on the 
entire New York bight from Delaware to the end of Long Island. 
I have testified before you on this subject in 1989 and 2001, 
and it is a special privilege to speak again today. Since I 
last spoke, the urgent need for better coastal observing 
systems has become even more apparent. Coastal ocean 
observation and prediction systems are relevant to the business 
plans of most coastal business enterprises and are essential 
for improving safety and efficiency of marine operations. 
Information from ocean observing systems improves coastal 
weather forecasts, and economic studies show that better 
coastal forecasts enable the power industry to reduce emissions 
and costs.
    Better ocean prediction is required to mitigate the effects 
of flooding and erosion from hurricanes and other severe 
storms. The ability to sense all aspects of our ocean 
surroundings is important for recreational mariners and the 
U.S. Coast Guard, Navy, and Merchant Marine. New technologies 
for surface current mapping were recently demonstrated to 
improve the Coast Guard's search and rescue capabilities. These 
radar technologies are also being adapted to routinely track 
and identify ships for national security. The sources, fates, 
and effects of pollutants cannot be understood without better 
means for tracking sediment in the ocean. Better methods for 
assessment of fish stocks, ocean habitats, and other natural 
resources will be available through new ocean observing system 
technologies.
    Regional observing systems are taking shape with 
organizations forming in most of the regions of the U.S., as 
you just heard. Observing system development has occurred 
primarily through line-item congressional support for selected 
organizations in specific regions. Legislation is urgently 
needed to fund a coordinated approach that will allow all 
regions to work together and grow in concert. An integrated 
systems of well-established and advanced technologies will 
monitor biological, chemical, geological, and physical 
properties of the ocean for the benefit of our Nation's economy 
and well-being.
    The text of my testimony supports the recommendations from 
the U.S. Ocean Policy Commission and places these in the 
context of the most recent description of IOOS by Ocean.US. 
Legislation is urgently needed to authorize funding for ocean 
and coastal observation systems in the NOAA budget. Within this 
NOAA authorization, at least half of these funds should be made 
available for regional associations to design, implement, 
operate, and improve regional ocean and coastal observing and 
information systems, building on existing assets in U.S. 
coastal waters.
    Regional associations such as the Mid Atlantic Regional 
Association, of which Rutgers University is a member and the 
New Jersey Shelf Observing System is a part, are working to 
integrate existing regional and State-based, federally 
supported coastal programs. LEO-15 and the New Jersey Shelf 
Observing System was guild with support from the National 
Science Foundation, Office of Naval Research, and NOAA's 
National Underseas Research Program. Information about the 
ocean from a broad suite of sensors has been delivered since 
1996.
    I will diverge just a moment from my written remarks. I was 
stimulated by the questions that Chairman Gilchrest addressed 
to the previous panel about how upwelling works in the ocean, 
the causes of hypoxia, and harmful algal blooms. We had the 
opportunity for a brief period, 3 years, with support from the 
Office of Naval Research, to calibrate hyperspectral satellite 
systems to run ocean models on a 3-day basis. Data from the 
ocean was assimilated into models, and predictions were made. 
After each prediction, the system was evaluated and the 
observing system assets were redeployed to optimize 
predictions. At that time we worked in the context of a known 
system of upwelling based on satellite work we had done 
previously, but we were able to predict one moment when a 
harmful algal bloom appeared in the bight in the 3 years of 1-
month observation.
    A lot of the things that happen in the ocean happen as 
infrequent events, and it is only by having systems in place 
for very long periods of time do we understand the processes 
that control these infrequent events.
    I should add that more recently, with support from the 
National Science Foundation, we now have funds for each spring 
for the next 5 years to look at the Hudson River plume. It used 
to be thought that upwelling in our coast was caused by this 
plume. We know now from our studies that this is not so, but 
there is an effect. And with dye studies and the high-frequency 
radar system we have in place, we can pinpoint exactly the 
contribution of this system.
    Advanced data and information systems are the best means 
for integrating all components of the ocean observing system 
and a prerequisite for making data useful to all sectors of the 
economy, government, and the general public. Funding for the 
data management and communications plan is an essential first 
step toward developing this system.
    The establishment of regional coastal ocean observing 
systems is central to the implementation of a more effective 
ocean policy. The coastal economy will run more efficiently 
with information from these systems. Americans living and/or 
vacationing on the coast need to be better informed in order to 
better protect our coastal resources and quality of life.
    [The prepared statement of Dr. Grassle follows:]

   Statement of Frederick Grassle, Director, Institute of Marine and 
     Coastal Sciences, Rutgers--The State University of New Jersey

    Chairman Gilchrest and members of the Subcommittee, thank you for 
inviting me to testify before this committee on Ocean Observing Systems 
in the United States. I have testified before you on this subject in 
1989 and 2001 and it is a special privilege to speak again today. Since 
I last spoke, the urgent need for better coastal observing systems has 
become even more apparent. Coastal ocean observation and prediction 
systems are relevant to the business plans of most coastal business 
enterprises and are essential for improving safety and efficiency of 
marine operations. Information from ocean observing systems improves 
coastal weather forecasts and economic studies show that better coastal 
forecasts enable the power industry to reduce emissions and costs. 
Better ocean prediction is required to mitigate the effects of flooding 
and erosion from hurricanes and other severe storms. The ability to 
sense all aspects of our ocean surroundings is important for 
recreational mariners and the U.S. Coast Guard, Navy, and Merchant 
Marine. New technologies for surface current mapping were recently 
demonstrated to improve the Coast Guard's search and rescue 
capabilities. These radar technologies are also being adapted to 
routinely track and identify ships for national security. The sources, 
fates, and effects of pollutants cannot be understood without better 
means for tracking sediment in the ocean. Better methods for assessment 
of fish stocks, ocean habitats, and other natural resources will be 
available through new ocean observing system technologies.
    Regional coastal ocean observing systems are taking shape with 
organizations forming in most U.S. coastal regions. Observing system 
development has occurred primarily through line-item congressional 
support for selected organizations in specific regions. Legislation is 
urgently needed to fund a coordinated approach that will allow all 
regions to work together and grow in concert. An integrated system of 
well-established and advanced technologies will monitor biological, 
chemical, geological, and physical properties of the ocean for the 
benefit of our Nation's economy and well-being.
    There are many documents describing the U.S. Integrated Ocean 
Observing System (IOOS). The most notable is the Preliminary Report of 
the U.S. Commission on Ocean Policy (Governor's Draft, April 2004). I 
served on the Ocean Commission Science Advisory Panel and I strongly 
support the Commission's recommendations including the establishment of 
a National Ocean Council (Rec. 4-1) and a strengthened and enhanced 
National Ocean Research Leadership Council to be called the Committee 
on Ocean Science, Education, Technology, and Operations (Rec. 4-7). 
Commission Recommendation 5.2 asks Congress to immediately ``establish 
regional ocean information programs to improve coordination and set 
priorities for research data collection, science-based information 
products, and outreach activities in support of improved ocean and 
coastal management. Program priorities should be carried out primarily 
through a grants process.'' The interagency ocean observation office, 
Ocean.US, should be established with a budget appropriate to its 
mission (Rec. 26-3). The Integrated Ocean Observing System (IOOS) 
should be a line item in the National Oceanic and Atmospheric 
Administration (NOAA) budget without fiscal year limitation, and a 
streamlined process for distributing funds to other federal and non-
federal partners should be included (Rec. 26-9). A fund for 
modernization of critical ocean infrastructure and technology needs 
should be established based on an ocean and coastal infrastructure plan 
(Rec. 27-4). Congress should amend the National Ocean Partnership Act 
to establish a federal planning organization for ocean and coastal data 
and information management to be called Ocean.IT (Rec. 28-1).
    The most recent complete description of the U.S. Ocean Observing 
System is the Ocean.US Implementation Plan of IOOS (4 June Draft) 
available at http://ocean.us. Its recommendations are consistent with 
those of the Commission and legislation is urgently needed to authorize 
funding for Ocean and Coastal Observation Systems in the NOAA budget. 
Within this NOAA authorization, at least half of these funds should be 
made available for regional associations to design, implement, operate, 
and improve regional ocean and coastal observing and information 
systems, building on the existing assets in coastal U.S. waters. 
Allocation of funds would be based on guidelines formulated by a newly 
authorized interagency program office (presently Ocean.US under the 
National Ocean Research Leadership Council of the National Ocean 
Partnership Program).
    Regional associations such as the Mid Atlantic Regional Association 
(MARA), of which Rutgers University is a member, are working to 
integrate existing regional and state-based federally-supported coastal 
programs. Perhaps the best example of the possibilities for application 
of ocean observing system technologies comes from the evolving 
observatories spanning the continental shelf off New Jersey. LEO-15, 
built with support from the National Science Foundation and NOAA's 
National Undersea Research Program (NURP), is the nation's first cabled 
observatory and is a pioneer in developing the technologies that have 
led to the NSF's Ocean Observatory Initiative. LEO-15 has been 
delivering information about the ocean from a broad suite of sensors 
since 1996. Support from the Office of Naval Research and the National 
Ocean Partnership Program enabled LEO-15 to evolve into the New Jersey 
Shelf Observing System (NJSOS) which provided spatial data from 
satellites, high-frequency radars, and buoys that can be assimilated 
into predictive numerical models. This coupled observing system was 
demonstrated during experiments in 1998-2001. The Mid-Atlantic Bight 
NOAA NURP program continues to support development of new observing 
system technologies such as a system to measure turbulence at all 
depths and an underwater flow cytometer to continuously measure 
phytoplankton species abundance and composition. Although much has been 
accomplished with research funds, a sustained source of funding is 
needed to operate the system on a continuous basis and to provide 
products to meet user demands.
    The observing system off the coast of New Jersey is also working to 
establish an education community that uses observing system 
information, and builds an observing system workforce. Rutgers and 
other universities are developing Masters Programs in Operational 
Oceanography that will train the operators of future ocean observing 
systems. An NSF-sponsored COSEE program brings scientists and educators 
together to improve public knowledge and understanding of how the ocean 
affects the daily lives of diverse audiences. I support the Commission 
on Ocean Policy recommendation to expand this program (Rec. 8-5). The 
Mid-Atlantic COSEE program features a thematic focus on coastal ocean 
observing systems. Public interest in ocean observations is used to 
develop strategies for improving science instruction among pre-service 
educators and to create a community of lifelong learners familiar with 
the practice of science. The NOAA National Estuarine Research Reserve 
System (NERRS) network has a well-established System-wide Monitoring 
Program for estuarine waters and a strong education program which will 
be integrated into MARA. In New Jersey, the NERRS Coastal Training 
Program uses science-based information from the regional ocean 
observing system to teach school children through highly successful 
teacher training. This program also informs environmental decision-
makers through education and training programs.
    Advanced data systems are the best means for integrating all 
components of the ocean observing system and a prerequisite for making 
data useful to all sectors of the economy, government, and the general 
public. The U.S. Commission on Ocean Policy devoted an entire chapter 
to the importance of a national ocean data and information system. In 
response to the critical need for an integrated data management and 
communications system, the Ocean.US Data Management and Communications 
Steering Committee (DMAC) was formed and an action plan for 
establishing a data and information system has been completed. I served 
on this Committee. Federal agencies, state agencies, academia, and 
regional groups will implement this plan. Funding for the DMAC plan is 
an essential first step toward developing this system.
    The establishment of Regional Coastal Ocean Observing Systems is 
central to the implementation of a more effective ocean policy. The 
coastal economy will run more efficiently with information from these 
systems. The majority of Americans living and/or vacationing on the 
coast want to be informed in order to better protect our coastal 
resources and quality of life.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Dr. Grassle.
    Ms. Brohl?

            STATEMENT OF HELEN A. BROHL, PRESIDENT, 
         NATIONAL ASSOCIATION OF MARITIME ORGANIZATIONS

    Ms. Brohl. Thank you, Mr. Chairman. I thank you and Mr. 
Pallone for inviting us here today to have the opportunity to 
provide testimony regarding the status of ocean observing 
systems in the United States. I am Helen Brohl. I am the 
Executive Director of the United States Great Lakes Shipping 
Association. I am also in my second term as President of the 
National Association of Maritime Organizations, which is a 
coalition of shipping associations and marine exchanges, from 
coast to coast, who promote the safe and efficient navigation 
of commercial vessels through the navigable waters of the 
United States.
    NAMO has been engaged with hydrographic services programs 
under the National Oceanic and Atmospheric Administration's 
National Ocean Service Division. We are founding members of the 
Marine Navigation Safety Coalition. There are over 60 
organizations, including the American Pilots Association, 
Chamber of Shipping of America, INTERTANKO, the World Shipping 
Council, National Ocean Industries Association, and others who 
are members of the coalition. And we would like to thank you 
for your ongoing support of marine navigation monitoring 
programs. You have directly contributed to the increases in 
funding over the years, even though clearly 2005 is going to be 
a challenge for us. But, also, you created the Hydrographic 
Services Review Panel under NOAA, and you affirmed your believe 
in hydrographic monitoring programs for the safe and efficient 
movement of marine commerce through the United States in your 
amendments to the Hydrographic Services Improvement Act in 
2002.
    Many of the maritime organizations involved with the 
coalition have been directly involved in the development, the 
design, and operation of hydrographic observation systems, 
including local partnership cost sharing with NOAA.
    Coalition members work closely with the NOS Office of Coast 
Survey and the Center for Operational and Oceanographic 
Products and Services, COOPS, who develop, operate, and 
maintain hydrographic surveying and observation programs. These 
are the programs that NOAA calls the ``backbone'' of IOOS. The 
maritime sector is extremely dependent upon the observation 
programs provided by COOPS for navigation safety.
    The coalition supports the integration of ocean observing 
systems. We might, however, describe it as ocean and coastal 
observing systems. Most of the critical navigation areas for 
commercial shipping and other maritime operators and most of 
the critical resource management areas are along our Nation's 
coasts rather than in deep ocean areas. In any case, 
integration of data is a practical step for NOAA and the ten or 
so other governmental agencies that monitor and survey our 
waters.
    We believe that a renewed emphasis on hydrographic 
monitoring and its sister--surveying, charting, and mapping--go 
hand in hand with the Marine Transportation System initiative 
and is one of the most direct ways that the MTS can be enhanced 
for safety and security. Subject to appropriations, of course, 
integration and expansion of our ocean and coastal observing 
systems can be done relatively quickly by using existing 
legislative authority under the Hydrographic Services 
Improvement Act of 2002, as amended by your Subcommittee in 
2002. NOAA has stated that the backbone programs of an IOOS or 
an IOCOS, if you include the coastal component, are the 
services currently provided by COOPS.
    The coalition views that using existing authority and 
assuming that Congress provides sufficient funding for the 
Tides and Currents line item and appropriate direction in the 
committee report, NOAA could begin the technical work necessary 
to integrate and standardize data from within NOAA--although I 
understand that within NOS they are already integrated and do 
cooperate with the Weather Service already--and between the 
other agencies for maritime, resource, or research uses. The 
first step involves an inventory of existing departmental 
programs engaged in ocean and coastal water-related monitoring 
and integrating data where appropriate. And it appears that 
Ocean.US has already done that.
    Once the governmental agencies have integrated their data 
and standardized and certified its presentation to the public, 
the Hydrographic Services Improvement Act can also be used to 
expand monitoring points around the country. In fact, take 
systems like GoMOOS and apply them around the country. We view 
the existing national water level observation network already 
under COOPS, which includes over 200 points already in place, 
which could be expanded, as the base from which to go forward 
but using real-time systems as the model. The coalition 
specifically inquired about what it might cost to create real-
time systems around the country, which would include water 
levels, currents, wind, temperature, GPS coordination, et 
cetera--in other words, any data needed for researchers, for 
resource managers, and navigation. The cost is approximately 
$50 million to build the sites and $15 million per year to 
maintain and operate them, and this would be under NOAA COOPS. 
If Congress appropriated the full authorized levels under the 
Hydrographic Services Improvement Act and increased those 
levels even moderately in reauthorization, we would be well on 
our way to realizing that potential in just a few years.
    The HSIA also provides an avenue by which local and 
regional interests can provide direction to NOAA on the type of 
information needed. The amendments of 2002 created the 
Hydrographic Services Review Panel. This is a Federal advisory 
committee to advise NOAA on hydrographic monitoring programs 
and services. This panel is now in place, and we highly 
recommend that the Subcommittee request that NOAA use this 
existing panel to investigate local and regional needs. The 
Federal advisory committee process provides a public forum by 
which local and regional representation could be received and 
an analysis presented to NOAA on those needs.
    This could be coupled with the participation of existing 
organizations in particular--with regional emphasis, including 
the regional MTS committees and local harbor safety committees.
    You asked us to talk about regional systems. The new NOAA 
vision for IOOS includes the creation of regional associations. 
We view these as two very different issues, and we are not sure 
to which you are referring. However, we would consider a system 
to be the physical equipment in place to provide hydrographic 
monitoring.
    In the Great Lakes, we have a regional system. However, 
what this really means is that NOAA upgraded all the entire 
water level gauge sites to become real-time. So, in fact, in 
the Great Lakes, we have a regional system, but it is not a 
regional association. And it is maintained and operated by 
NOAA, which is appropriate.
    Recreational and commercial maritime operations are not 
dependent upon a regional system as much as wanting critical 
navigation points around the country wherever they go to be 
monitored with data that is meaningful and useful. The 
coalition believes that there needs to be real-time monitoring 
systems at all critical navigation areas and supplement those 
with points that are meaningful for research and for resource 
managers.
    As stated previously, we understand that an integrated 
system for all critical points around the country could be 
developed for approximately $50 million and maintained at $15 
million per year and would include information that is 
meaningful for resource as well as research.
    We do not yet understand the advantage of a regional 
association approach, although we have heard a number of good 
reasons today why bringing your information together is 
extremely important. As mentioned, many coalition members are 
already involved in hydrographic monitoring partnerships with 
NOAA. Some have taken the initiative to establish real-time 
data collection installations and at considerable expense. As 
such, marine exchanges, harbor safety committees, MTS 
committees would make excellent regional or local associations 
and coordinators. Being such significant stakeholders, they 
must be invited to the table, and we ask the Subcommittee to 
ask NOAA to present a plan for engaging the maritime sector 
into the grant application process and regional association 
development program.
    Dr. Richard Spinrad, who spoke today, stated in the May 
2004 Sea Technology Magazine article that his vision of IOOS is 
``an overwhelming task.'' The price tag of $700 million or more 
for this new concept is daunting. For almost 8 years, the 
coalition, our safety coalition, has struggled to convince 
Congress that the existing programs as authorized under the 
Hydrographic Services Improvement Act--despite the advantages 
of safer and more secure navigation to the environment and the 
resource management application--deserve full funding. While we 
have seen modest improvements in recent budgets and 
appropriations, the fact is that funding has been considerably 
less than it should be, and perhaps will be less this year. For 
that reason, the coalition is concerned that new regional 
association emphasis on a brand-new research-centered 
integrated system will diminish attention and funding for the 
existing programs upon which maritime safety is so dependent. 
Where does the commercial and recreational maritime community 
fit in this new research-based concept? How will navigation 
safety be a priority if the budgetary emphasis is on creating a 
new concept?
    We recognize that research, especially with regard to the 
development of new technologies, is an important partnership. 
NOAA already works with the private sector to adapt technology 
for broader hydro monitoring needs. In fact, air gap technology 
which NOAA has now put on to bridges for maritime air gap use 
was adapted technology taken from oil platforms. NOAA also 
works in partnership with universities such as the University 
of New Hampshire in the bathymetric surveying program.
    This and other academic partnerships are funded through the 
Hydrographic Services Improvement Act which the coalition has 
consistently supported. We recognize the academic research 
component in hydrographic monitoring but question the direction 
in NOAA to use academic institutions to determine the hydro 
monitoring needs of commercial and recreational maritime 
operations. How many professors pilot 100,000-ton vessels or 
work routinely with the industry?
    Once again, the coalition supports the integration of ocean 
and coastal observing programs. However, we ask the 
Subcommittee to build from existing programs to integrate and 
enhance hydrographic monitoring in the United States and with 
other nations.
    Thank you very much.
    [The prepared statement of Ms. Brohl follows:]

 Statement of Helen A. Brohl, Executive Director, National Association 
  of Maritime Organizations on behalf of the Marine Navigation Safety 
                               Coalition

    Chairman Gilchrest and members of the House Subcommittee on 
Fisheries Conservation, Wildlife and Oceans, we thank you for the 
opportunity to provide testimony at the oversight hearing on the status 
of ocean observing systems in the United States. I am Helen A. Brohl, 
the Executive Director of the United States Great Lakes Shipping 
Association which celebrates almost fifty years of service in the Great 
Lakes representing vessel agents and the owner/operators of vessels 
engaged in international trade to U.S. Great Lakes ports. I am also 
serving my second term as the president of the National Association of 
Maritime Organizations (NAMO) which is a coalition of shipping 
associations and marine exchanges--from coast to coast--who promote the 
safe and efficient navigation of commercial vessels through the 
navigable waters of the United States.
    For the past ten years, NAMO has been engaged with hydrographic 
services programs under the National Oceanic and Atmospheric 
Administration's (NOAA) National Ocean Service (NOS) Division. We are 
founding members of the Marine Navigation Safety Coalition (the 
Coalition) and I am currently the national coordinator. Previous 
coordination leadership has been by the American Association of Port 
Authorities and the National Mining Association. There are over 60 
additional organizations involved with the Navigation Safety Coalition 
including the American Pilots Association, Chamber of Shipping of 
America, INTERTANKO, the World Shipping Counsel, National Ocean 
Industries Association, and the Maryland Port Administration. 
[Membership list attached].
    NAMO and the Safety Coalition testified at your hearing in 
September 2001 regarding the reauthorization of the Hydrographic 
Services Improvement Act of 1998. Many of the maritime organizations 
involved with the Coalition have been directly involved in the 
development, design and operation of hydrographic observing systems, 
including local partnership cost sharing with NOAA.
    Coalition members work closely with the NOS Office of Coast Survey 
and the Center for Operational and Oceanographic Products and Services 
(COOPS) who develop, operate and maintain hydrographic surveying and 
observation programs, respectively. These are the programs that NOAA 
calls the ``backbone'' of IOOS. Maritime is extremely dependent upon 
the observation programs currently provided by NOAA for safe 
navigation. It was at the request of maritime that COOPS integrated air 
gap technology on two bridges between Baltimore and the Delaware River 
and one on the Mississippi River which provides critical vessel 
clearance information to the pilot house. NOAA also intends to install 
three air gap gauges on the Verrazano Narrows Bridge so the Queen Mary 
2 can safely transit New York Harbor. Working with Great Lakes maritime 
interests, COOPS upgraded the 52 water level gauges in the Great Lakes 
to real-time and provides that information online, by phone and by 
radio. This is a typical example of how maritime currently works with 
NOAA to identify navigation needs and utilize the latest technologies 
to provide for safer maritime commerce.
    The Coalition supports the integration of ocean observing programs. 
We might describe this concept, however, as ocean and coastal observing 
programs. Most of the critical navigation areas for commercial shipping 
and other maritime operators and most of the critical resource 
management areas are along our Nation's coasts rather than in deep 
ocean areas. In any case, integration of data is a practical step for 
NOAA and the ten or so other governmental agencies that monitor and 
survey our waters. This can prevent the duplication of data collection, 
standardize the data domestically and in coordination with the 
International Hydrographic Organization, and make it available to a 
larger number of stakeholders where appropriate.
    We believe that a renewed emphasis on hydrographic monitoring and 
its sister--surveying, charting and mapping--go hand-in-hand with the 
Marine Transportation System initiative and is one of the most direct 
ways that the MTS can be enhanced for both safety and security. Subject 
to appropriations, of course, integration and expansion of our ocean 
and coastal observing systems could be done relatively quickly by using 
existing legislative authority under the Hydrographic Services 
Improvement Act of 1998 (HSIA) as amended by legislation recommended by 
your Subcommittee in 2002. NOAA has stated that the ``backbone'' 
programs of an IOOS or IOCOS (to include the coastal component) are the 
services currently provided by COOPS, which provides water level data, 
tides and currents, storm surge updates, and the real-time information 
under the Physical Oceanographic Real Time Systems or ``PORTS.'' When 
you're on a beach vacation, you might look up the tide chart in the 
local newspaper. This is generated from COOPS. The maritime sector 
accesses the broader range of information from COOPS online, by phone, 
or by radio.
    The Coalition views that using existing authority, and assuming 
that Congress provides sufficient funding for the ``Tides and 
Currents'' line item and appropriate direction in the committee report, 
NOAA could begin the technical work necessary to integrate and 
standardize data from within NOAA and from other agencies for maritime, 
resource, and research uses. The first step involves an inventory of 
existing departmental programs engaged in ocean and coastal water-
related monitoring and integrating data where appropriate. Within NOAA, 
for example, the National Weather Service uses buoy data, COOPS uses 
water level gauges and PORTS sites, the Geodetic department 
investigates geospatial data for shoreline and coastal zone change 
analyses, among others. The Subcommittee might first ask NOAA to 
explain how information is being integrated for presentation under the 
current mechanisms.
    The maritime sector also uses water levels data monitored by the 
Army Corps of Engineers and the U.S. Geological Survey. We believe that 
the NOAA should be the primary organization responsible for 
hydrographic monitoring and predictions for maritime because portals 
are already in place for ready access. We understand that Congress 
mandated a partnership between Navy and NOAA with regard to the 
``National Oceanographic Partnership'' program. Perhaps this can be 
expanded to include other interdepartmental partnerships and promote 
the mutual presentation of data for ready access under the existing 
commercial maritime access portals in COOPS.
    Once the governmental agencies have integrated their data and 
certified its presentation to the public, the HSIA can also be used to 
expand monitoring points around the country. We view the existing 
national water level observation network as the base from which to go 
forward but using real-time systems as the model. The Coalition 
specifically inquired about what it might cost to create real-time 
systems around the country which would include water levels, currents, 
wind, temperature, GPS coordination, etc.--any data needed for 
researchers, resource managers, and navigation interests based upon 
regional and local needs. The cost is approximately $50 million to 
build the sites and $15 million per year to maintain and operate them. 
If Congress appropriated the full authorized levels under the HSIA and 
increased those levels even moderately in reauthorization, we would be 
well on our way to realizing that potential in just a few years.
    The HSIA also provides an avenue by which local and regional 
interests--from navigation, resource management or research--can 
provide direction to NOAA on the type of information needed. The HSIA 
amendments of 2002 created the ``Hydrographic Services Review Panel'' 
(a FACA) to advise NOAA on hydrographic monitoring programs and 
services. This Panel is now in place and we highly recommend that the 
Subcommittee request that NOAA use this existing Panel to investigate 
local and regional needs. The federal advisory committee process 
provides a public forum by which local and regional representation 
could be received and an analysis presented to NOAA on those needs.
    This could be coupled with the participation of existing 
organizations in particular regional MTS committees and local harbor 
safety committees. In every case with which we're familiar, the 
regional MTS committees already include commercial maritime, 
recreational boating, environmental interests, and government 
representatives such as U.S. Coast Guard, the Corps of Engineers, and 
NOAA. Harbor safety committees also are an excellent and quick source 
for recommendations on exactly what data points are needed to enhance 
the safety and security of a local harbor. There is a HSC in every 
major port in the country.
    You asked us to talk about ``regional systems.'' The new NOAA 
vision for IOOS includes the creation of ``regional associations.'' We 
view these as two different issues and we are not sure to which you are 
referring. We would consider a ``system'' to be the physical equipment 
in place to provide hydrographic monitoring. There are no ``regional 
systems'' in place for hydrographic monitoring except in the Great 
Lakes but it could be more correctly called a regional program. Because 
of directed funding by the Great Lakes Congressional delegation, the 
existing water level gauge system across the region has been expanded 
and those gauges enhanced for real-time observations. With just a bit 
more funding, the entire Great Lakes could be wired for multi-
dimensional hydrographic monitoring which would satisfy everyone's 
needs. This work was done in a relatively short time and for relatively 
little cost and addressed the need for real-time data under a state of 
critical low water levels which threatened the safety of maritime 
navigation. The Great Lakes regional system was built and is maintained 
and operated by NOAA. The Great Lakes maritime sector wants to stay on 
this path with funding through the 2003 amendments to the HSIA as 
proposed in H.R. 958 and supported by this Subcommittee. The Coalition 
believes that this concept could and should be applied to the entire 
country through NOAA's National Water Level Observation Network and the 
PORTS program. The HSIA specifically provides for NOAA development, 
maintenance and operation of real-time systems around the country.
    The Great Lakes system may be referred to as regional because all 
the NOAA monitoring sites in the region were upgraded together. But 
NOAA operates the systems and presents the data which we believe is 
appropriate. Recreational and commercial maritime is not dependent upon 
a ``regional system'' as much as wanting critical navigation points 
anywhere around the country to be monitored with data that is 
meaningful and useful. Frankly, the type of information needed should 
be determined more locally than regionally. The Coalition believes that 
there needs to be real-time monitoring systems at all critical 
navigation areas. As stated previously, we understand that an 
integrated system for all critical points around the country could be 
developed for approximately $50 million and maintained at $15 million 
per year and would include information that is meaningful for resource 
managers and research institutions.
    We understand that NOAA has a new vision of integrating 
hydrographic monitoring which is very different than the programs we've 
already mentioned. NOAA has provided 11 grants at $100,000 each to 
academic institutions around the country to develop ``regional 
associations'' that would set policy, determine regional needs, and 
even provide the hydrographic monitoring services. It is a concept that 
the Coalition has yet to fully understand as being advantageous to the 
existing program. NOAA has only recently engaged maritime in the 
discussion and we look forward to learning more. As mentioned, many 
Coalition members are already involved in hydrographic monitoring 
partnerships with NOAA. Marine exchanges, harbor safety committees, and 
MTS committees would make excellent regional or local associations and 
coordinators and must be invited to the table. We ask the Subcommittee 
to ask NOAA to present a plan for engaging maritime into the grant 
application process and regional association development program.
    The Coalition has additional questions about NOAA's vision for 
IOOS. It is presented as being quite massive. Dr. Richard Spinrad 
(assistant administrator for NOS) stated in the May 2004 Sea Technology 
Magazine that it is ``an overwhelming task.'' The price tag of $700 
million for this new concept is daunting. The Coalition has struggled 
to convince Congress that the existing programs as authorized under the 
HSIA--despite the advantages of safer and more secure navigation to the 
environment as well as economy--deserve full funding. Under limited 
appropriations dollars, the Coalition is concerned that a new regional 
association emphasis on a brand new research-centered integrated system 
will diminish attention and funding for the existing programs upon 
which maritime is so dependent. In particular, we believe that the 
existing ten PORTS sites around the country deserve $3 million in 
federal assistance for yearly operations and maintenance. NOAA has, 
thus far, rejected that notion in their annual budget recommendations, 
but proposes to create a $700 million program of which $350 million 
will go to academia for research. Additionally, due to limited 
appropriations, NOAA has not been able to provide monitoring or 
charting and mapping specifically directed to the 700,000 + 
recreational boaters in this country. Where does the commercial and 
recreational maritime community fit in this new research-based concept 
and how will Congress preserve the core programs?
    We recognize that research, especially with regard to the 
development of new technologies, is an important partnership. NOAA 
already works with the private sector to adapt technology for broader 
hydro monitoring needs. The air gap technology used on the bridges was 
adapted from technology developed privately for oil platforms. NOAA 
also already works in partnership with universities such as the 
University of New Hampshire in the bathymetric surveying program. This 
and other academic partnerships are funded through the HSIA which the 
Coalition has consistently supported. We recognize the academic 
research component in hydrographic monitoring but question the 
direction in NOAA to use academic institutions to determine the hydro 
monitoring needs of commercial and recreational maritime operations. 
How many professors pilot 100,000 ton vessels or work routinely with 
the industry?
    Once again, the Coalition supports the integration of ocean and 
coastal observing programs. However, we ask the Subcommittee to build 
from existing programs to integrate and enhance hydrographic monitoring 
in the United States and with other nations. The International Maritime 
Organization states that there are four cornerstones of a hydrographic 
office. They are:
    <bullet>  To ensure that hydrographic surveying is carried out in a 
manner adequate for safe navigation,
    <bullet>  To prepare and issue nautical charts, sailing directions, 
lists of lights, tide tables, and other nautical publications, where 
applicable, satisfying the needs of safe navigation,
    <bullet>  To promulgate notices to mariners in order that nautical 
charts and publications are kept up to date; and
    <bullet>  To provide data management arrangements to support these 
services.
    Resource management information should be incorporated as a 
positive byproduct of a national program to monitor critical 
navigational areas and technology research is an integral partner to 
provide more and better ways to meet the four cornerstones. The 
maritime sector is the keystone in a program of hydrographic monitoring 
and modernization for the 21st century.
    We thank you again for the opportunity to provide testimony at this 
oversight hearing and would be pleased to answer any questions. 
Contact: Helen A. Brohl, 973-345-2534, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="710402161d02103112025f121e1c5f">[email&#160;protected]</a> A list of 
coalition members is following.

                  MARITIME NAVIGATION SAFETY COALITION

                               membership

                American Association of Port Authorities

                 American Great Lakes Ports Association

               American Institute of Marine Underwriters

                       American Maritime Congress

                      American Petroleum Institute

                      American Pilots Association

                      American Waterways Operators

                           Aqua Survey, Inc.

                 Association of Ship Brokers and Agents

              Boat Owners Association of the United States

                      Boston Shipping Association

                           C & C Technologies

                        Canaveral Port Authority

                     Chamber of Shipping of America

             Columbia River Steamship Operators Association

                    Connecticut Maritime Association

                     Delaware River Port Authority

                      Dominion Terminal Associates

                      Duluth Seaway Port Authority

                         Great Lakes Commission

                  Greater Baton Rouge Port Commission

                   Greater Houston Port Bureau, Inc.

                   Hampton Roads Maritime Association

                               INTERTANKO

                 International Council of Cruise Lines

                   Jacksonville Maritime Association

    Joint Institute for Marine Observations, Scripps Institution of 
                              Oceanography

                       Lake Carriers Association

                           LCMF Incorporated

             Maritime Association of the Port of Charleston

               Maritime Association of the Port of NY/NJ

                 Marine Exchange of Southern California

                 Marine Exchange of the West Gulf, Inc.

            Maritime Exchange of the Delaware River and Bay

             Maritime Information Service of North America

                     Marine Exchange of Puget Sound

                      Maryland Port Administration

                      Massachusetts Port Authority

                       Matson Navigation Company

              Mississippi State Port Authority at Gulfport

             National Association of Maritime Organizations

               National Industrial Transportation League

                      National Mining Association

                 National Ocean Industries Association

                  National Waterways Conference, Inc.

                      Passenger Vessel Association

            Pilot Association of the Bay and Delaware River

                           Port of Galveston

                       Port of Houston Authority

                Port Authority of New York & New Jersey

                          Port of Los Angeles

                            Port of Richmond

                           Port of Sacramento

                         Port of San Francisco

              Puget Sound Steamship Operators Association

                     Savannah Maritime Association

                  South Carolina State Ports Authority

                     South Jersey Port Corporation

                   Steamship Association of Louisiana

                          Tampa Port Authority

                           Terra Surveys, LLC

                     Thales Geosolutions (Pacific)

                        The Fertilizer Institute

                        Transportation Institute

             United States Great Lakes Shipping Association

                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Ms. Brohl.
    I have been trying to absorb your testimony so I can 
understand your perspective based on your comments dealing with 
the Hydrographic Services Improvement Act as we move forward 
with the whole ocean observing system to have it integrated. Do 
you see your role in this with the hydrographic survey system 
that is now in place being an integrated part of the ocean 
observing system that we have been discussing here with the 
previous panel and this panel? For example, Mr. Richert and a 
number of people here have talked about an ocean observing 
system which is pretty vitally important for surface 
windstream, flow, temperature, salinity, coastal sea level 
topography, waves, currents, habitat, plankton abundance, and 
all those other things. Do you see your part of this as a 
system being fully integrated in that ocean observing system? 
Or do you see the problems that you face with your kind of data 
as somewhat separate from the whole integration of this system?
    Ms. Brohl. Thank you--
    Mr. Gilchrest. And I will let you answer that, but I 
suppose--I want to ask Mr. Cooper a question about the oil 
platforms already there and his suggestion that you could use 
that platform to hold one of the systems for ocean observing 
technology or a buoy, but you have a platform out there, so 
some of these ocean observing systems could be placed right on 
that platform. And that particular buoy or piece of equipment 
would do the full range of things, from temperature to wind to 
algal blooms, to you name it. Do you see that also doing this 
hydrographic survey?
    Ms. Brohl. I think there are two issues on the table in 
this discussion about an integrated ocean system. One is the 
need to integrate data so it can be made available to more 
users and stakeholders and become more value-added. It makes a 
lot of sense to integrate. You do avoid the duplication of 
effort. You perhaps spend your money more wisely. It makes a 
lot of sense in that regard, and we are all on the same page 
when it comes to wanting to integrate data, and integrate first 
the data within the government and then, I am sure, integrate 
data that private sector universities are doing. So, again, it 
becomes more valuable to a greater number of users and 
stakeholders.
    I think where we diverge is the method by which we would 
create an integrated system. We heard a lot about research, and 
I think there is the research component in discussions of 
integrated systems and then there is the actual integration. We 
are very much interested in the actual integration of systems 
and creating a system that is available everywhere you need it.
    In maritime right now, the only time we have, other than 
water level gauges--in the Great Lakes we are a little bit 
different. We have some added funding there to upgrade our 
water level gauges to be real-time. But around the country, the 
only place that you have, let's say, real-time in the physical 
oceanographic real-time system, more like a GoMOOS, is where we 
actually paid for it ourselves. And we have been proponents of 
full Federal funding for real-time systems. And we believe that 
you could have them around the country, and we believe that 
there could be a base of information that is provided from 
those. And then where you need additional information that 
feeds very special interest needs could be dealt with 
separately.
    We believe that platforms that provide basic information 
could be done under the Hydrographic Services Improvement Act. 
We believe that data could be made available--would be made 
available because it is now under NOAA's standards. You can go 
online to get this information. But instead of getting perhaps 
10 port sites online and the water level gauges around the 
country updated every 8 hours or 7 hours, and the Great Lakes 
updated every 6 minutes, you would have a more dynamic system 
around the country, and everybody could take advantage.
    Now, I believe that probably research interests could use 
the maritime stuff more than we could use the research stuff 
because their needs are far greater. We do not necessarily need 
to know the invasive species--someone mentioned that. We do not 
want to--
    Mr. Gilchrest. So do you think the example that--Mr. 
Richert in Maine described his system going from natural gas--
location of natural gas plants to cod larvae to salmon tracking 
studies to shipping. Do you think his system, GoMOOS, is a good 
example for how we would want to proceed with integrating this 
whole ocean observing system and then funding it? Is that a 
good--
    Ms. Brohl. Absolutely. As a matter of fact, his testimony 
was ideal because it does show you the multidimensional aspects 
of real-time oceanographic observing systems.
    Mr. Gilchrest. Can you tap into Mr. Richert's system?
    Ms. Brohl. I do understand that the pilots in Maine do tap 
into that information and are used for navigation safety, 
absolutely. And I do not know whether you might call that a 
port site, which frankly is a red flag in appropriations 
committees, or whether you call it real-time monitoring 
systems. And they have a lot of--perhaps more bells and 
whistles than everybody needs everywhere around the country 
because you do not need everything. You do not need every 
single bell and whistle on every single site, which I think is 
what you would want to do in finding out what your local needs 
are to tailor-make. But, yes, ideally we would love to have 
GoMOOS at all the 300 critical areas around the country that 
estimates say could be done for $50 million total and $15 
million per year to maintain.
    Mr. Gilchrest. Does Mr. Richert have the right bells and 
whistles in Maine?
    Ms. Brohl. As long as he has them for Maine, that is the 
important thing.
    Mr. Gilchrest. Mr. Richert, do you in your system have data 
collection for salinity and freshwater inputs? Do you have some 
data on the kind of salinity that ebbs and flows in your 
system?
    Mr. Richert. Yes, we measure salinity at all of our buoy 
sites. Now, we do need to integrate and are in the process of 
integrating into our information system data on freshwater 
flows that might come from stream gauges and the like. You 
know, the big challenge is integrating all these data sources, 
distributed data sources into a synthesized product. And we are 
in the process of doing that. That is what our Ocean Data 
Partnership is all about.
    Mr. Gilchrest. Does the maritime industry, the shipping 
industry, use that data?
    Mr. Richert. Yes.
    Mr. Gilchrest. I am almost--actually, I am pretty over my 
time because we did not turn the light on until I was talking 
already for about 10 minutes, so I have a few other questions, 
but I will yield to the gentleman from New Jersey.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask about the need to authorize a national 
ocean observation system, again about the funding, which I 
think we have to constantly address and also the U.S. Ocean 
Commission recommendations. And anybody can answer this.
    All of you testified as participants or users of existing 
regional ocean observation programs or comparable Federal, 
State, or university-based observation programs. And, in 
general, all of you are very enthusiastic about the potential 
benefits that an integrated national ocean observation system 
might produce. But that said, if the Congress were to take no 
action to authorize a national ocean observation system, what 
would be the effect on existing programs, either those 
established and operating today or those on the planning board? 
And along with that, what can be done to better inform the 
Congress of the multiple benefits of an integrated ocean 
observation system?
    Again, I go back to why there is not more support for that 
kind of initiative. You do not all have to answer. I mean 
whoever--
    Mr. Richert. I will give it a first shot. If we continue as 
we have over the last 5 or 7 years, some longer and many 
shorter, with building ocean observing systems based on 
earmarks, year-to-year earmarks, we will not have a system, 
period. We must have authorizing legislation, hopefully leading 
to appropriations. We need to get away from the funding 
methodology of earmarks. It would be--imagine the National 
Weather Service living on year-to-year earmarks. We would not 
have a system. The system depends on long-term reliability, the 
ability for people to know with certainty that the data are 
there day in, day out, year in, year out. And you cannot build 
a system based on the way that we are doing it now. It is a 
very high-risk way of doing it. So we have got to have 
authorizing legislation and hopefully leading quickly to 
appropriations.
    Mr. Gilchrest. Dr. Grassle?
    Dr. Grassle. Our system is not supported by earmarks. We 
have been supporting it by research projects where we compete 
nationally for funding for specific research projects. This 
means that our system, the part of our system which we try to 
maintain throughout the year in real-time is something that we 
support on the side, university funds and bits and pieces of 
the systems that are needed to support research.
    This cannot be sustained. We have been very lucky in our 
ability to compete for research funds, but we cannot run a 
year-round system. My colleagues tell me that the high-
frequency radar system that we have been running for the entire 
continental shelf, which the Coast Guard finds useful and I 
believe the maritime industry finds very useful. We have had 
two workshops with the maritime industry associated with the 
Port of New York and New Jersey, and they have talked to us 
about the various systems that they need. And that is one 
technology which gives currents in real-time that is generally 
useful both for ocean prediction, improving weather forecasts, 
and more specifically related to transport within the harbor.
    We also make available satellite data out over the Internet 
for a constellation of satellites. These data are also useful 
for a wide variety of users. We cannot sustain that without 
some support for operational systems. It is not possible to 
maintain the systems that are needed by industry, by the 
public, on the basis of research funds, and so in that sense I 
agree with Ms. Brohl that the issue is not funding research. 
The issue is trying to provide the operational systems that are 
called for by industry and the general public.
    Mr. Pallone. You know, I might go on to the second set of 
questions because it relates to a lot of what you are saying, 
and then ask Ms. Brohl to cut. But I was going to ask, in 
addition, in terms of the funding aspect, you know, whether or 
not we can talk about creating a national system without first 
determining whether a dedicated source of revenue would be 
available. And then, you know, the question gets to be, you 
know, do you really think that we can sustain a national system 
based on regional programs with annual appropriations, you 
know, which is constantly competing with other Federal programs 
as opposed to a dedicated source of funding. You do not have to 
comment on that, but that was sort of my next question.
    And then, of course, the third part of that is, you know, 
whether user fees could be used to generate funds to operate a 
national system. These are just different possible funding 
sources in the overall context of whether we should be 
authorizing a national system.
    Ms. Brohl. Thank you for letting me jump in. We really 
appreciate the discussion about how to be more effective in 
providing real-time systems. The coalition believes there is 
already authorizing language, is authorizing law that does 
provide for this. In fact, the Hydrographic Services 
Improvement Act Amendments of 2002 includes that the--under 
Section 103(a)(4) says clearly, ``The Administrator of NOAA 
shall''--subject to availability of appropriations, of course--
``design, install, maintain, and operate real-time hydrographic 
monitoring systems.'' It also provides it under the Tides and 
Currents line item under NOAA.
    Now, the numbers are not large. The authorized amount for 
2005 is $30 million. It was $27.5 million in 2004. We received 
$21.97 million.
    The problem has laid in the fact that it clearly says that 
the Administrator shall fund these, but it has been NOAA's 
policy, the Department of Commerce's policy, OMB's policy, that 
they will not do that, that they will not design, install, 
maintain. They design them. They help install them under a 
``partnership,'' but the partnership is one of quality control 
and being able to funnel that information into a central 
source, which is great, but in effect, it is local pay will 
oversee.
    It is the coalition's position that, in fact, the Federal 
Government should provide this information, because we do not 
believe that safe navigation should be a privilege by whoever 
can pay locally, but it should be a right. And, in fact, in 
maritime, you have navigation byways that are critical 
navigation areas, but they are not necessarily run by a port 
authority or there is not a coalition nearby. They may be along 
a major river, but who is going to be responsible for getting 
the money together for that major river?
    And we have long felt that this should be something funded 
by the Federal Government. And in terms of not having money, 
the port site, which is the real-time oceanographic site that a 
lot of people use in the Philadelphia-Delaware region, is now 
not working. It got shut down because they could no longer come 
up with their money to pay for it because it is a couple 
hundred thousand dollars a year.
    So it is not just building them. It is creating them. And 
we believe that if NOAA would take it upon themselves to 
implement a national plan to integrate through creating systems 
around the country similar to the GoMOOS platform or PORTS or 
real-time monitoring systems, however you want to describe it, 
it could be done in a very logical sense without huge--without 
these hundreds of millions of dollars. And then locally you 
determine where you add more bells and whistles to meet local 
needs, whether it is for resource management or whether it is 
for navigation or whether it is for research.
    Mr. Pallone. OK. I can go on in the second round after you, 
Mr. Chairman.
    Mr. Gilchrest. All right. Thanks, Mr. Pallone.
    Mr. Richert, can you give us some examples of how you fund 
your ongoing program? Is it through members that pay dues?
    Mr. Richert. It has been primarily through the generosity 
of Congress.
    Mr. Gilchrest. The people that use your information--
    Mr. Richert. It is a free and open basis.
    Mr. Gilchrest. Free and open basis.
    Mr. Richert. All across the Internet. We have a membership 
base. We came together as a membership organization, users, 
educators, and others who wanted to use this data, and they all 
pay a fee, from $500, to $10,000 a year, to be members. But 
they--we--all understand that we do not have any proprietary 
rights to the data collected as a result of that.
    Mr. Gilchrest. How many people--I do not know. I guess I do 
not want to call that ``dues,'' but you have people that pay 
from $500 to several thousands of dollars?
    Mr. Richert. Ten thousand dollars a year.
    Mr. Gilchrest. Ten thousand, and--
    Mr. Richert. To be members of developing an ocean observing 
system.
    Mr. Gilchrest. Why did they pay the money?
    Mr. Richert. They paid because they knew that they had to 
have data that no one of them could provide, that by paying 
those dues they could create an organizational structure that 
could seek the funds to create the system.
    Mr. Gilchrest. So they originally came in to pay those dues 
to create the structure of GoMOOS.
    Mr. Richert. That is right.
    Mr. Gilchrest. Which then subsequently received money from 
the Federal Government.
    Mr. Richert. And to be part of this governance, so they 
helped to design the system.
    Mr. Gilchrest. I see.
    Mr. Richert. But we then--we get 90 percent of our funds--
we have gotten 90 percent of our funds from earmarks over the 
last 4 years.
    Mr. Gilchrest. So you could not function without Federal 
earmarks.
    Mr. Richert. We could not, absolutely not. We also get 
funds from States. Our State, my State of Maine, has now 
provided us funding for some near-shore buoys, and we are 
working with the State government on a bond issue for marine 
infrastructure, of which we will be a part. I was director of 
the State Planning Office at the time that the system was being 
created, and my office provided through State dollars all of 
the planning money so that, you know, for the 18 months 
necessary to research the marketplace, to understand 
feasibility, to put together contracts--all of the logistics 
leading up to establishing the Gulf of Maine Ocean Observing 
System.
    So, you know, a fair amount of resources come from other 
places, but the actual operations, which are $3 to $4 million a 
year, there is no place to turn other than the Federal 
Government for this. And since it is serving a purpose that is 
very consistent with a nationwide coastal environment, very 
much like the Weather Service, we think that it is money well 
spent.
    Mr. Gilchrest. So you are comparing this to the National 
Weather Service as far as data to the general public, and you 
receive some monies from membership, which, as you said, makes 
up about 10 percent of the entire budget. And I am just trying 
to figure out how we are going to proceed here because a 
national program is going to be pretty tough to push through 
this peculiar mesh of members.
    Mr. Richert. I understand.
    Mr. Gilchrest. There are people who pay for membership.
    Mr. Richert. Yes.
    Mr. Richert. And I guess I am trying to figure out a way if 
it is possible to expand the number of people that use the 
system, whether it is lobstermen or a Greek ship coming in, or 
whoever, to bring in a few more dollars on the local level to 
add to the Federal dollars which are probably going to be 
inevitable.
    Mr. Richert. Yes.
    Mr. Gilchrest. Is it technically feasible since this 
information is on the Internet, is it technically feasible--
    Mr. Richert. It is probably technically feasible, but it 
would be a great discouragement to the lobsterman who is out, 
you know, 2 miles and needs some data now, and now can call 
Dial-A-Buoy through the NOAA system and get the data they need.
    It is certainly important, I think, as Dr. Spinrad said 
earlier, to think in terms of the value-added products that 
private industry is and will create out of this data to sell in 
a proprietary manner to all manner of industry. And that is 
great. But what we are producing really is a public good, just 
as the National Weather Service data is a public good. And by 
public good, I do not mean simply it is in the public interest; 
rather, I mean it is a good that is out there that, when 
consumed by somebody, is left in as good a condition for the 
next person to consume. And under those circumstances, you will 
not get one sector paying for it because of all the free riders 
that will be in the system.
    If that were the system that worked, we would have the 
agricultural industry and the air industry paying for the 
entire National Weather Service. And, of course, that is not--
that would be ludicrous, and it is not happening.
    So this is a public good. We need to recognize it as a 
public good which has a Federal backbone component. It has a 
regional enhancement component to be customized to various 
regional needs. And there needs to be--and the Federal 
Government simply is going to, if we value this--and I hope 
that the return on investment will demonstrate how important it 
is. There will, in fact, be Federal authorizations and 
appropriations.
    Now, I think, you know, over the last year, if you added up 
what is coming through earmarks primarily to the various 
nascent observing systems, it is beginning to approach $50 
million, from NOAA and from ONR primarily, you know, somewhere 
in the $40 to $50 million range. I would just strongly 
recommend consideration of consolidating all those earmarks.
    Mr. Gilchrest. You are saying the potential costs for a 
national integrated ocean system would be in the neighborhood, 
at least to start off with, the same level of earmarks, which 
is about $50 million?
    Mr. Richert. No, it is going to be more than that.
    Mr. Gilchrest. Could you do it for $100 million? We are 
having an auction here.
    [Laughter.]
    Mr. Richert. The initial estimate was about $138 million.
    Mr. Gilchrest. I see.
    Mr. Richert. For the first year, and then it ramps up. But 
I do think that it would be possible, if we need to start 
small, to start in the $50 to $100 million range, to have 
competitive programs for which the aspiring regional 
associations might compete, to define some pilot kinds of 
efforts in different parts of the country, at different stages 
of maturity, and see what we can learn out of those things as 
we aim toward more complete funding on the out-years.
    Mr. Gilchrest. So that sounds like an interesting proposal, 
an evolving process to get the kinks out, a few pilot projects, 
see how the system would work.
    I think another thing you all might want to think about, as 
we will try to think about it here along with everything else 
that we do with Iraq and Afghanistan and prescription drugs for 
seniors and funding highway projects--God knows what else. On a 
number of issues that we deal with here, we have a dedicated 
source of revenue that helps with that. I know it would be a 
little difficult for this, but is it possible to have a 
dedicated revenue stream that would be part of the resources 
made available to create this pilot project for an ocean 
observing system?
    I want to ask Ms. Brohl one other question. This is not a 
loaded question. Would your association be willing to pay for 
some of this information on an ongoing basis as members of some 
sort?
    Ms. Brohl. Our members already pay for it. As a matter of 
fact, because NOAA has specifically denied--or has specifically 
made it their policy not to fund real-time monitoring systems, 
those 10 port sites around the country which were created by 
maritime are paid for by maritime to maintain.
    Mr. Gilchrest. Annual dues of some sort?
    Ms. Brohl. No. Basically, everybody goes into the pockets. 
It might be a port authority put up a major chunk of the money. 
And it could be the marine exchanges. But the fact of the 
matter is that the--I think the one in Tampa was languishing. 
The hardware was falling apart. They could not maintain it. The 
one in the Delaware River is now shut down because they cannot 
come up with the money locally anymore. It really is like 
trying to squeeze blood.
    From the maritime vessel side, GAO did an analysis on how 
many user fees are already paid by the commercial cargo ships 
that provide 95 percent of the trade to the United States, and 
they pay over 120 user fees already, not the least of which is 
hundreds of millions of dollars that go into the Harbor 
Maintenance Trust Fund that are just sitting there. That is 
supposed to go for dredging, but we know that there are ports 
on the west coast that do not really have dredging needs and 
would like to see fund used for other uses
    We from the coalition have dabbled with the idea of trying 
to get consideration of those hundreds of millions of dollars 
for these kind of things that impact the safety, the navigation 
safety of a harbor. And, of course, it becomes this--it is a 
very difficult subject as soon as you gets ports with different 
needs involved in the issue. However, maritime does pay for--
ultimately pay for the dredging. They pay for all these things. 
And with all due respect, I know that more port sites are going 
online. One just came on in Tacoma. I know that the individual 
who directs the PORTS effort in NOAA is out every day on the 
road, almost, bringing in people all the time who are 
interested in participating.
    The long-term prognosis, though, for that I think is grim, 
and I think that Mr. Richert said it very well, that if in the 
end in the long run you are doing it individually, piecemeal, 
is it as effective? Can you maintain it? Are you really then 
going toward an integrated system? And isn't that the point of 
this discussion, that we really want an integrated system and 
we are all on the same page?
    We already have in place a mechanism to do that. That is 
under the COOPS program. We really believe that the GoMOOS 
program should be incorporated into that. They get their 
earmark from ONR. The Great Lakes gets their earmark from the 
Hydrographic Services line item. In the end, we have so many 
good examples. We have models in place. We have--I think it is 
really basically a go, and all it needs is a nod from OMB in 
the budget--
    Mr. Gilchrest. A nod from OMB.
    [Laughter.]
    Ms. Brohl. No minor detail, I know.
    Mr. Gilchrest. Remember when we said earlier that we know 
more about the surface of the moon than we do about the oceans?
    Ms. Brohl. Yes, sir.
    Mr. Gilchrest. Well, we know more about the surface of the 
moon than we know about OMB. That mystery entity up there on 
the other side of town. Very rarely do we see an actual human 
being from OMB.
    Ms. Brohl. We hear there are some, rumor has it.
    Mr. Gilchrest. We will do our best to get their nod.
    I have another question, and we are really trying to find 
out the best pieces of information to put this puzzle together 
so we can make a go of it up here with our colleagues on the 
House side. And your testimony so far has been very helpful, 
very beneficial to that end.
    I wanted to ask Ms. McCammon a question that you mentioned 
and you also commented in your testimony, which is on the same 
wavelength as we are here as far as trying to get funding for 
an integrated system nationally. You mentioned a cost/benefit 
analysis for planning and developing a number of the components 
with the system. Are you currently now doing a cost/benefit 
analysis? Have you collected any of that data? Do you have the 
results of it?
    Ms. McCammon. Mr. Chairman, not yet. What we are doing 
right now is identifying what the needs are, and then we will 
go and start doing the cost/benefit analysis to determine what 
priorities we give those needs.
    You look at Alaska and 47,000 miles of coastline, and they 
are huge. You could just do a complete laundry list and go on 
for pages and pages and pages documenting the needs up there. 
But, obviously, no matter how well funded the program 
ultimately is, we are going to have to prioritize. And so we 
are going to have to see how we can get the biggest bang for 
our buck.
    I think Ms. Brohl actually made a very compelling case for 
the need for an integrated system. She argued about the 
difficulty for getting funding for the port systems in the 
Federal budget. But I believe that the more you work with the 
various user groups so that you have multiple users using the 
same system, then you are building a larger constituency.
    When you look at the demographics of this country, where 
are people living? They are living on the coast. They are 
moving to the coast. They are living within 25 miles of the 
coast. If you look at Alaska, it is a coastal State. That is 
where people are. They are using the coast.
    I think you would need to respond to your constituents. 
That is where the constituents are living in this country. So I 
think there is a very compelling case there.
    The problem that we have had in kind of selling this 
program is that I think it is a natural human tendency to 
respond to crises. And so the tendency is to fund--we call it 
the crisis of the day in Alaska, and we always have lots of 
them. If you look at the $160 million that have been spent on 
stellar sea lion research in the last 5 years alone, trying to 
figure out what is causing the decline of the stellar sea lion, 
if you had spent that on long-term research, on long-term 
monitoring over the prior 20 years, I would guess that we 
probably would know more about what is happening with stellar 
sea lions than trying to spend it all in a few short years.
    It is sometimes a hard argument to make to people because 
you have a tendency to want to respond and do something today. 
But I think it really calls out for this long-term commitment 
to monitoring. And there are a number of cases that are being 
made now in pilot projects across the country that I think we 
have the ability to sell that case to Congress and to the 
people who live along the coast.
    Mr. Gilchrest. Well, we are buying into it right now, at 
least two members.
    I wanted to ask a question of Ms. McCammon and Mr. Richert. 
On your systems, to some extent--and I guess also Dr. Grassle, 
your systems are underway now, California, Alaska, and in 
Maine, in various ways. As we pursue this nationally, there 
will be other issues as well, more interest in fisheries 
issues, and then more interest as we move along in global 
warming issues, especially with increasing storms, rain events, 
coastal erosion, coastal communities, and things like that.
    So as your system is now developed to meet various user 
needs and as you are moving forward with these systems, are you 
including or is there a potential to include in your systems an 
ecosystem approach to fishery management plans, for example, or 
an understanding that there is or there may be actual global 
warming underway, so what is the impact in coastal areas and 
what does that mean for the change in freshwater versus 
salinity, the temperature, ocean currents and so on? Are the 
two things being implemented, integrated, an ecosystem approach 
and global warming?
    Ms. McCammon. Mr. Chairman, I will start with that. 
Absolutely. I mean, one of our--two of our largest user groups 
or clients of a system like this would be resource managers, 
and certainly fisheries is a huge component of resource 
management in the State of Alaska. So we have to incorporate 
those kinds of things.
    The fisheries managers want these kinds of long-term 
observations. They want to know: Is it the effect of fishing 
that is causing changes in populations, or is it natural 
variability or is it some kind of a Pacific decadal 
oscillation? Are these short-term changes? Are they long-term 
changes?
    Just 2 weeks ago, the Senate Appropriations Committee held 
a hearing in Anchorage on coastal erosion. We know that there 
are increased extreme storm events in Alaska that are affecting 
the communities of Kivalina, Shishmaref, Barrow, and others on 
the west coast of Alaska. To move these communities would 
cost--I think the estimates they were using is $1 million per 
person in these villages, to move these communities. This is a 
huge potential cost. And so the better we can predict what is 
going to happen with climate change and coastal effects, the 
better prepared these communities can be. Can they use some 
kind of new technology? Can they start moving more slowly? What 
does this mean for building airports and things like that in 
these communities? This is the kind of information that we do 
not need 50 years from now. We need it now.
    So, yes, to both your questions.
    Mr. Gilchrest. Thank you.
    Mr. Richert. I will follow, and then I will let the dean of 
this topic, Dr. Grassle, bat cleanup.
    This is a great question, and thank you, and it is the kind 
of thing that we are just very passionate about and could talk 
for hours about. So I am just going to give you two pieces of 
information about how we are, in fact, very consciously 
integrating our system into the world of ecosystem-based 
management.
    One is that we now are striking up a relationship, we now 
have a formal relationship through a memorandum of 
understanding with the National Marine Fisheries Service and 
with the Maine Department of Marine Resources and Massachusetts 
and New Hampshire and their Canadian counterparts, because we 
are now recognizing that their fisheries surveys--bottom trawl 
surveys--are every bit as much critical observations as our 
real-time observations of sea surface temperature, currents, 
and so forth. And the real treasure lies when we are able to 
bring the biological surveys that have been going on for 
decades together with the physical oceanographic kind of 
monitoring that we do.
    To do that, we have established a formal Gulf of Maine 
Ocean Data Partnership, which has brought together 15 of the 
largest marine data generators, geological, physical, and 
biological and cultural, together and in which we are committed 
to creating a system of data exchange, real-time, on the fly, 
continually updated data exchange so that users out there can 
get the benefit of these multiple sets of data without having 
to go try to track each one of them down individually, very 
difficult, and, in fact, something not done.
    There is a technical challenge here that we are trying to 
overcome, and there is an institutional one, and the purpose of 
the partnership is to overcome especially the institutional 
one. So that is happening.
    But, second, we are already experimenting at GoMOOS and 
have a pilot project in which we have, probably with the help 
of the Census of Marine Life, which I am involved with and 
which Dr. Grassle is involved with as well, been able on a 
small basis to bring in--this was a project needed by the 
Northern Shrimp Council, which is trying to understand the 
abundance and fate of the Northern shrimp, which are very 
sensitive to bottom-water temperatures.
    And so what we have done is set up a system which brings in 
data from NMFS on shrimp and then brings an entirely different 
data base in from the State agencies and then joins that to an 
entirely third data base, which is the GoMOOS data from buoys 
that are situated in a place that is relevant to the species.
    When you go onto www.gomoos.org, you will see Northern 
shrimp project, and you will see how that tool is being made 
available to the decisionmakers on the Shrimp Council because 
this fall they have to make decisions about catch limitations 
and so forth for the coming year.
    So we are in the primitive stages of this, but we are 
moving toward it, and it is a very exciting arena for us to be 
in.
    Mr. Gilchrest. Thank you very much.
    Mr. Richert. Dr. Grassle really is the expert.
    Dr. Grassle. I am very involved in the Census of Marine 
Life internationally because it is an international program 
that aims to study life in the oceans in greater depth than 
ever before. As Evan said, a major part of it is understanding 
fish populations, because if you cannot understand the fish 
populations, and particularly the commercial fish, you are not 
doing a very good job of understanding life in the oceans in 
general. So some of the major parts of that are a tagging 
program which tags large pelagic organisms and tracks them 
throughout the Pacific.
    You heard earlier that there is a global ocean observing 
system that depends on argo floats. Some of those same 
transmitters go on to tuna and turtles and elephant seals and 
albatross. They carry the same kinds of measuring systems that 
would be used in the normal observing system, but you get the 
bonus that you see where the animals are going.
    Mr. Gilchrest. How do you track the albatross?
    Dr. Grassle. I should not have said albatross. Excuse me. I 
should not have referred to albatross, sorry.
    Mr. Gilchrest. Oh, you should not have included albatross?
    Dr. Grassle. Well, they are tracking albatross, but they 
give less underwater information.
    Mr. Gilchrest. I see. But you can follow those albatross.
    Dr. Grassle. Tracking the flights of the albatross, yes.
    Mr. Gilchrest. Were you involved in the recent race of the 
albatross that I read in the paper?
    Dr. Grassle. No. But this work is being done from 
California. Barbara Block is the leader of that program. But 
there is also studies of tracking salmon from the estuaries, 
and this really will be a part of the observing system, putting 
in listening posts that are little bit like the gates that are 
used for tracking cars. If you space the posts, each tagged 
animal when it passes through those gets recorded. And there 
are extraordinary findings about the migrations of fish. We 
have a system of that off our own coast. In New Jersey, we have 
set up a system for fish tagged in Casco Bay in Maine. One of 
them turned up in our estuary.
    Mr. Gilchrest. What kind of fish was it?
    Dr. Grassle. It was a striped bass. We are focusing right 
now on--
    Mr. Gilchrest. I think he was heading to the Chesapeake 
Bay.
    Dr. Grassle. Well, it turns out we find that out because 
our colleagues in Casco found him up in Casco Bay again. So 
that is the kind of thing we--you know, that kind of technology 
has tremendous consequences for really understanding our fish 
stocks. And related to that, we have put in--we have been 
working with the National Marine Fisheries Service and our 
fishing industry in New Jersey, which is quite well organized, 
and they have been interested in improving stock assessment, 
and in some cases they have put up some of their own funds to 
help supplement the regular stock assessment the National 
Marine Fisheries does.
    Part of the stock assessment depends on repeating the same 
kinds of sampling program year after year, but NMFS and the 
fishing industry and Rutgers University have been working 
together to supplement that and try to improve the stock 
assessment approach. And part of that is to use the observing 
system to adaptively sample where the fish might be. In other 
words, you go back to the same place every year and look at the 
stocks, but the fish do not pay attention to geographic points. 
They respond to the ocean. And so you use the observing system 
to adaptively sample where the fish might be. Then you can 
increase the accuracy of the stock assessments.
    Mr. Gilchrest. I see. Thank you very much.
    Dr. Garfield?
    Dr. Garfield. Mr. Chairman, you mentioned California when 
you stated the question, so if I can just add one point here.
    I think Ms. Brohl did an excellent job stating some of the 
navigation needs, but I would like to come back and remind 
everyone that coastal navigation is only one of the goals of 
IOOS. It is not the only one. So there is a whole list of 
national priorities. In our program, we are trying to--in our 
various programs in California, we are trying to recognize 
those and plan for these additions as you come on. And one 
factor that I would just like to get into the record because I 
think it is very pertinent to this argument, some of our 
beachgoers has major economic impact along the coast. But not 
only that, the looming impact of sea level rise. We need some 
of these ocean observing systems to ensure that we understand 
what is going on, because I don't know who should pay for it, 
but the economic impact of what is going to happen along our 
coasts if we do not understand this and plan for it is going to 
be pretty high.
    Mr. Gilchrest. Thank you very much.
    I know this hearing is going on, but I am just pretending 
that every member has shown up today and we are giving them all 
a chance to ask questions.
    [Laughter.]
    Mr. Gilchrest. I may close with this one, and I appreciate 
all of you staying for this length of time, but I wanted to 
focus on sort of the technical aspects of this. Mr. Cooper, we 
mentioned earlier and you mentioned that the potential exists 
for the platforms to be used for this whole ocean observing 
system. What type of technology would be put on platforms, oil 
platforms, either off California in the gulf, to collect data?
    Mr. Cooper. Well, we have had quite a lot of experience in 
collecting physical oceanographic data off of platforms. As I 
mentioned to you, we have got about 15 sites in the deepwater 
Gulf of Mexico that are active now. They use what is known as 
an acoustic Doppler current profiler. It basically sends out a 
sonar beam and can sample ocean currents down to about 1,000 
meters in the water column.
    Mr. Gilchrest. Now, who uses that data?
    Mr. Cooper. We use it a lot for our operational purposes. 
For example, I mentioned to you the loop current. It generates 
very strong currents in the gulf, and those currents can shut 
down drill rigs for weeks at a time.
    Mr. Gilchrest. Now, are those loop currents predictable? 
Are they variable? Have you seen them change in recent years?
    Mr. Cooper. The loop basically does vary a lot over the 
span of about a year. You know, at its southern extreme, it 
will be just off the tip of Cuba. At its northern extreme, it 
will be nearly to Pensacola. And about once a year it pinches 
off an eddy, and then that eddy migrates out into the western 
gulf.
    Mr. Gilchrest. What do you mean it pinches off an eddy? The 
eddy causes it to happen?
    Mr. Cooper. No. The loop itself becomes basically unstable, 
much as--I do not know if you recall, Bob Weller showed a 
picture of the Gulf Stream. It does the same kinds of things. 
It will pinch off large eddies that then migrate over and 
eventually hit--
    Mr. Gilchrest. What causes a loop current? Just the 
geological feature of the Gulf of Mexico?
    Mr. Cooper. It is partially that. It is partially the trade 
winds coming in from the east that then pile the water up 
against the Mexican coast. And then, of course, you have got to 
Yucatan Straits there that offer an outlet and essentially then 
it loops up into the eastern gulf and then out through the 
Florida Straits. It is essentially the precursor of the Gulf 
Stream.
    Now, in terms of whether we have seen long-term changes, I 
would say we do not have enough data really to say one way or 
another. And basically we have been working on forecast models. 
We would love to be able to forecast the loop current 
incursion, you know, a month ahead of time so that we could 
modify our operational plans. But so far we have not been 
successful with that.
    Mr. Gilchrest. Is this loop current more likely the result 
of just the geography of the Gulf of Mexico as opposed to 
warming sea surface temperatures?
    Mr. Cooper. Yes. For all we know, it has been there for 
millennia. It is essentially the precursor of the Gulf Stream, 
so, you know, as the Gulf Stream goes and comes, so would the--
    Mr. Gilchrest. If the Gulf Stream changes, that conveyor 
belt that forces the Gulf Stream to be there, would that change 
the loop current?
    Mr. Cooper. It certainly could.
    Mr. Gilchrest. Well, we almost escaped with that as the 
last question, but our colleague is back from the Indian gaming 
hearing. And he was betting we would still be here. I yield to 
the gentleman from New Jersey.
    Mr. Pallone. Thank you. I do not know if I explained that, 
you know, the full committee is having a hearing at the same 
time down the hall.
    Anyway, I just wanted to ask Dr. Toby Garfield a question, 
because you commented on how--or could you comment I should 
say, because I know that the State of California has moved 
ahead to provide State funding for the development of two 
regional programs. What was behind the support for this public 
investment? I mean, obviously, it is another funding source 
that maybe we should have commented on at the committee today.
    Dr. Garfield. Yes, thank you, Mr. Pallone. The funding 
source for that was State propositions. The voters in 
California can put forward a proposition; if they get enough 
signatures, it goes on the ballot. And so this was part of a 
Water Quality Act--actually, two Water Quality Acts. The total 
I think was $5.8 billion. Of that amount of money that was 
voted in and authorized, $21 million was authorized for coastal 
circulation.
    Mr. Pallone. And so it was voted on by the whole State, the 
voters.
    Dr. Garfield. By the whole State.
    Mr. Pallone. See, we do not have that type of initiative in 
most States, though. That does not exist in most States.
    Dr. Garfield. Right. I recognize that.
    Mr. Pallone. Some people would say, ``Good,'' but--
    [Laughter.]
    Dr. Garfield. When it comes to recalls on things, it 
provides some interesting days.
    Mr. Pallone. All right. Let me just--
    Dr. Garfield. Could I just add one more comment?
    Mr. Pallone. Sure.
    Dr. Garfield. One other reason, I think, that I thank this 
committee for looking at authorizing this is the question of 
liability that Mr. Cooper raised and that was raised earlier, 
that as we develop these systems, if we do not address that 
question about liability, it could be very hard for a lot of 
these operations to keep going because it is a big looming 
question for all of us.
    Mr. Pallone. OK. And then I just wanted to ask a couple 
questions, Mr. Chairman, about the U.S. Ocean Commission 
recommendations. You are all familiar, I think, with the--
    Mr. Gilchrest. Should we turn the light on?
    Mr. Pallone. You want to turn it on or off?
    [Laughter.]
    Mr. Pallone. I am sorry.
    Mr. Gilchrest. That is all right. Go ahead.
    Mr. Pallone. I will be fast. You know, they, of course, 
recommended the integrated ocean observing system. Are all of 
you in support of the Commission's recommendations? In other 
words, in general, are you in agreement with the various 
organizational recommendations, especially leadership through 
NOAA and Ocean.US. You do not have to all--if anybody would 
like to comment on that? Dr. Grassle?
    Dr. Grassle. Yes, I was on the Science Advisory Board to 
the Commission, and I strongly support their recommendations. I 
was surprised that the Administration did not embrace the idea 
of the National Ocean Council. I think that would be a useful 
complement to the Congress' effort to build an observing system 
for the oceans and, in general, be a complement to the 
development of a national ocean policy.
    There are quite a number of recommendations that relate to 
the observing system throughout the report, and my written 
testimony goes into that. But, in general, I think that the 
recommendations are consistent with those that are in the 
latest, very lengthy description of IOOS which is on the 
website.
    Mr. Pallone. Does anybody else want to comment on that?
    Mr. Richert. I will just say that we support the 
recommendations in general. There was some difference in 
language and terminology with respect, for example, to regional 
associations. But, by and large, the meaning is the same, and 
we were very pleased with the report.
    Mr. Pallone. Well, that was sort of my second question, you 
know, whether or not the process implemented by Ocean.US to 
develop a national implementation plan adequately involved 
existing regional programs. Maybe you can comment on that, too, 
in the context of it.
    Mr. Richert. They have been terrific. Ocean.US has been 
extremely dutiful and conscientious in making this a grass-
roots effort and bringing in a lot of interests and 
stakeholders and regions.
    Mr. Pallone. OK. Go ahead. Anybody else? Ms. Brohl had a 
comment. You can go ahead.
    Dr. Grassle. One of the important parts of the Ocean 
Commission recommendations is that they recommend funding NOAA, 
but they also--that is a vehicle for funding what will be the 
equivalent of a national ocean partnership. They changed the 
name of the National Ocean Research Leadership Council to a 
different name, and that is a coordinating mechanism for 
funding in other agencies as well. And so I think that an 
essential part of the observing system funding is that all 
agencies are involved, and there has to be some cross-cutting 
structure for ocean science to do that.
    Mr. Pallone. Do you want to comment?
    Ms. Brohl. It is as close to a loaded question as there has 
been today. From our perspective, we kind of keep asking 
ourselves what came first, the Ocean.US vision of IOOS or the 
Ocean Commission's vision of IOOS. And I think they all become 
kind of blended at some point. And it does not really matter 
whether you say, gee, do you like the recommendations of the 
Ocean Commission or do you like how NOAA has a vision for IOOS 
through the Ocean.US, because Ocean.US and NOAA are very 
intertwined.
    At no time so far has commercial maritime been engaged in 
Ocean.US or IOOS development. Now, the GoMOOS is an exception. 
They started before this whole regional association concept got 
some funding. The coalition has met with Dr. Spinrad to say 
there is something wrong with this picture, because we are 
intimately tied to the whole development of real-time 
monitoring systems. We have funded them. We have been in 
partnership with NOAA on them. Ad we find it just amazing that 
there is not one commercial maritime in any of the development 
boards for any of the regional associations.
    However, we have been assured by Dr. Spinrad that, to quote 
him, ``the train is not out of the station'' with regard to 
regional associations, that they are merely in development, and 
that their goal is, in fact, not just to receive research 
funding and that, in fact, they do have commercial maritime 
interests in mind.
    That has not really happened yet. We are still in that 
process of discussion. And to give Dr. Spinrad credit, he has 
created on behalf of commercial maritime interests through the 
coalition. There is going to be a public meeting to brief 
commercial maritime on what IOOS is and the NOAA vision, this 
Ocean.US vision of maritime, and that will be held on July 30th 
in New York City. And we will be glad to get you that 
information and make sure that information is forwarded to the 
Subcommittee.
    But the vision right now of IOOS from our perspective is 
very narrowly channeled toward universities and research 
funding, and we see a gap between that and the idea of really 
integrating data and creating systems by which we can read 
data.
    The Chairman asked me a question before, where do we stand 
on this? And we see two very separate issues on the table here. 
One is this vision of let's integrate data. We need to do it. 
We heard lots of good reasons why you have got so many 
different people creating systems. Let's integrate that. Let's 
standardize it. Let's make sure it can all be channeled through 
perhaps COOPS and their online access. That would be terrific. 
Then we all benefit.
    We can enhance that through existing authorization by 
increasing more water level--excuse me, real-time water hydro 
monitoring platforms, let's say, enhance them based upon 
maritime and resource management and research needs.
    Now, the whole concept of a big huge process in regional 
associations, because of the way they have been presented so 
far and organized so far and the fact that commercial maritime 
has not been a part of the process at all so far, we just have 
a lot of questions and wonder whether the train is really way 
ahead of us and whether there is a possibility of chasing it 
and catching up, which we would like to do.
    Mr. Pallone. OK. Just one more thing. The Commission 
recommended funding an integrated ocean observing system 
through one line item in NOAA's budget. Now, you know, given 
that that would eliminate the congressional earmarks for 
specific programs, does that pose a problem? Or what would your 
reaction be to that? And I promise not to ask anything else.
    Dr. Garfield. In California, we really would like to 
promote a broad interagency approach.
    Mr. Pallone. OK.
    Ms. McCammon. I would agree with that in Alaska. I know 
there was some concern expressed about having all the funding 
go through NOAA because the idea is that there would be this 
plan that was developed in conjunction with regional 
associations expressing the needs for other agencies other than 
NOAA, such as Interior, USGS, NASA, the Navy. And so there was 
some concern about the funding going through NOAA because the 
idea is that it goes to NOAA, but then it would go out to those 
other agencies according to a plan recommended by Ocean.US and 
adopted by NORLC, the National Ocean Research Leadership 
Council. So as long as it followed kind of that strategy, we 
would support it.
    Mr. Richert. I agree with Molly. I have no problem with the 
money going through NOAA. I think that in the end may be the 
practical thing to do, as long as that money then is disbursed 
according to a plan adopted by the National Ocean Research 
Leadership Council and that there was monitoring and 
enforcement of that disbursement in that manner.
    Mr. Gilchrest. So instead of saying NOAA may distribute 
this money, we will put ``NOAA shall distribute this money.''
    Mr. Richert. Yes.
    Mr. Gilchrest. I just want to say, Ms. Brohl, that this is 
not about a train leaving the station, which is usually 
accelerating at a high speed in a short period of time. It is 
about a ship leaving the harbor.
    [Laughter.]
    Mr. Gilchrest. It has not left the harbor yet. It is still 
tied up. Of course, we do not want to keep it tied up, but we 
will make sure you will all be included in these discussions in 
the coming weeks and months ahead.
    I do have another appointment at 2 o'clock. I had one at 
1:30. I am not sure if the gaming hearing is over yet, Mr. 
Pallone.
    Mr. Pallone. It is over.
    Mr. Gilchrest. It is over. Anyway, I truly want to thank 
all of you, we want to thank all of you for your vital input 
this afternoon. It has been exceptional, and we will take your 
testimony and blend it in with legislation that we hope will 
come up in the not too distant future.
    Thank you all very, very much. This hearing is adjourned.
    [Whereupon, at 1:52 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
